<html>
<title> - AFGHANISTAN'S HUMANITARIAN CRISIS: IS ENOUGH AID REACHING AFGHANISTAN?</title>
<body><pre>[Senate Hearing 107-235]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-235
 
                   AFGHANISTAN'S HUMANITARIAN CRISIS:
                  IS ENOUGH AID REACHING AFGHANISTAN?
=======================================================================




                                HEARINGS

                               BEFORE THE

                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                                AND THE

                     SUBCOMMITTEE ON INTERNATIONAL
                        OPERATIONS AND TERRORISM


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                 OCTOBER 10, 2001 AND NOVEMBER 15, 2001
                               __________

       Printed for the use of the Committee on Foreign Relations









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                            U.S. GOVERNMENT PRINTING OFFICE
75-946                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director


                      SUBCOMMITTEE ON NEAR EASTERN
                        AND SOUTH ASIAN AFFAIRS

                 PAUL D. WELLSTONE, Minnesota, Chairman
ROBERT G. TORRICELLI, New Jersey     SAM BROWNBACK, Kansas
BARBARA BOXER, California            GORDON H. SMITH, Oregon
PAUL S. SARBANES, Maryland           BILL FRIST, Tennessee
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia

                     SUBCOMMITTEE ON INTERNATIONAL
                        OPERATIONS AND TERRORISM

                  BARBARA BOXER, California, Chairman
JOHN F. KERRY, Massachusetts         MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 BILL FRIST, Tennessee
JOSEPH R. BIDEN, Jr., Delaware       JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     SAM BROWNBACK, Kansas

                                  (ii)

  













                            C O N T E N T S

                              ----------                              
                                                                   Page

          Afghanistan's Humanitarian Crisis--October 10, 2001

Bacon, Ken, president, Refugees International, Washington, D.C...    42
    Prepared statement...........................................    43
De Torrente, Nicolas, executive director, Doctors Without 
  Borders, New York, New York....................................    35
    Prepared statement...........................................    39
Kreczko, Alan, Acting Assistant Secretary, Bureau of Population, 
  Refugees and Migration, Department of State, Washington, D.C...    21
    Prepared statement...........................................    22
Natsios, Andrew S., Administrator, United States Agency for 
  International Development (USAID)..............................     9
    Prepared statement...........................................    12
    Responses to Additional Questions Submitted for the Record...    15
Rocca, Christina, Assistant Secretary of State for South Asia, 
  Department of State, Washington, D.C...........................    17
    Prepared statement...........................................    19
Smeal, Eleanor, president, Feminist Majority, Arlington, Virginia    46
    Prepared statement...........................................    49

              Humanitarian Crisis: Is Enough Aid Reaching
                    Afghanistan?--November 15, 2001

Bartolini, Mark, vice president of Government Relations, 
  International Rescue Committee, Washington, DC.................    85
    Prepared statement...........................................    87
Charny, Joel, vice president, Refugees International, Washington, 
  DC.............................................................    80
    Prepared statement...........................................    82
Devendorf, George, director of Emergency Operations, Mercy Corps, 
  Washington, DC.................................................    77
    Prepared statement...........................................    78
Kreczko, Alan, Acting Assistant Secretary, Bureau of Population, 
  Refugees, and Migration, Department of State, Washington, DC...    68
    Prepared statement...........................................    69
McConnell, Bernd, Director of Central Asian Task Force, U.S. 
  Agency for International Development...........................    64
Natsios, Hon. Andrew S., Administrator, U.S. Agency for 
  International Development, prepared statement..................    64
Oxfam International submission of 3 articles for the record:
    ``Rebuilding Afghanistan: An Agenda for International 
      Action''...................................................    97
    ``Food Has Now Run Out for Many Afghan People''..............    99
    ``Between A Rock and A Hard Place''..........................   101
Rogers, Leonard, Acting Assistant Administrator for Humanitarian 
  Response, U.S. Agency for International Development............    72

                                 (iii)

  









                   AFGHANISTAN'S HUMANITARIAN CRISIS

                              ----------                              


                      Wednesday, October 10, 2001

        U.S. Senate, Committee on Foreign Relations,
            Subcommittee on Near Eastern and South Asian 
            Affairs, and the Subcommittee on International 
            Operations and Terrorism,
                                                 Washington, D.C.  
    The subcommittees met at 2:30 p.m., in room SD-419, the 
Dirksen Senate Office Building, Hon. Paul Wellstone (chairman 
of the subcommittee) presiding.
    Present: Senators Wellstone, Biden, Dodd, Boxer, and 
Nelson.
    Senator Wellstone [presiding]. This hearing, which will be 
a joint Senate Foreign Relations Subcommittee, Near Eastern and 
South Asian, and International Operations Committees will come 
to order.
    Let me thank all for being here. We will have brief opening 
statements, and then we will go to Mr. Natsios who is the 
administrator of the United States Agency for International 
Development, and then Christina Rocca, who is Assistant 
Secretary of State for South Asia, and then Alan Kreczko, 
Acting Assistant Secretary of the Bureau of Population. We will 
go in that order by protocol.
    The second panel will be Mr. Nicolas de Torrente, Executive 
Director of Doctors Without Borders; Ken Bacon, president of 
Refugees International, and also Ms. Eleanor Smeal, president 
of the Feminist Majority.
    Let me at the outset--and I think each of us will try to 
keep our statements brief. I want to thank Senator Boxer for 
agreeing to co-chair this hearing with me, and I want to thank 
all of the participants who have taken time away from pressing 
work to be here to testify today.
    The September 11 attacks in New York and Washington require 
our country to respond assertively and effectively against 
international terrorism. As the administration takes military 
action inside Afghanistan, I believe we must also take urgent 
steps now to address the humanitarian crisis there.
    Even before the world focused on it as a sanctuary for 
Osama bin Laden and other terrorists, Afghanistan was on the 
brink of a humanitarian catastrophe, the site of the greatest 
crisis in hunger and refugee displacement in the world. Now the 
worsening situation on the ground is almost unimaginable. After 
four years of relentless drought, the worst in three decades, 
and the total failure of the Taliban government in 
administering the country, 4 million people have abandoned 
their homes in search of food in Pakistan, Iran, Tajikistan and 
elsewhere, while those left behind eat meals of locusts and 
animal fodder; 7.5 million people inside the country are 
threatened by famine or severe hunger as cold weather 
approaches, according to the United Nations.
    As President Bush made clear, we are waging a campaign 
against terrorists, not ordinary Afghans, who are some of the 
poorest and most beleaguered people on the planet and were our 
allies during the Cold War, when it suited our interests. We 
abandoned Afghanistan then--we can never afford to do so again. 
I have said before that I believe any military action must be 
targeted against those responsible for the terror attacks and 
those harboring them, planned to minimize the danger to 
innocent civilians on the edge of starvation, and prepared to 
address any humanitarian consequences immediately.
    Osama bin Laden is not a native of Afghanistan, but of 
Saudi Arabia. Most Afghans do not support bin Laden. Instead, 
ninety percent of the Afghan people are subsistence farmers 
struggling simply to grow enough food to stay alive. War 
widows, orphans, and thousands of others in the cities are 
dependent upon international aid to survive.
    Now, fearing the effects of the military attacks and 
forcible conscription by the Taliban, almost a million Afghan 
civilians are on the move, fleeing the cities for their native 
villages or for the borders.
    We all agree that there is a humanitarian disaster on the 
ground. We all agree that we--the United States--cannot turn 
our backs again on the people in Afghanistan as we did after 
the defeat of the Soviet Union; and we also, I think, agree 
that the terrorists are our enemy, not innocent civilians in 
Afghanistan.
    Inside Afghanistan, the United Nations World Food Program 
aid, much of it U.S.-donated wheat, was the sole source of food 
for millions. UNWFP announced yesterday that it was stopping 
all food shipments to Afghanistan, citing the danger the 
fighting posed to its truck convoys. Our first priority must be 
to enhance security for these convoys to get food immediately 
to the maximum number of people inside the country. Let me 
repeat that. Our first priority must be to enhance security for 
these convoys to get food immediately to the maximum number of 
people inside the country.
    To get needed aid in and slow the outflow of Afghan 
refugees driven by lack of food at home, the United States must 
urge the Pakistani government to immediately relax its border 
restrictions enough to allow the flow of food and other 
humanitarian into Afghanistan, while maintaining border 
security.
    There is no easy solution to this building crisis, and yet 
our Government must aggressively seek solutions to the critical 
needs of Afghan civilians. As one of its most urgent tasks, the 
United States must do its part to shore up relief operations 
and help to again get aid flowing to the people inside 
Afghanistan now.
    While food deliveries inside Afghanistan must be the 
priority, air drops of food are not enough and will not 
necessarily reach those in need. We also must prepare for an 
already critical situation to worsen as Afghanistan heads into 
its notoriously harsh winter. We must prepare now for huge 
numbers of refugees and humanitarian problems in the aftermath 
of military strikes, prepositioning in the region the people 
and resources that we need to deal with.
    Particular concern must be paid to the special nutritional, 
health, and shelter needs of women and children who will make 
up the bulk of the refugees. The United States must do 
everything it can now to alleviate the suffering of ordinary 
Afghan civilians. While President Bush pledged $320 million, 
the need is immense. The United Nations has said that $584 
million will be needed to protect and assist 7.5 million 
Afghans from now until the winter snows melt. We have agreed to 
participate in U.N. efforts to raise funds more quickly.
    The United States and our allies must lead this effort, 
especially now as we seek to build a coalition of moderate Arab 
and non-Arab Muslims around the globe for our anti-terror 
efforts. If the humanitarian catastrophe in Afghanistan is 
attributed to our military operations, it could pull apart our 
international coalition to fight terrorism, radicalize more 
people who might be sympathetic to the terrorist views, and may 
even make the American people more vulnerable in the end.
    Finally, any successful operation against terrorism in 
Afghanistan requires that we help the Afghan people establish a 
legitimate government there and to rebuild their country. I 
join my colleague Senator Biden and appreciate his fine work in 
calling for a $1 billion long-term economic reconstruction 
program for the region. Such a package must target the 
restoration of a woman's right that was destroyed by the 
Taliban by providing secular schools for girls, including the 
creation of full-scale hospitals and clinics.
    As we have seen in the case of the schools, the absence of 
basic social services creates a vacuum to be filled by radical 
extremist groups. Moreover, we must work to rebuild the 
shattered infrastructure by laying roads, drilling wells for 
clean drinking water, and providing a range of developmental 
projects. We as a country have a great challenge before us; and 
for our sake and for the sake of the Afghans, we must match our 
words with strong, generous actions.
    I thank again all of you for being panelists, all of you 
for being here, and I now turn this over to Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman. This is a 
rare time when we do join hands in subcommittees, because there 
is a lot of oftentimes duplication; and we so much wanted to 
work together on this situation, this humanitarian crisis that 
is developing, so we teamed up today.
    I want to thank Senator Biden, our chairman, for 
encouraging us to do this; and I want to thank my colleague, 
Chris Dodd who in 1997 was really the first one to call 
attention to the horrors visited upon the women of Afghanistan 
from the Taliban.
    And my last thank you for the moment is to the Fund for a 
Feminist Majority who came to me in about 1998 and helped me 
get through the Senate and sign into law a resolution which I 
co-authored with Senator Brownback, urging the Clinton 
administration at that time not to recognize the Taliban as a 
legitimate government of Afghanistan; and I was happy that we 
did that resolution again, and the Bush administration and the 
Clinton administration both followed through. I am just 
thanking you, Mr. Chairman, for supporting us in this hearing.
    The events of September 11 and this weekend's military 
action have focused the world's attention on what was visited 
upon our country and our people. The sheer terror of what 
happened is seared into our brains, and it has also focused 
attention on the people of Afghanistan; and I think that this 
administration is doing everything it can to get the message 
across that this military action is not aimed at the people. 
The people are our friends.
    We want to help them. It is such an amazing thing to 
remember the bombs dropping and the food dropping, but we are 
on a two-track path here to defeat the Taliban who are 
harboring terrorists and yet to feed the people and make the 
people whole once again.
    The other thing the Fund for a Feminist Majority did is to 
come to me way before any of this this year and say, we have 
got to do more for the people there; we have the humanitarian 
crisis there. And that was before, Mr. Chairman, before 
September 11, and we were trying to wrap our arms around the 
size of the package, and it was so big that it was 
unbelievable. I am so glad, Mr. Chairman, that you stepped in. 
I think there is probably great agreement on the driving forces 
behind this crisis.
    First, the nearly continuous war that for more than 20 
years has decimated Afghanistan and killed an estimated 1.5 
million people; second, a devastating drought that has affected 
much of Afghanistan's population, killing livestock, destroying 
crops, and creating the worst famine in decades; third, the 
illegitimate Taliban regime that forces its extreme 
interpretation of Islam on the people of Afghanistan.
    Through its Ministry for the Promotion of Virtue and 
Prevention of Vice, the Taliban carries out punishment such as 
stonings, hangings, floggings, and amputation of limbs. They 
use food as a weapon. The Taliban is very harsh on women who 
may not go to work, go to school, and must black out the 
windows of their homes. In my office, I have a burqa that women 
must wear that was given to me by my friends from California. I 
have it hanging there as a reminder of what women go through. 
They are made invisible. They are not human, and in many ways 
really don't exist. That burqa says it all. If you put that on, 
you can barely breathe.
    It is an incredible situation. The women can't go to work; 
they can't go to school; they can't see a male doctor.
    Since the schools are closed, who are they going to go to 
for their health care? They die in tremendous numbers giving 
birth. The infant mortality rate is impossible to imagine.
    The final cause is the fact that the United States turned 
its back on Afghanistan following the Cold War.
    Again, this is something I think everyone in both parties 
has agreed on. It was a mistake we must now take action to 
correct. It is also a reason why a strong U.S. humanitarian 
response is crucial to prove without a doubt what I said about 
the Bush administration's dual track, that we are fighting 
terrorism, not the Afghan people, and also certainly not Islam.
    In closing, I want to tell you that in Time Magazine last 
spring--and so that is before all of this--there was a story 
about an 8-year-old boy who died in a refugee camp.
    Prior to the boy's death, his father had waited in line in 
the camp clinic from dawn to dusk with hundreds of others 
stricken with tuberculosis, measles, bronchitis, and other 
diseases.
    This child had pneumonia, and when the boy's father finally 
reached the front of the line, he received 12 aspirin. That is 
all, and the child died.
    We must do better. We can do better, and we will do better. 
I am looking forward to our two panels. I am so happy that, Mr. 
Chairman, you have joined us. It means a lot to both Paul and 
to me. Thank you.
    Senator Wellstone. Senator Boxer, we will try and go, if it 
is okay with Senator Dodd and Senator Biden, we will each try 
to keep under five minutes, because we have two panels. Senator 
Dodd.
    Senator Dodd. Well, Mr. Chairman, I just want to thank you 
for doing this, along with Senator Boxer. It is very valuable. 
We have wonderful witnesses to hear from. I appreciate Senator 
Boxer entering the 1997 resolution in February of that year, 
which the Senate Foreign Relations Committee passed, I think, 
unanimously. The House didn't act on that resolution. Not that 
the resolutions are necessarily going to change things, but 
this is not a recent phenomenon. We identified, in the language 
I wrote then, not only the human rights condition but also the 
harboring of terrorists and the potential problems the Taliban 
posed.
    It has been said over and over again here now by Senator 
Wellstone and Senator Boxer, and it needs to be repeated, and 
that is, of course, our quarrel, to put it mildly, is with the 
Taliban and with the terrorist organizations they support, and 
not with the people of Afghanistan. It is vitally important 
that be repeated as often as possible so that message may get 
through to the millions of people who are suffering.
    The map here that you are going to have before you outlines 
some of the drought areas, the worst drought in memory. Many 
people say literally millions of people's very lives are 
hanging in the balance. It has been recommended by Senator 
Biden among others to have a significant humanitarian 
commitment to the people of Afghanistan.
    The pressures are huge. The ebola virus--or something like 
it--may have broken out in the camps in Pakistan. They are 
closing down borders, creating even more pressures on this 
desperate population seeking to avoid the hostilities in their 
countries, seeking some security, some sustenance in these 
camps. The pressures on Pakistan as well as on the people 
operating these camps are going to be tremendous. They already 
are.
    So, while we are pressing the conflict against the Taliban 
and the terrorist organizations, it is going to be critically 
important--the success of the military campaign, in my view, 
will bear directly on our ability to succeed in humanitarian 
campaign, and if we wait to complete one before starting the 
other, we will fail. This has got to be as much an effort as 
the military campaign is, or we run the risk of millions of 
people losing their lives, not because of what we are doing, 
obviously, but because of what the Taliban is doing.
    But you can fill the ranks of those who would become the 
foot soldiers of these organizations if we don't understand the 
dimensions of the human problem that exists, so I am grateful 
for the hearing and look forward to hearing from the witnesses.
    Senator Wellstone. We will first hear from Chairman Biden.
    The Chairman (Senator Biden, chairman of the full 
committee). I just want to thank my colleagues for being 
willing to do this and explain my absence. I am chairing the 
hearing on the new drug director, drug czar, downstairs in the 
Judiciary Committee, and both Senators Wellstone and Boxer have 
done a great deal of work in this area for a long time, and so 
it is not only appropriate. It is a bit unusual for two 
subcommittees to hold a joint hearing, but the two of them have 
been so deeply involved and concerned about this area of the 
world, Afghanistan and particularly the Taliban precisely, that 
it is appropriate that this be done.
    Let me begin by saying that you are going to be preaching 
to the choir here. I have had the chance to meet with the 
administration extensively on this, and I must tell you, and I 
will say publicly, I am extremely pleased by the way in which 
the Secretary of State has led in this area, and I not only 
have not gotten resistance to the proposal I have made.
    Quite frankly, it was a little bit of unofficial 
collaboration that went on here in terms of the proposal, so I 
don't want anyone to think I am making that speech on the floor 
and talking about an immediate billion dollars and a long-term 
commitment is necessarily an abridgement with me. I don't want 
to get anyone into trouble, but there are a significant number 
of people in the administration in high positions who feel very 
strongly that this is not only the short-term commitment but 
long-term commitment.
    I had the opportunity, I would say to our co-chairs, 
yesterday to spend a little over an hour with the President on 
this very subject. I am absolutely convinced the President 
understands the need for this to be a long haul, and I think 
this may be the first time in the history of warfare where 
literally as we are dropping bombs, we are dropping food, not 
follow-on, but as we are dropping bombs, we are dropping food.
    We are dropping 350,000 meals. There would be enough 
sustenance for an individual person for one day and 350,000 we 
have also committed. I think it is too little, but I think it 
is great that is has begun over $350 million toward what Kofi 
Annan has suggested is needed for the next six months of 
roughly $450 million. Through the leadership of the 
administration, the rest of our friends around the world have 
pledged the remainder of that money up front.
    I met today with Lord Robertson of NATO, and one of the 
issues we talked about--and everyone understands this is the 
guy heading the NATO operation--the arrow is in the talon, and 
not the peaceful side of this equation, and that the only 
discussion was about what we do after we, quote, win. That is 
after the hostilities cease, and so there is an overwhelming, I 
think, understanding on the part of most of the members of 
Congress, I hope, and most of the members of the 
administration, I know, for the need for this to be a long-term 
operation, and it is not only when the last Russian troop 
crossed the Afghan border heading north.
    Not only did they leave Afghanistan, but Afghanistan left 
the consciousness of all but a few here in the United States 
Congress. I was here, so--and I am not laying this on anyone 
else. I was here. There was not nearly enough attention paid, 
but because of my three colleagues here, including Senator 
Dodd, they tried to keep a focus on it, and the truth of the 
matter is not enough of us listened as well as we should have, 
and the world surely didn't. We kind of hoped this would go 
away.
    So that I just want to say I know you are going to be 
preaching to the choir a little bit. I know we are not going to 
use words like ``nation-building,'' because that scares the 
hell out of the Republicans, and you beat up the former 
President for years on it, and you are about to do it, thank 
God. But what I want to make clear here is we are talking about 
draining the swamp. That is a phrase that has become almost a 
cliche these days, draining the swamp, where these terrorists 
are able to breed, if you will. Well, once we drain the swap, 
we had better plan something in that swamp.
    There had better be something that is put in its place. It 
better be something that fills the swamp, again what was the 
swamp.
    And so, I think that the long-term solution includes such 
important items as secular education for both boys and girls in 
Afghanistan. It will serve two purposes. It will break the grip 
the radical religious academies have on that part of the world, 
because of the void that has been left. I mean, as you all 
know--and I know this, again, is preaching to the choir--the 
administration witnesses know half the reason why half these 
young men are in these academies, it is the only place their 
parents could put them, knowing they would get three square 
meals a day and get clothed, and the choice was an easy one for 
them to make.
    But it has had a devastating impact upon the mentality and 
attitude of the region, and so I think that no wonder this is a 
nation that is in ruins, when you keep half your population, 
the women of a population, in such a subservient position, 
there is no possibility of you progressing. And so one of the 
things we can do is literally with the rest of the world see to 
their secular education.
    We could be involved extensively in demining operations.
    We can be involved in crop substitution for the narcotics, 
because they are the world's foremost producer of opium, and 
basic infrastructure projects like wells, water purification 
and hospitals, village hospitals, village clinics, et cetera, 
and this cost is going to be very, very high. We should not kid 
each other. We are talking about billions of dollars. we are 
not talking about $100 million or 200 or 500.
    We are talking about $585 million just to keep people from 
dying in these camps over this winter, so this is a gigantic 
cost, and my plea to the administration and to my colleagues--
and I don't have to plead to these three, because they are 
ahead of me on this--is that the same fervor with which we put 
together this coalition to take on this cancer that we were 
awakened to in a horrible manner on one month ago today is the 
same coalition we have to keep together to see to it that we 
don't allow the same swamp to fill up again, coming out of our 
naked self-interest.
    If anything is going to demonstrate to us that we cannot 
stand alone, that we cannot unilaterally dictate the outcome of 
our future, it is what has happened in Afghanistan. What has 
happened in Afghanistan, we are bearing the brunt of now, right 
now in terms of us being under siege. And so just as the fight 
against terrorism is truly a fight for all nations, I think the 
fight against destitution and despair that breeds terrorism is 
the fight of all nations.
    Again, thank you, both of you, for doing this, and thank 
the administration. I am going to tell you what I said--and I 
have said this straight out--I kid with the Secretary. He says, 
For God's sake, don't compliment me too much; it hurts my 
reputation. But all kidding aside, I think the administration 
has stepped up to the ball here in a way that I must tell you, 
I did not expect. And for that I publicly apologize for not 
expecting it.
    But you have stepped up to it. You have stepped up to it in 
a way that I think has thus far been absolutely first rate, and 
I have never once had a conversation at State--and I have had 
many, as you know--I have never once had a conversation at 
State where anybody ended the sentence by saying, And when we 
get Al-Qaeda, we leave. Nobody is thinking that way now.
    Although there are a number of people in the administration 
who do think that way, who you have not--thus far have not been 
able to convince, the President--your view has been the one the 
President seems to have embraced, and so as Jim Eastland once 
said to me back in 1978 when I was running a tough reelection 
campaign, I walked into the Senate dining room one afternoon as 
we were about to adjourn sine die, and the old conservative 
chairman of the Judiciary Committee on which I served looked at 
me. I must have been flunking what I called the slope-of-the-
shoulder test, and that is, I was running, and I guess I was 
looking like this.
    And when anybody says, How are you doing in your race, and 
you go, Oh, I am doing great, you know you are losing. If you 
stand up and say, I don't know, okay, you know they are 
winning. I must have been flunking that test. He called me 
over, and he said, Do you need help in Delaware. I said, Mr. 
Chairman, I do need a lot of help. He said, What would Jim 
Eastland do for you in Delaware. I said, In some parts you 
would help me, Mr. Chairman, and in some parts, you would hurt. 
And he took that cigar out of his mouth and--This is an 
absolutely true story. You used to be able to smoke in the 
dining room then. And he looked at me, and he said, Well, Joe, 
I will come and campaign for you or ag'in' you, whichever will 
help the most. I want the administration to know, I will say 
bad things about you and good things about you, whichever will 
help the most in you continuing this process.
    Excuse me. I have just been corrected. Not 350,000; 35,000 
meals have been dropped so far, but that is just the very 
beginning. So at any rate, I thank you for what you have been 
doing. Keep up the work. You have got a lot more to do, and 
together we have got to convince the American people that what 
the President says, he means. This is not going to be done in a 
short time, and part of this process is the very thing my 
colleagues are working.
    I thank you, Mr. Chairman.
    Senator Wellstone. Thank you, Mr. Chairman.
    Mr. Natsios, again, Administrator, United States Agency for 
International Development.

   STATEMENT OF MR. ANDREW S. NATSIOS, ADMINISTRATOR, UNITED 
          STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Natsios. Thank you, Senators. Thank you for inviting me 
and my colleagues here for this extremely important and timely 
hearing on the humanitarian crisis in Afghanistan. Afghanistan 
truly is a country in crisis, a crisis that well predates the 
events of September 11 by many years.
    Three years of drought and 22 years of conflict and five 
years of brutal Taliban misrule have brought untold suffering 
to millions of people. The long drought has caused the near 
total failure of rain-fed crops in 18 of the 29 provinces in 
the country. Only 10 or 12 percent of the country is now 
arable, and much of that land cannot be used due to mines and 
fighting that has raged about the country since the Soviet 
invasion in 1979.
    Thirty percent of the Afghans' irrigation infrastructure 
has been damaged or fallen into disrepair, rendering about half 
of the irrigated land completely unusable. In 1979, Afghanistan 
was able to feed itself. Last year, the food deficit was 1.8 
million metric tons. The Food and Agriculture Organization 
estimates the country will only produce 10,000 of the 400,000 
metric tons of seed that it will need for this fall's winter 
wheat crop, and next spring's planting, and we know the reason 
why.
    Most of the seed has already been eaten by farmers who fear 
that they may not survive until the next crop. That is the 
typical famine coping mechanism. It is where people consume 
their feed if they do not think they are going to survive to 
the next crop.
    Approximately 12 million people, almost half of the 
nation's inhabitants, have been affected by the drought.
    Between the fighting and the drought, upwards of 3 million 
people have been driven from the country and are living as 
refugees. Another million are internally displaced, and many 
thousands more are unable to move due to sickness, injury, 
disability or hunger.
    The WFP, the World Food Program, distributes on a wholesale 
basis into the country, and then the NGOs distribute to people 
directly inside the country. Estimates are that food stocks in 
the country are critically short, and they are aggressively 
seeking to move food into the country.
    As of this morning, I talked with Catherine Bertini, my 
good friend who is the director, the executive director of the 
World Food Program, and she told me that WFP had just sent 
convoys out from four countries with 3,300 metric tons of food 
from Iran, Turkmenistan, Tajikistan, and Pakistan into the 
country so the food deliveries that were suspended on Saturday 
have resumed, and Catherine and I agreed we needed to push 
those deliveries before the snows arrive in the high mountain 
areas of the Hindu Kush, among the highest peaks in the world.
    Many people don't realize the terrain in central 
Afghanistan is very similar to Tibet's. There is a high plateau 
very similar to those in Tibet, and the highest peak is 25,000 
feet high. Mt. Everest is 29,000 feet. These are not small 
mountains; these are huge mountain ranges, and there are 
millions of people who live in those mountains.
    Although WFP wasn't able last week or as of Monday to hire 
commercial truckers to take food in, its operations 
nevertheless have proceeded as of this morning, as I just 
mentioned. The international community who I understand is here 
today has been able to maintain the programs in many parts of 
the country. We met with the major NGOs last night, the 
American NGOs that are doing the retail food distributions, 
individuals, and a number of them told me there has been no 
disruption to their operations at all.
    The conflict is really confined to certain areas of the 
country. There are large parts of the area in which 
distributions have continued and aid programs have continued.
    There are, however, 1.5 million Afghans who are seriously 
at risk of starvation this winter, and there are another 5 to 7 
million Afghans facing critical food shortages and are 
partially or fully dependent on outside assistance for their 
survival.
    One of the first actions I took when I was confirmed 
administrator of USAID at the beginning of May this year was to 
order an assessment conducted by the Office of Foreign Disaster 
Assistance, working with the State Department's Bureau of 
Population, Refugees, and Migration. They did an assessment 
with U.N. agencies inside the country, and they came to the 
conclusion that Afghanistan was on the verge of widespread and 
precipitous famine.
    Based on this and other information and with the support of 
Secretary Powell, I ordered the disaster assistance response 
team into the region in June. It has been there ever since, and 
it has continued to work with NGOs. We have also increased by 
100,000 tons the food commitments. This was in early June. This 
was preceding, well preceding September 11.
    Our aid program in Afghanistan in the last fiscal year, 
again preceding this event, the events in the United States, 
was $184 million, 300,000 tons of food. It was one of our 
largest humanitarian relief operations. It was based purely on 
need, need of the Afghan people because of the civil war and 
the drought.
    There is a terrible need inside Afghanistan. I am not going 
to go through the entire testimony I provided, but I want to 
focus on five key strategies that we are pursuing to deal with 
this emergency. The first and primary response is to reduce the 
death rates. That is our first principle in all that we do. How 
can we drive the death rates of this famine down?
    The famine has not peaked. Famines move in chronological 
cycle, and if you look at famines, you will see rising death 
rates. They peak; then they begin to diminish, and they get 
down to a normal level after a year or two. We have not yet 
peaked. In fact, we are at the beginning of the rise in these 
death rates. In the assessment that was done in May, we noticed 
in some villages six, sometimes eight people were dying per 
10,000 people each day.
    In the OFDA doctrine and public health doctrine, usually in 
our public health schools, if more than two people a day die 
per 10,000 people, it means there is a severe food emergency. 
In most of our cities and towns in the United States, half a 
person dies--or a person dies every other day. If you took a 
town of 10,000 people, and you did the statistics for a year, 
you would notice one death every other day. So if you have two 
every day, you know that the rate has gone up dramatically. If 
you have six to eight, you have a famine.
    And, in fact, in some villages, those rates were--had 
reached that level last spring, and if you add the numbers up, 
that means 30 percent of the village would be dead within a 
365-day period. So you can see how severe it was in certain 
areas. It had not spread across the whole country. We were 
seeing it begin to appear, and that is the typical pattern in 
famines.
    The second thing we are doing is to minimize population 
movements. People move for two reasons: one, for security, and 
they cross international boundaries because of that, to refugee 
camps, to displaced camps inside the country. But they also 
move because they are hungry, and that is generally a post-
famine indicator in certain regions. People leave their village 
when they have absolutely no options left, when there is no 
food on the way. That is when they start dying.
    They have no other way of surviving.
    We do not want population movements in a famine, simply 
because when people are acutely malnourished, they do not last, 
particularly when it gets cold. Complicating this dramatically 
is the severe winter in much of Afghanistan. If this were a 
tropical climate, we would not have as high death rates this 
winter, but these are arctic regions. In some of the regions of 
the Hindu Kush, the snow is 20 to 30 feet deep and is 
completely inaccessible the entire winter.
    So we do not want population movements. Fifty percent of 
the people will either die during the movements, or when they 
arrive in the camp, they will be so debilitated they cannot be 
revived, so we do not want population--to the extent that we 
can avoid them by moving food into people's villages, into 
their neighborhoods, the famine reason for moving will be at 
least dealt with. If they are moving for security reasons, that 
is another matter.
    The third thing we are doing is something that is not 
commonly known publicly, but we do this all the time in 
famines, and that is to deal on the commercial side, not 
through the aid agencies, although the aid agencies help us do 
this, is we sell food in specific markets to get the price 
down. A lot of Afghans survive on remittances. The Afghan 
diaspora of educated Afghans in the United States is very 
large. They send remittances back to their relatives, and 
extended families of 100, 150 people will survive on those 
remittances. We see this in famine after famine.
    If food prices go up 30 to 50 percent, which they have 
since September 11 in many cities in Afghanistan, it means they 
can buy half as much food for their extended families.
    So what we want to do is get the food prices down to a 
stable, normal level, and keep it there for the remainder of 
the famine. So we will use what we call contra-famine market 
strategies to keep food at a normal level.
    The fourth strategy is to make sure food gets to where it 
is intended to go. We do not want it diverted. We do not want 
it manipulated, and there are some strategies, if you are 
interested, that I can go over that we are assuming to do that.
    Fifth, we are beginning most importantly what we call 
developmental relief, another term we don't use publicly, but 
for many years the NGOs--and I was with one for five years, and 
I was with the first Bush administration where we did this very 
effectively. We used relief resources to do development work in 
the middle of civil wars and famines and emergencies.
    And we do that, for example, through food-for-work 
projects.
    In Somalia in 1991, we repaired almost the entire 
irrigation system of the lower Shebele Valley, using food-for-
work in a famine to keep people alive. It was also the same 
farmers who will get the water from the irrigation systems that 
were being repaired. There was a dramatic increase in food 
production as a result of this developmental relief 
intervention.
    The NGOs we met with, and the U.N. agencies, have agreed 
that the best strategy to pursue is to use the food-for-work 
incentive for people who are able-bodied, to do food for work, 
to increase family incomes, to increase the resources in the 
village so that we can begin the reconstruction of the country 
now and not wait until the end of the civil war is over or the 
end or the end of the military campaign.
    Senator Wellstone. Mr. Natsios, can I ask you to finish.
    Mr. Natsios. Anyway, that is our strategy, and we are 
pursuing that right now, and we will aggressively pursue it in 
the future. Thank you.
    [The prepared statement of Mr. Andrew S. Natsios follows:]

                Prepared Statement of Andrew S. Natsios

    Madam Chairman, Mr. Chairman, and Members of the Committee, thank 
you for inviting me here for this extremely important and timely 
hearing on the humanitarian crisis in Afghanistan.
                              introduction
    Afghanistan today is a country in crisis, a crisis that predates 
the events of September 11 by many years. Three years of drought, 22 
years of conflict, and five years of brutal Taliban misrule, have 
brought untold suffering to millions of people.
    The long drought has caused the near-total failure of rain-fed 
crops in 18 provinces. Only ten to twelve percent of the country is 
arable, and much of that land cannot be used due to land mines and the 
fighting that has raged about the country since the Soviet invasion of 
1979. Thirty percent of Afghanistan's irrigation infrastructure has 
been damaged or fallen into disrepair, rendering about a half of the 
irrigated lands unusable.
    In 1979, Afghanistan was able to feed itself. By last year, 2.3 
million metric tons (MT) of food had to be imported. The Food and 
Agricultural Organization (FAO) estimates that the country will only 
produce 10,000 of the 400,000 MT of seed that it will need for next 
year's planting. We know the reason: most of the seed has already been 
eaten by farmers who fear they may not survive until the next crop.
    Approximately 12 million people, almost half of the country's 
inhabitants, have been affected by the drought. Between the fighting 
and the drought upwards of 3 million people have been driven from the 
country and are living as refugees. Another 700,000 are internally 
displaced. Many, many thousands more are unable to move, due to 
illness, hunger, injury, or disability.
    The World Food Program (WFP), which distributes most of the food 
within Afghanistan, estimates that food stocks in the country are 
critically short and they are aggressively seeking to move food into 
the country. Although WFP was unable to identify commercial truckers to 
take food in on Monday of this week, its operations are otherwise 
proceeding as planned with deliveries yesterday and today going on 
schedule. Non-governmental organizations (NGOs) and the International 
Committee of the Red Cross (ICRC) have been able to maintain their 
programs in many parts of the country, especially those areas where 
there is no military activity, through the efforts of thousands of 
dedicated local Afghan staff, many of whom have worked for these 
organizations for decades.
    Still, we believe that 1.5 million Afghans risk starvation by 
winter's end and that between five and seven million Afghans face 
critical food shortages and are partially or fully dependent on outside 
assistance for survival.
                     actions prior to september 11
    One of the first actions I took as the Administrator of USAID was 
to order an assessment conducted by a team from our Office of Foreign 
Disaster Assistance, working with the State Department's Bureau of 
Population, Refugees and Migration. Their conclusion was inescapable: 
Afghanistan was ``on the verge of widespread and precipitous famine.''
    Based on this and other information, and with the support of 
Secretary Powell, I ordered a Disaster Assistance Response Team (DART) 
to the region. They arrived in June and have been operating in the 
region ever since. Since then, we have focused on Afghanistan's 
humanitarian needs as never before. Through closer cooperation with the 
UN specialized agencies and the NGOs with whom we work, we have been 
able to target our efforts more precisely toward those who need it 
most.
    The United States, of course, has been monitoring and helping the 
people in Afghanistan for many years. In the fiscal year that just 
ended and in the few days since, the U.S. Government donated $184 
million in humanitarian assistance for the Afghan people. This includes 
a variety of programs run by the Department of Agriculture, the 
Department of State and USAID.
    Our country has long been the largest donor to the World Food 
Program's Afghan humanitarian assistance program. Approximately, 85 
percent of the WFP food aid in the pipeline now--45,000 MT stored in 
Pakistan and another 165,000 MT on the way comes directly from the 
United States.
    The President has now added another $320 million of new money to 
this humanitarian effort.
               humanitarian situation inside afghanistan
    According to our DART, the conditions in many areas of Afghanistan 
are well beyond the ``Pre-famine'' stage. As best we can judge, the 
situation will only get worse with the coming winter.
    While most people comprehend famine as a dramatic increase in death 
rates due to starvation and hunger-related illnesses, there are a 
number of famine indicators that relief experts look for when reliable 
information on death rates or malnutrition levels is not readily 
available. These indicators include the following:

  <bullet> Seed shortages due to increased cost of seed and/or 
        consumption of seed stocks;

  <bullet> Widespread sale of family assets, including land, homes, 
        domesticated animals, and family possessions, to raise money to 
        buy food;

  <bullet> Rising prices of f6od staples and hoarding of grain stocks 
        by dealers;

  <bullet> Consumption of wild foods, domesticated animals, and 
        inedible materials;

  <bullet> Increased rates of wasting due to malnutrition and other 
        nutritional disorders;

  <bullet> Declining birth rates;

  <bullet> Mass migration in search of food and employment; and

  <bullet> Increased deaths from starvation and related diseases.

    In Afghanistan, NGOs, UN agencies, and the media are reporting 
evidence of nearly every one of these indicators. The Afghan people are 
tough, seasoned by many years of war and conflict. But many have 
exhausted their ability to cope. Their resources are exhausted, their 
animals dead, sold or eaten. They enter this crisis in an 
extraordinarily weakened state. Apart from the many sick, weak and 
disabled, the most vulnerable population lives in remote regions, often 
at very high altitude, cut off from most efforts to provide food or 
seed.
    We are now seeing whole communities on the move, and many villages 
abandoned altogether. Although precise statistics are hard to come by, 
many families have resorted to desperate measures, selling their draft 
animals, mixing their food with inedible substances, selling off their 
last possessions, or marrying off their daughters to strangers at an 
abnormally young age.
    While we have not been able to collect data on food prices fully, 
there are ample signs that prices have risen rapidly in certain places, 
even as family income plummets. In major Afghan cities, food prices 
have increased between 30 and 50 percent in the past month. Most 
alarmingly, there is evidence of abnormally high death rates in some 
parts of the country.
                     humanitarian response strategy
    President Bush's strategy to deal with this vast and complicated 
humanitarian crisis is designed to accomplish five critical objectives:

  <bullet> reduce death rates;

  <bullet> minimize population movements;

  <bullet> lower and then stabilize food prices so that food in markets 
        is more accessible;

  <bullet> ensure that aid reaches those it is intended for; and

  <bullet> begin developmental relief programs, in which we can move 
        beyond emergency relief, where possible, to begin long-overdue 
        reconstruction projects.

                           reduce death rates
    Our primary goal, of course, is to prevent as many people from 
dying as possible. Winter is fast approaching, so time is clearly of 
the essence. We must get as much food as possible into the country as 
soon as possible, particularly to the mountain areas of the Hindu Kush. 
This means doubling the amount of tonnage going in, at the very least, 
from approximately 25,000 MT per month to 50,000 MT. We are opening all 
possible pipelines to move food, seed, and other emergency commodities 
such as blankets and health kits into the country to increase the 
volume of aid. Health care, nutritional surveillance, and water and 
sanitation programs are also vital to the success of the aid effort.
                     minimize population movements
    When people have sold all their assets for food. and have run out 
of options, many leave their villages to find food or work. In other 
famines, we know that as many as 50 percent will die along the way or 
in famine-induced refugee or internally displaced persons (IDP) camps. 
So we must do everything we can to encourage people to stay in their 
villages by moving as much food as possible into the villages and rural 
areas. The million or more refugees that the UN High Commissioner for 
Refugees has predicted has not materialized thus far. One of our 
objectives is to see that it never does.
                    lower and stabilize food prices
    We also need to do what we can to drive down the cost of food, so 
that ordinary Afghan citizens can buy what they and their families 
need. Many people die of hunger during famine not because of a shortage 
of food, but rather because of an inability to purchase food that is 
available due to skyrocketing prices. The best way to counter this is 
to sell significant amounts of food to local merchants in order to 
bring down prices and discourage hoarding. These merchants have their 
own means of protecting their goods even in the midst of general 
insecurity, and the incentive of profits to be made ensures that the 
food will reach the markets. Experience from other famine situations 
has shown this to be a particularly effective strategy, especially in 
smaller markets where even limited amounts can have a significant 
effect on prices.
             ensure aid reaches the intended beneficiaries
    It will be necessary to do our utmost to keep U.S. Government 
humanitarian assistance out of the hands of the Taliban or other armed 
groups. Part of our strategy to do so is linked to our second goal, 
limiting population movements. By moving as much food as possible to 
remote villages and towns, we can help discourage people from 
concentrating in refugee and IDP camps, where the risk of manipulation 
by the Taliban and their supporters is comparatively high.
    All such camps should be managed, and all food distributed, by 
experienced expatriates; to permit Afghan refugees or IDPs to 
distribute supplies or manage the camps, on the other hand, is to 
invite their manipulation by the Taliban or other extremist networks 
such as al-Qaeda.
    At the same time, we must be prepared to shut down any program if 
the Taliban begins to loot or manipulate the aid. Where the security of 
the food is an issue in refugee or IDP camps, we should avoid 
distributing dry rations. Wet feeding programs in which prepared food 
is distributed directly to beneficiaries, rather than uncooked or dry 
rations, should be the norm wherever possible, even for adults, because 
cooked food spoils quickly, is heavier to move and harder to store, 
making it more difficult to steal and more likely that the intended 
beneficiaries will receive their rations.
    By opening as many food pipelines into the country as possible, not 
only will we be able to move more food quickly to where it is needed, 
we will also minimize the distance any given aid convoy must travel to 
reach its destination, thereby reducing the opportunity for diversion. 
We will also make it our policy that no more than two weeks' worth of 
food is warehoused in areas the Taliban controls so as not to create 
attractive targets for looting.
    Finally, we will also implement a humanitarian public information 
campaign so the Afghan people know aid is on the way. This will have 
the dual effect of helping to discourage further population movements, 
and will provide a check against diversion or manipulation of aid since 
people will know what they are supposed to receive through this 
information effort.
                          developmental relief
    The constant conflict that has plagued Afghanistan has kept people 
from rebuilding their homes and villages, their farms, their markets 
and their businesses. We intend to structure our relief programs so 
that they can begin this long-overdue process of smallscale 
reconstruction at the community level where conditions will allow. Our 
food-for-work programs, for example, will focus on practical sectors, 
such as agriculture. Distribution of seed for the winter wheat crop or 
even small-scale repairs of irrigation systems and wells can make a 
profound difference in the country's recovery from this crisis. If 
enough crops can be planted and livestock rebuilt, next year will not 
have to resemble this one.
                commitment to the people of afghanistan
    The President and the Secretary have made very clear that the 
Afghan people are not our enemies. The President said on October 4 when 
he announced his new $320 million initiative for the Afghan people: 
``We are a compassionate nation . . . We will work with the U.N. 
agencies, such as the World Food Program, and work with private 
volunteer organizations to make sure this assistance gets to the 
people. We will make sure that not only the folks in Afghanistan who 
need help get help, but we will help those who have fled to neighboring 
countries to get help as well.''
    With the new funds the President has added, we can redouble our 
efforts to get relief to those who need it most. Despite the events of 
September 11, and the fact that we have no diplomatic relations with 
the Taliban, and despite their refusal to hand over bin Laden and 
dismantle al-Qaeda, our humanitarian assistance policies will not 
change. Food aid distribution will be based on need. The President has 
made this very clear.
    Accomplishing our humanitarian objectives under the current 
circumstances is a huge task, but I am confident that, if we follow the 
President's strategy, we can save many, many lives and help Afghanistan 
begin to rebuild itself. Let me assure you that we at the Agency for 
International Development are fully committed to doing everything we 
can to work with you in Congress, the other Executive Branch agencies, 
and the international community to accomplish these objectives.

                                 ______
                                 

 Responses to Additional Questions Submitted for the Record by Senator 
              Biden to USAID Administrator Andrew Natsios

    Question. How exactly is the $320 million dollars President Bush 
pledged going to be spent? How much money is given to each agency, how 
is it spent and when does the pledge of money turn into the reality of 
assistance for people on the ground?
    Answer. The $320 million is allocated as follows:

  <bullet> $100 million in supplemental funding for Migration and 
        Refugee Assistance (MRA), to be managed by the State 
        Department's Bureau for Population, Refugees and Migration 
        (PPM). These funds will be used to provide support for refugees 
        from Afghanistan resident in neighboring countries such as 
        Pakistan and Iran, for their repatriation when the opportunity 
        comes, and for support to the International Committee for the 
        Red Cross. They may also be used to support coordination of 
        United Nations operations through the UN's Office of the 
        Coordinator for Humanitarian Assistance.

  <bullet> $25 million in already appropriated funds from the Emergency 
        Refugee and Migration Assistance account for the same purposes 
        as the MPA funding, to be managed by State PPM.

  <bullet> $95 million of supplemental funding for P.L. 480 food aid to 
        procure U.S. agricultural commodities such as wheat, vegetable 
        oil, pulses and corn-soy blend and for transportation and 
        distribution costs. These resources will be managed by USAID's 
        Office of Food for Peace, working through the World Food 
        Program (WFP) and U.S. private voluntary organizations.

  <bullet> $96 million of supplemental funding for the International 
        Disaster Assistance account. These funds will be managed by 
        USAID's Office of Foreign Disaster Assistance. They will be 
        used to provide relief to the destitute victims of conflict and 
        drought inside Afghanistan, including the internally displaced. 
        They will be used to provide health, water and sanitation, 
        blankets and children's warm clothes for winter, and necessary 
        local food procurement. They will also support the logistical 
        capacity of organizations such as the World Food Program. Most 
        of the funds will be implemented by private voluntary 
        organizations and the United Nations.

  <bullet> $3 million of supplemental funding for humanitarian 
        demining, to be managed by the State Department's Bureau for 
        Political and Military Affairs.

  <bullet> $1 million of supplemental funding for USAID's Operating 
        Expenses.

    Most of these funds will be managed through grants to implementing 
partners such as private voluntary organizations and the United 
Nations. The resources have been provided for humanitarian assistance 
through the winter. Much of it has already been obligated and is in the 
process of being expended.


    Question. How much of our efforts should be aimed at increasing the 
supply of food for purchase as opposed to helping increase the amount 
of food aid? Should we task trucks and drivers with delivering food to 
markets for sale instead of channeling all available resources towards 
delivering the over 50,000 tons a month of relief commodities the World 
Food Program projects it needs to feed people in Afghanistan that can't 
purchase food?

    Answer. According to the humanitarian community, food is available 
for purchase in most urban markets. Prices are back to pre-September 11 
levels, except in areas of extreme insecurity where movement of market 
items has been disrupted (such as Kandahar) . However, a lack of 
purchasing power in many areas means that some segments of the 
population are unable to purchase the food on the markets, even at 
``reasonable'' prices. USAID is evaluating methods to increase the 
purchasing power of the poorest through micro-credit mechanisms and 
cash for work activities. This will stimulate the demand for commercial 
market development.


    Question. You pointed out in your testimony that the tonnage of 
food going into Afghanistan should be doubled at the very least, and 
that all possible pipelines must be opened wide. How can we help the 
international aid agencies deliver double the amount of food that they 
are currently sending into Afghanistan?

    Answer. From October 14 to November 14, the World Food Program 
moved 52,075 metric tons of food into Afghanistan, reaching the monthly 
goal of 52,000 MT. WFP is using all open corridors into Afghanistan. 
Therefore, the humanitarian community is now getting the monthly amount 
needed into the country. Due to insecurity, once the food is inside 
Afghanistan, it is not distributed to the beneficiaries as quickly as 
needed despite heroic efforts. Some areas are currently inaccessible. 
As the security situation stabilizes, we expect the internal 
distributions will meet the requirements.


    Question. What plans is the Agency for International Development 
making for longer-term relief and development in the region?

    Answer. USAID has developed an economic recovery plan in the 
context of a larger U.S. Government strategy for Afghanistan. The 
President has emphasized that U.S. involvement in longer-term 
development in Afghanistan must be part of a larger multilateral 
effort.
    The key elements focus on restoration of essential services at the 
community level and reintegration of refugees and internally displaced 
persons (IDPs) in the near term, and on longer-term economic recovery. 
There will be a primary focus on women. Other target groups will 
include returnees and demobilized combatants. The primary sectors are:

  <bullet> Livelihoods and Income Generation: community public works 
        programs that generate labor as well as put in place critical 
        community infrastructure (schools, potable water systems, 
        health facilities, etc.); skills training; access to credit; 
        and micro-enterprise development programs.

  <bullet> Basic Education: support for community-based basic education 
        programs, with specific attention to girls; and basic adult 
        literacy programs.

  <bullet> Food Security and Agriculture: distribution of seeds and 
        tools; rehabilitation of critical irrigation facilities and 
        rural feeder roads; distribution of breeding stocks of 
        livestock; and re-establishment of local markets.

  <bullet> Basic Health Needs: provision of immunizations and vitamin 
        A; prevention and treatment of diarrheal disease and acute 
        respiratory infection; infant and young child feeding; maternal 
        health; and basic water and sanitation.

  <bullet> Rule of Law, Democracy and Governance: assistance to local 
        authorities in responding to the needs of citizens through 
        service provision; encouraging the participation of women and 
        minorities in government; training of female leaders in civil 
        society development; supporting the establishment of select 
        national and administrative procedures that promote 
        accountability and participation; legal training and the 
        effective administration of justice; and the re-establishment 
        of Afghan-managed radio broadcasts and other means of 
        information dissemination.


    Question. Is there any effort underway to use Voice of America 
broadcasts to inform people about our airdrops of humanitarian daily 
rations?

    Answer. USAID's program through the Office of Transition 
Initiatives (OTI) supports the development of relevant and timely 
information on humanitarian assistance for the Afghan population, 
particularly internally displaced persons (IDPs), other vulnerable 
groups, and refugees. OTI is working with international and local 
partners to produce and broadcast relevant information in local 
languages, disseminate radios, and explore alternative media. The 
objectives of the program are to:

  <bullet> Create awareness of existing U.S. Government and 
        international relief efforts inside Afghanistan, including 
        availability, location and rules of entitlement for food aid, 
        shelter and primary health care activities.

  <bullet> Prevent migration of large populations inside Afghanistan to 
        neighboring countries when humanitarian assistance programs are 
        functioning within the country.
  <bullet> Increase access by vulnerable Afghan populations to relevant 
        information via radio and alternative media so that 
        international relief efforts are transparent and those involved 
        in diversions are exposed.


    OTI activities include:
  <bullet> Afghanistan Emergency Information Project: An agreement with 
        the International Organization of Migration (TOM) to prepare a 
        regular humanitarian information bulletin for radio 
        dissemination, develop additional radio programming, and make 
        small grants to local organizations to support information 
        dissemination. Also, TOM will procure and distribute up to 
        30,000 radios to vulnerable Afghan populations, taking into 
        account security considerations.

  <bullet> Voice of America Enhanced Programming: An agreement with 
        Voice of America (VOA) to significantly increase its news and 
        information-gathering capacity in the Central Asia region to 
        provide information to Afghans affected by the crisis. VOA, 
        which broadcasts in both Dan and Pashto, will increase the 
        number of reporters from two to ten. Support began in early 
        November and will run for ninety days, with the possibility of 
        an extension as conditions permit.


    Senator Wellstone. Thank you for your testimony. I only do 
that, because we do want to have questions. We have a number of 
different perspectives, and I also worry about those later on, 
and so we want to make sure we keep the hearing going along. 
Thank you so much.
    Ms. Rocca.

STATEMENT OF MS. CHRISTINA ROCCA, ASSISTANT SECRETARY OF STATE 
     FOR SOUTH ASIA, DEPARTMENT OF STATE, WASHINGTON, D.C.

    Ms. Rocca. Well, Mr. Chairman, distinguished members of the 
subcommittee, I am honored to appear before you with Mr. 
Natsios and Mr. Kreczko to discuss the humanitarian crisis in 
Afghanistan. Andrew and Alan will speak to you on the details 
of the above crisis. I will restrict my remarks to providing an 
overall political perspective. I will describe for you the 
context in which this crisis has fomented and grown.
    It is important to bear in mind that the humanitarian 
crisis in the region did not begin on September 11. Its causes 
lie in the tragic history of Afghanistan over the last two 
decades. Twenty-two years of conflict have steadily devastated 
the country, destroyed its physical and political 
infrastructure, shattered its institutions, and wrecked its 
socio-economic fabric.
    The crisis has been exacerbated by severe and prolonged 
drought, now in its fourth year. Average life expectancy in 
Afghanistan has been reduced to 46 years. According to the 
World Health Organization, the infant mortality rate at birth 
is 152 per 1,000 births. The mortality rate for children under 
five is 257 out of 1,000.
    The Taliban have done nothing to alleviate the suffering of 
the Afghan people. Rather, they have done much to intensify the 
anguish of Afghans by pursuing policies that victimize their 
own people and that target women and girls and ethic 
minorities, as Senator Boxer pointed out. They have shown no 
desire to provide even the most rudimentary health, education, 
or other social services expected of any government.
    Instead, they have chosen to devote their resources to 
waging war on the Afghan people and exporting instability to 
their neighbors. Instead, they have welcomed terrorists to 
provide them a safe haven and allowed Afghanistan to become the 
hub of international terrorism.
    In contrast, the United States has been the largest 
provider of humanitarian assistance to the Afghans. As the 
President has said, our quarrel is not with the Afghan people; 
quite the opposite. President Bush announced last week a 
package of $320 million in humanitarian assistance for 
Afghanistan. This brings our food and non-food assistance to 
about $680 million since 1999.
    As the United States began military action this weekend 
against terrorists and Taliban defenses in Afghanistan, the 
military air-dropped tens of thousands of humanitarian 
assistance packages for the Afghan victims of this crisis.
    Mr. Chairman, the United States has played its role in 
helping to ease the suffering of the Afghan people. Following 
the September 11 terrorist attacks, the U.N. predicted that the 
situation would deteriorate even further.
    We anticipate 5 to 7 million people will be at risk of 
famine, as Mr. Natsios pointed out, and that there will be a 
large scale of displacement of Afghans. Once again, we need to 
be clear. The blame for this lies squarely on the Taliban.
    Their failure to comply with the international community's 
demands to hand over Osama bin Laden and his lieutenants, to 
close down the terrorist training camps, and to release the 
foreign aid workers has resulted in further suffering for the 
Afghan people. They have continually obstructed the delivery of 
humanitarian assistance by the U.N. and other international 
agencies.
    The Taliban and foreign terrorists they harbor bear 
responsibility for the political decay, economic devastation, 
and international isolation of what was once a proud, tolerant, 
and fiercely independent land. Immediate humanitarian efforts 
have been directed at getting as much humanitarian assistance 
as possible into Afghanistan before the onset of winter, as 
Andrew was just talking about.
    We are also preparing for the possible flow of refugees 
into neighboring countries. Alan Kreczko will elaborate on the 
refugee situation, but there are already 3 million Afghan 
refugees in Pakistan and Iran. The U.N. estimates there will be 
hundreds of thousands more as the result of the current 
tensions. Most of these refugees are expected to come to 
Pakistan. We also expect smaller movements to Iran and other 
Central Asian countries bordering Afghanistan.
    To minimize displacement of people, we will provide 
assistance inside to the extent possible and for as long as 
possible. However, we are also urging all neighboring countries 
to allow entry of fleeing refugees.
    Let me note that Pakistan has been a generous country of 
first asylum for millions of Afghans since 1979. we acknowledge 
that they have borne a heavy social and economic cost for this 
generosity. It has legitimate political and security concerns 
as a result of the large-scale refugee inflow. Yet Pakistan has 
given its unconditional cooperation to the international 
community in combating terrorism. we will work with Pakistan 
and the U.N. agencies to help them shoulder the economic and 
social costs of the current crisis.
    We have already lifted many of the sanctions and are now 
assembling a package of economic assistance for Pakistan.
    Iran, too, also has been a traditional host of Afghan 
refugees. We will work through U.N. agencies and others to make 
sure that resources are available for Afghans in Iran as well.
    President Bush has taken the lead in responding to the 
Afghan humanitarian crisis, but other countries are also 
pledging to do their share, and Alan will be able to provide 
more details on this.
    Finally, let me refer to President Bush's radio address 
this weekend. He raised the prospects of a future 
reconstruction and development package for Afghanistan. we are 
beginning the discussions with other potential donors, 
international financial institutions, and the U.N. to examine 
what the reconstruction needs will be for a future Afghanistan. 
We hope the internal situation will stabilize so that we can 
move forward on such a program.
    Thank you.
    [The prepared statement of Ms. Christina Rocca follows:]

       Prepared Statement of Assistant Secretary Christina Rocca

    Mr. Chairman, distinguished Members of the Subcommittee, it is my 
privilege to appear before you with Mr. Natsios and Mr. Kreczko to 
discuss the humanitarian crisis in Afghanistan. Andrew and Alan will 
speak to you on the details of the evolving crisis and the U.S. 
response. I will be brief, and restrict my remarks to providing an 
overall political perspective. I will describe for you the context in 
which this crisis has fermented and grown.
    It is important to bear in mind that the humanitarian crisis in the 
region did not begin on September 11. Its causes lie in the tragic 
history of Afghanistan over the last two decades. Twenty-two years of 
conflict have steadily devastated the country, destroyed its physical 
and political infrastructure, shattered its institutions, and wrecked 
its socio-economic fabric. The crisis has been exacerbated by a severe 
and prolonged drought, now in its fourth year. Average life expectancy 
in Afghanistan has been reduced to 46 years; according to the World 
Health Organization, the infant mortality rate at birth is 152 per 
1,000 births; the mortality rate for children under 5 is 257 per 1,000.
    The Taliban have done nothing to alleviate the suffering of the 
Afghan people. Rather, they have done much to intensify the anguish,of 
Afghans by pursuing policies that victimize their own people, and that 
target women and girls and ethnic minorities. The Taliban have shown no 
desire to provide even the most rudimentary health, education, and 
other social services expected of any government. Instead, they have 
chosen to devote their resources to waging war on the Afghan people, 
and exporting instability to their neighbors. Instead, they have 
welcomed terrorists, provided them with safe haven and allowed 
Afghanistan to become the hub of international terrorism.
    In contrast, the United States has been the largest provider of 
humanitarian assistance to Afghans. As the President has said, our 
quarrel is not with the Afghan people. Quite the opposite. President 
Bush announced last week a package of $320 million in humanitarian 
assistance for Afghans. This brings our food and non-food assistance to 
about $680 million since 1999. As the United States began military 
action this weekend against terrorist and Taliban defense sites in 
Afghanistan, the military air dropped tens of thousand of humanitarian 
assistance packages for the Afghan victims of this humanitarian crisis. 
Mr. Chairman, the United States has played its role in helping ease the 
suffering of the Afghan people.
    Following the September 11 terrorist attacks, the U.N. predicted 
that the situation will deteriorate even further. The U.N. anticipates 
5-7 million people will be at risk of famine, and that there will be 
further large scale displacements of Afghans. Once again, we need to be 
clear. The blame for this lies squarely on the Taliban. Their failure 
to comply with the international community's demands--to hand over 
Osama bin Laden and his lieutenants, to close down the terrorist 
training camps, and to release the foreign aid workers--has resulted in 
further suffering for the Afghan people. They have continually 
obstructed the delivery of humanitarian assistance by U.N. and other 
international agencies. The Taliban and the foreign terrorists they 
harbor bear responsibility for the political decay, economic 
devastation, and international isolation of what was once a proud, 
tolerant, and fiercely independent land.
    Immediate U.S. humanitarian efforts have been directed at getting 
as much humanitarian assistance as possible into Afghanistan before the 
onset of winter. AID Director Natsios will elaborate on our efforts and 
those of the World Food Program to feed the Afghan people. We are also 
preparing for the possible flow of refugees into neighboring countries. 
Acting Assistant Secretary Kreczko will elaborate on the refugee 
situation. There are already over 3 million Afghan refugees in Pakistan 
and Iran. The U.N. estimates there will be hundreds of thousands more 
as a result of the current tensions. Most of these refugees are 
expected to come to Pakistan. We also expect smaller movement to Iran 
and other Central Asian countries bordering Afghanistan. To minimize 
displacement of people we will provide assistance inside Afghanistan to 
the extent possible. However, we are also urging all neighboring 
countries to allow entry to fleeing refugees.
    Let me note that Pakistan has been a generous country of first 
asylum for millions of Afghans since 1979. We acknowledge that Pakistan 
has borne a heavy social and economic cost for its generosity. It has 
legitimate political and security concerns as a result of large scale 
refugee inflows. Yet, Pakistan has given its unconditional. cooperation 
to the international community in combating terrorism. We will work 
with Pakistan and U.N. agencies to help Pakistan shoulder the economic 
and social costs of the current crisis. We have already lifted many of 
the sanctions, and are now assembling a package of economic assistance 
for Pakistan. Iran, too, has also been traditional host to many Afghan 
refugees. We will work through UN agencies and others to make sure that 
resources are available for Afghans in Iran.
    President Bush has taken the lead in responding to the Afghan 
humanitarian crisis, but other countries are also pledging to do their 
share. The UN has estimated that $584 million will be required to meet 
humanitarian needs over the next six months. This past weekend in 
Geneva, the United States and major donor countries pledged more than 
$600 million in response to the humanitarian crises.
    Finally, let me refer to President Bush's radio address this 
weekend. He raised the prospects of a future reconstruction and 
development package for Afghanistan. We are beginning discussions with 
other potential donors, international financial institutions, and the 
U.N. to examine what the reconstruction needs will be for a future 
Afghanistan. We hope the internal situation in Afghanistan will 
stabilize so we can move forward on such a program.
    Thank you.

    Senator Wellstone. Thank you very much, Ms. Rocca, and also 
Chairman Biden mentioned our appreciation for the ways in which 
Secretary of State Powell has focused on this question, 
including the whole issue of food relief for people and the 
humanitarian crisis. Please do convey our thanks to the 
Secretary for his fine leadership.
    Mr. Kreczko.

  STATEMENT OF MR. ALAN KRECZKO, ACTING ASSISTANT SECRETARY, 
  BUREAU OF POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF 
                    STATE, WASHINGTON, D.C.

    Mr. Kreczko. Thank you, Senator. I will just say a few 
words on the refugee front.
    When the President announced his $320 million humanitarian 
initiative, he stressed that it would be available to meet the 
needs of Afghans inside Afghanistan and also for those who have 
to flee to neighboring countries. As Mr. Natsios explained, our 
most immediate current humanitarian priority is trying to 
provide assistance inside Afghanistan, but we are also, as a 
second priority, trying to prepare for potential refugee flows 
to neighboring countries, and in doing that, we have to take 
into account the context and acknowledge that Pakistan and Iran 
have been very generous hosts to millions of Afghan refugees 
for years.
    There are some 3 million Afghan refugees in neighboring 
countries with Pakistan hosting 2 million and Iran a million 
and a half. As Christina noted, the U.N. high commissioner for 
refugees has estimated that there could be an additional 1.5 
million Afghans seeking to enter neighboring countries in the 
current crisis. Their estimate is that roughly 1 million of 
those could seek to go to Pakistan, 400,000 to Iran, and 50,000 
each to Tajikistan and Turkmenistan.
    I need to stress that these are planning figures. At this 
time, the actual flow of refugees is quite small. UNHCR 
estimates that between 20,000 and 30,000 refugees have entered 
Pakistan in the past several weeks, and there have not been any 
significant new movements to Iran or the other bordering 
countries. Future flows will be affected by a number of 
factors, including whether the Taliban continues to limit the 
ability of people to leave Afghanistan, how bordering states 
view arriving refugees, how much relief we can get in to 
Afghanistan, and the course of how the military activity 
unfolds.
    As an official matter, all of Afghanistan's neighbors have 
closed their borders to refugee flows. However, as a practical 
matter, both Iran and Pakistan are working with UNHCR to plan 
for refugee flows, including through the prepositioning of 
supplies and the identification and preparation of camp sites. 
Particularly given the large number of refugees that these 
countries already host, the international community needs to be 
in a position to assure Iran and Pakistan that it will absorb 
the economic costs if there are additional refugee flows. 
President Bush's $320 million initiative puts us in a strong 
position to do so.
    And I want to just say a word with respect to Senator 
Biden's stressing the fact that we need an international 
humanitarian response that mirrors the military response.
    This past weekend, the U.N. convened in Geneva a meeting of 
donors, as well as Iran and Pakistan, to discuss the Afghan 
humanitarian situation. The meeting strongly endorsed the view 
that we should do everything possible to get assistance into 
Afghanistan and also endorsed contingency planning for refugee 
flows.
    Senator Biden noted that the U.N. has commented that $580 
million will be needed to address refugee and humanitarian 
needs over the winter. Overall, the U.N. announced today that 
they have pledges of $730 million of humanitarian assistance 
with over 25 countries responding, so I think the international 
humanitarian response has been strong, and hopefully we will 
have the resources needed to address the humanitarian 
situation.
    Thank you, Senator.
    [The prepared statement of Mr. Alan Kreczko follows:]

     Prepared Statement of Acting Assistant Secretary Alan Kreczko

    President Bush has provided firm leadership in the international 
campaign to eradicate terrorism worldwide. A key part of his efforts is 
directed at both the immediate and the longer-term problems plaguing 
the people of Afghanistan, and on this front, too, the United States is 
providing leadership.
    Compassion is an integral component of the President's foreign 
policy, and it motivates America, even in these trying times, to lead 
the international humanitarian relief effort for those most vulnerable. 
As the President has asserted, ``We have no compassion for terrorists, 
or for any state that sponsors them. But we do have great compassion 
for the millions around the world who are victims of hate and 
oppression including those in Afghanistan. We are friends of the Afghan 
people. We have an opportunity to make sure the world is a better place 
for generations to come.''
    The President announced last week a $320 million initiative to 
provide additional humanitarian assistance for Afghans--for both those 
inside Afghanistan and for those who flee to neighboring countries. The 
United States has consistently been the largest donor to international 
humanitarian efforts. With vital help from a number of countries around 
the world, our goal is to alleviate the suffering that Afghans have 
endured for more than two decades, as a result of war, severe drought, 
and the brutal, repressive rule of the Taliban regime.
    The United States believes that all of Afghanistan's neighbors 
should be prepared to accept new Afghan refugees as needed, and that 
the international community must be prepared to shoulder the economic 
costs incurred by the flight of desperate Afghan people.
    Some 3 million Afghan refugees already reside in neighboring 
countries. The bulk of those are in Pakistan and Iran; about 2 million 
in Pakistan and some 1.5 million in Iran. As with its contributions to 
relief efforts overall, the United States has consistently been the 
largest donor to support those refugees. At the same time, it is 
important to acknowledge the remarkable generosity of the neighboring 
countries in providing relief and refuge to so many Afghans for nearly 
two decades.
    The UN High Commissioner for Refugees has estimated that as many as 
1.5 million additional Afghans could seek to enter neighboring 
countries as a result of the current situation. It estimates that, of 
these, roughly 1 million Afghans could seek to enter Pakistan; 400,000, 
Iran; 50,000, Tajikistan, and 50,000, Turkmenistan. I need to stress 
that these are planning figures. At this time, the actual flow of new 
refugees is relatively small. UNHCR estimates that 20-30,000 refugees 
have entered Pakistan in the past two weeks, and has not reported any 
new refugee movements into Iran. Future flows will be affected by a 
number of factors, including whether the Taliban continues to limit the 
ability of people to leave Afghanistan, how bordering states view 
arriving refugees, how much relief can be delivered into and 
distributed within Afghanistan, and, of course, how the military 
activity unfolds--not just against the terrorist networks but between 
the Northern Alliance forces and the Taliban.
    As an official matter, all of Afghanistan's neighbors have closed 
their borders to refugee flows. However, both Pakistan and Iran are 
working with UNHCR to plan for refugee flows, including through the 
prepositioning of supplies, and campsite identification and 
preparation. Particularly given the large numbers of refugees they 
already host, the international community needs to assure Pakistan and 
Iran, and other neighboring countries, that the international community 
will help shoulder the economic costs incurred in providing assistance 
and protection.
    This past weekend, the UN convened in Geneva a meeting of major 
donors, as well as Iran and Pakistan, to discuss the Afghan 
humanitarian situation. Attendees of this meeting expressed high praise 
to President Bush for his humanitarian initiative. The meeting strongly 
endorsed the view that we should make maximum efforts to provide 
assistance inside Afghanistan, so that people are not forced to leave 
in search of assistance. The meeting also endorsed contingency planning 
for refugee flows, and provided assurances to Pakistan and Iran of 
burden sharing to care for all new arrivals from Afghanistan. Overall, 
the donors pledged $608 million of humanitarian response, of which 
President Bush's announcement of $320 million represents over half.
    The unambiguous message of the meeting was support for the Afghan 
people. That certainly represents the attitude and endeavors of the 
United States as well. We are not at war with the innocent people of 
Afghanistan, and we are doing all we can to ameliorate the conditions 
under which they have long been suffering. Our campaign against 
international terrorism is multi-faceted, comprising political, 
military, economic, and humanitarian aspects. The President's 
announcement last Thursday and our continuing efforts to assist the 
Afghan people demonstrate that our words are true harbingers of our 
actions.

    Senator Wellstone. Thank you so much. I think if it is okay 
with my colleagues, we will each go five, and then we will do 
follow-up questions if we need to.
    Let me ask you, first of all, Mr. Natsios, to go to Senator 
Biden's--he wanted to correct himself. He had initially talked 
about 350,000 daily drops, and then he said actually that it 
would be 37,000 to 39,000 now. With these figures, each HDR 
could be two meals if the people want to divide it up, but 
even--but there are two questions I want to ask you.
    There are many who are saying that few of the HDRs actually 
reach their targets, number one, and even if every packet 
reached its target, this would serve less than 1 percent of the 
Afghans who are now at risk of starvation. And I wonder--I 
suppose what we would say is, this is just but a start. And I 
wonder if you could respond to this.
    Mr. Natsios. Sure. This, by the way--I brought it with me, 
just because people are wondering what it looks like.
    This is a humanitarian ration. There have been some media 
reports that the U.S. military is dropping soldiers' rations, 
military. We are not doing that. This was designed in mid-
1990s, specifically for internally displaced people, refugees 
and people who are hungry, for diets that are appropriate for 
people in the developing world.
    It does not have the level of fat content we have in a 
military ration. I used to have to eat them as a soldier. I can 
tell you, these are actually better than the military rations, 
but that is a matter of opinion. I had to taste these in the 
mid-'90s when they were developing them.
    These are dropped in large packages. The packages break 
apart, and then these sort of--they are called flutters, 
because they flutter to the ground, and they say on them that 
they are a gift of the American people. There is also a picture 
on them, because a lot of people don't read any language, let 
alone their own. It has a picture of a person eating, so they 
can see that this is something to eat.
    In terms of the actual drops, it is about 35,000 to 36,000 
of these are dropped a day, and we are up to about 111,000 as 
of today, as of a couple of hours ago. I checked what the 
number was this afternoon, and that will increase as the days 
move on. We use two standards in helping the military target 
where they would be dropped, and AID helped them do that, based 
on our data from the ground.
    One is since in a month the snows will begin in the Hindu 
Kush, that we wanted to send these packages to areas that were 
inaccessible by ground, either in remote areas or in the Hindu 
Kush, so inaccessibility by ground transport is the first 
condition, and the second condition is extreme nutritional 
distress.
    You noticed this map. By the way, you may note that you 
have this chart and that chart, and they are different. That is 
from May; that is the drought in May. This is the drought as of 
today. You can see things have deteriorated substantially since 
May of this year, but you can tell from this map, in the dark 
green areas, where the areas of the most severe nutritional 
distress, because the drought was most severe. Most Afghans 
are, in fact, farmers or herders, and so that is how we target 
this.
    This is a very small portion. It is one--when it is 
finished--and I am not going to tell you when it is going to 
finish, because that compromises what we are doing or 
specifically where it is happening. The air drops are one-half 
percent to a percent of what we require totally for the whole 
country. The great bulk of food in any famine is always 
delivered on the ground, in this case by trucks mostly. In some 
areas of the mountains, we will deliver it by donkey.
    Senator Wellstone. Sir, your point is that this is just but 
a small part.
    Mr. Natsios. It is a small point.
    Senator Wellstone. Let me ask you one other quick thing 
about the air drop. There has been--I want this to be kind of a 
rigorous hearing, so I put questions to you that are from a 
critical perspective. There has been, as you know, some 
criticism that actually the air drop, the military's air drops, 
are potentially harmful. There are NGOs--the NGOs that have 
been working on the ground in Afghanistan for decades have 
argued, some have, that combining the military and the 
humanitarian agendas basically endanger their independent and 
impartial work on the ground. And I wonder how you respond to 
this criticism. I have heard this; I have seen some of it 
expressed. I wanted to get your reaction.
    Mr. Natsios. Well, the first thing I would say is that 
while our main purpose in any humanitarian relief operation 
under any circumstances is to save people's lives, the fact of 
the matter is all food that we distribute in a famine in a 
highly complex political and military situation has political 
statements that are made by it. When you feed people in a 
conflict like this, you are making a statement that the Afghan 
people are not our enemies.
    Now, that is not the primary purpose of it, but it is the 
reason--you know, it is the secondary message that is being 
sent. I don't think that is bad. I think it is good. we don't 
want the great bulk of Afghans to be involved in this conflict. 
We want it to be directed to the people who are responsible. 
The Afghan people never elected the Taliban.
    Sixty percent of the Afghan people belong to tribes that 
regard the Taliban as an occupation force, 60 percent of the 
population of the country.
    The State Department did a poll this summer among the 
Pushtu population, which is the ethnic base of the Taliban.
    Seventy-five percent of the Pushtu people do not want 
Taliban running even any of the country, so they have a very 
small base of support in the country, and we want to send a 
message that that is fine.
    Senator Wellstone. You don't think--I will come back to the 
food later, but you don't--I mean, I always put a lot of 
emphasis on what NGOs tell me. I have always had such 
admiration for their work. You don't think this is endangering 
their own independence?
    Mr. Natsios. No. Number one, we are not distributing these 
through NGOs. They are through military air drops. It is not a 
normal ration that is distributed, so it is a very different 
kind of ration that is being distributed. I have to say I don't 
see any downside in any way to--we are not asking the NGOs to 
compromise their neutrality at all.
    Senator Wellstone. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you. I just want you to know that I 
believe it is very important that the people know that food is 
coming from us and from our allies in this fight against 
terrorism, because I think that is essential. And as my friend 
Ellie Smeal taught me and will teach us all later, the life of 
a lot of the Afghan people is that they bury their radios and 
televisions, because they are really not allowed to pick up 
anything, and a lot of them may not know anything except what 
the Taliban are telling them, so the fact that they can see 
this is from us, I think, is important.
    But Senator Wellstone certainly has pointed something out. 
This is a very complicated situation here, and what I want to 
ask anyone who is competent to answer it: From what I know 
about the area, how do you make sure that this food, whether it 
is on the ground or coming from the air, is going to the right 
people? Are the Taliban in the refugee camps?
    Is there any control over that, or are they getting the 
food drops? And I read somewhere they were, and they were 
burning it. I don't know if that is accurate or inaccurate.
    What is it like for a family here? You say you don't want 
them to move, but if I was a mom over there and I knew that 
winter was coming and there was just a day's food dropping and 
maybe I could get it and maybe the Taliban would beat me to it, 
I think I would get out of the freezing places, and then go to 
the border. And then how do you deal with the fact that there 
are some skirmishes going on on the Pakistani border, either 
with the Taliban themselves, or with Taliban sympathizers?
    I am just trying to picture in my mind: Where do these 
people go? Where do they go to get this food for their family, 
to be left in peace? If you had the chance to answer that 
question for someone who is looking for an answer, what would 
it be?
    Mr. Natsios. The first is that people leave for a complex 
set of reasons, and when you have a civil war and a famine at 
the same time, it is difficult. Some people leave for both 
security reasons and for nutritional reasons, because they 
leave out of coping mechanisms. The reason people die in 
famines is that food prices go up dramatically, and their 
coping capacities collapse. They have no assets left to sell; 
they have no animals left to sell or to eat. They don't have 
remittances for whatever reason. They are in a remote area; 
their crops have failed.
    Senator Boxer. Okay. So let's say that all happens.
    Mr. Natsios. Right.
    Senator Boxer. Where would you advise them to go?
    Mr. Natsios. Well, we are trying to get people to stay, 
because the options are not very good if they move. The reality 
is that the neighboring--
    Senator Boxer. That is an interesting thing that you just 
said, but it is, I think, an honest answer.
    Mr. Natsios [continuing]. Yes. The reality is that we have 
had experience for two decades in famines. If people move, 
their incidence, their risk of dying dramatically increases. 
Alex de Walt wrote a book called, Famines that Kill. It is 
about the Sudanese famine in 1985. And what he found is that 
one of the major reasons people were dying was not because of 
hunger, but because they were severely malnourished, and when 
they got to the camps, they are displaced. And they are so 
close together, the sanitary conditions are so bad, they were 
dying from disease.
    In fact, most people actually never starve to death. They 
die of communicable disease before they actually starve to 
death, because their bodies, their immune systems have been 
weakened from the hunger. So we don't want them to leave for 
health reasons, nutritional reasons, and survival reasons.
    Senator Boxer. That is really an important point. Is there 
truth to what Senator Dodd said? I had read it also, about 
ebola.
    Mr. Natsios. It is not called ebola, but it is similar.
    It causes severe internal bleeding, and there appears to be 
an outbreak in one of the areas. Although we are investigating 
that now, it is not on a massive scale, but there are some 
right along the Pakistani border, I think, in the northern 
area.
    Senator Boxer. Would you keep our subcommittees informed on 
that front?
    Mr. Natsios. We certainly will. Let me answer the question, 
Senator, that you asked, though, about targeting.
    How do we know where the food goes? It is not just that the 
World Food Program does a large-scale logistics. They move the 
food in large tonnages inside the country. There is now 50,000 
tons of food inside Pakistan destined for Afghanistan. 65,000 
tons were in high seas from the United States, and we just 
ordered two weeks ago another 100,000 tons.
    That was actually--the decision was made in June, long 
before September 11, so over 200,000 tons is either in country 
or on the way. I might add 85 percent of the food distributed 
in Afghanistan last year was from the United States, 85 
percent, and it will be that high this year as well, and that 
is fine.
    How do we distribute it once it gets inside the country?
    WFP then gives it to the private voluntary organizations, 
and they have networks. Some of them have been around 20 or 30 
years. They know who is in all the communities. They have lists 
of people. Some of them have Afghan staffs of 1,000 to 2,000 
people on their staffs for one NGO that distributes the food 
from lists based on targeting, based on their income levels and 
the resources and hunger levels.
    If they are malnourished, if they are in displaced camps or 
refugee camps, and they don't have any alternative way of 
feeding themselves, then UNHCR would--I will let Alan talk 
about that, but there is a way of targeting that the NGOs and 
U.N. agencies use that ensures that the food goes to the right 
people. And by the way, that has continued even now, with all 
of what is going on, because that is still in place within 
Afghanistan.
    Senator Boxer. I was just going to say--and I don't need 
another round, but other challenges, to make sure those good 
people don't get hurt. We lost some U.N. volunteers, so this is 
another horrific challenge for us against this tough situation, 
this dual-track situation.
    Mr. Natsios. What we did the week after the catastrophe in 
the United States is we knew privately there was going to be a 
problem in Afghanistan, because the reports were that bin Laden 
and al-Qaida was involved in this. We told--and there was--
there actually had been a withdrawal of humanitarian troops, 
NGO workers, prior to this, because of the arrest of those 
eight workers. This departure of expatriates took place before 
September 11, I might add.
    It accelerated after September 11, and the instruction we 
sent downstairs to OFDA and Food for Peace and the AID network 
within the U.S. Government is, Continue to pay the Afghan 
staff, because we do not want them leaving their post. we want 
them to stay, to the extent they are physically staff, but we 
don't want them to stop the salaries. So we told the NGOs, 
Please, even though you can't do your program immediately in 
some areas, continue to pay the staff, so these very talented, 
very dedicated Afghans stay in place, because we are going to 
rely on them to help reconstruct the country at some point.
    Senator Wellstone. Senator Dodd.
    Senator Dodd. Thanks. Let me ask two or three quick 
questions, because the time frame is small. One, I noticed 
major riots at least recently in Quetta, if that is the correct 
pronunciation, the Pakistan community in the southwest. That 
shows a tremendous increase in the number of refugees in the 
last 25 days, and 20,000 people have come in to that one area, 
and I am curious as to whether or not you have any information 
that a lot of the anti-U.S. rallies may be by Taliban 
supporters who have come in to destabilize in Pakistan, number 
one.
    And, number two, where is the source of heat or fuel that 
the Afghan population will get in the winter months? What is 
that situation?
    Whether or not you have any information as to whether or 
not the Taliban themselves are interfering with any of the 
efforts of people to get these food supplies, and I guess it is 
early.
    But last I am just curious. I said almost facetiously this 
committee should have been conducted by the Western Hemisphere 
subcommittee. This food package is in Spanish and in English, 
and I presume we have it--it is being dropped in the Afghan 
tongue. Is this the language on the package?
    Mr. Natsios. No. They didn't have time to print those, 
Senator, so that is what was dropped.
    Senator Dodd. That is hard for--you know, English and 
Spanish----
    Mr. Natsios. Most of the people who receive this cannot 
read, Senator. About two-thirds of the population does not 
read, and the poorest people are the ones who are most likely 
to die, and they are the least educated.
    Senator Dodd. I would rather have you drop it. I don't 
care, but I hope at some point we get creative on how we 
communicate.
    Mr. Natsios. On the bags of wheat we are sending in, of 
which there will be hundreds of thousands, we had it printed in 
Hazarah and Kushnu, the two--Pushtu and Dari, the two principal 
languages, on the bags with a giant American flag.
    And what it says is, Gift of the American people. And so 
that is being printed by the United States Department of 
Agriculture, which does all the shipping of this food, in the 
big wheat bags, which will get to a huge number of people, so--
--
    Senator Dodd. There is no way you can put anything on this, 
a quick stamp, to say it is safe?
    Mr. Natsios. It takes a while to produce that, and 
September 11 is just a few weeks ago.
    Senator Dodd. I understand, but you understand the point. 
How could we have this stuff out--and I realize only 30 percent 
of the population is literate, but presumably there would be 
people around who could help people read something.
    Mr. Natsios. The big thing that makes people know it is the 
American flag on it, where it came from, and the picture.
    But in the bags, they will be in the local languages. Those 
are being printed right now as we speak.
    Senator Dodd. And the food supplies that are coming from 
the international community, I would like to see obviously that 
we get some credit here. It might also be important to know 
that food supplies are coming from other nations, including 
other Arabic countries.
    Mr. Natsios. Every country that is sending food puts their 
flag and their bona fides on the bag.
    Senator Dodd. An important message is that our efforts are 
being joined by the responsible moderate Arab world, and that 
is--the U.S. flag, it seems to me, is critically important.
    Anyway, if you could respond to the other two or three 
questions.
    Mr. Natsios. You asked the question on fuel. There are 
three ways.
    Senator Dodd. And the mining, too, whether we have had any 
cooperation on the demining efforts, whether we are dropping 
these food supplies in areas where we know there is a 
proliferation of mines that we helped plant.
    Mr. Natsios. In terms of the fuel, there are three ways in 
which Afghans heat their homes. One is through wood. the second 
is charcoal, and third, if the cattle herds were still in good 
shape, the manure is dried, and they use that principally in 
the highlands and in the cattle-growing areas.
    However, a lot of the cattle have died, and so they are 
relying more and more on wood unfortunately. The manure is much 
more sustainable obviously, but in this case, we can't use 
that, because many of the animals have died. So that is the way 
they cook their food and that is the way they heat their homes 
in the wintertime.
    In terms of demining, we are very much aware of this, and 
that was taken into account during the plotting of where these 
drops are made. The Taliban may well have gotten one or two of 
these things, but I have got to tell you, they were not dropped 
in areas that have much Taliban presence, and that was just a 
coincidence. The areas that we dropped them in were, in fact, 
based on the two standards I mentioned earlier, so I don't 
think they are getting them.
    Senator Dodd. How much specific information do we have 
about where the mines are?
    Mr. Natsios. There was a large-scale NGO/U.N. demining 
effort that has been going on since the end of the Soviet 
period, and they have maps of the areas. There are, I think, 
two or three big NGOs that do nothing but demining and contract 
firms, and so there is a lot of data. I have not personally 
seen it all, but the staffs have, and there are discussions 
within DOD with these people on this issue, because it has been 
a concern and we don't want to drop these in mined areas. 
Obviously that would be terrible if we did that.
    Senator Dodd. Thank you, Mr. Chairman.
    Senator Wellstone. Thank you.
    Senator Nelson.
    Senator Nelson. Did the Senator from Connecticut need to 
have more time? I would certainly yield to him.
    Senator Dodd. No.
    Senator Wellstone. He is being very good. He knows we have 
another panel.
    Senator Nelson.
    Senator Nelson. Thank you as well. Thank you.
    Last week, our committee went and had a wonderful exchange 
of ideas with the Secretary of State. Secretary Rocca was 
there, and one of the things that I shared was that I am given 
to believe that we have had a tremendous success with our food 
distribution in North Korea, that the fact that the food is 
distributed in sacks that the people know that it came from the 
United States, that they use the sacks for other things, and if 
we are about trying to win friends and the hearts and minds of 
the people, that that is an important lesson for us to learn. 
So in addition to dropping the little packets like this, you 
mentioned sacks of food. Tell us about that, and what will the 
sacks say on them.
    Mr. Natsios. I have to tell you, I was involved with an NGO 
when we did that in North--when I say, we, when the United 
States did it, and I have done some writing on the North Korean 
famine, and I interviewed refugees up on the Chinese border 
with North Korea, and I interviewed one who said he saw the 
sacks, and he said, Our Government didn't tell us, but it 
said--for the first time--we had never put in local language 
until the North Korean time. We put it in Korean, Gift of the 
people of the United States, with a flag.
    We have always done it previously in English. This is the 
first time we did it. And the reason we did it in Afghanistan 
is because it was so divisive in North Korea and so successful. 
I will tell you a story. The first food shipment that went out 
to Chongjin, which is up in the northeast region in North 
Korea, in the famine--no food had been delivered for two-and-a-
half years by the central government. There was mass 
starvation.
    The first ship that came into the harbor was an American 
ship. The North Korean military required the U.S. Government to 
take the flag down, because they didn't want riots in the 
streets. They took the flag down, because they couldn't deliver 
the food otherwise, but I talked to several WFP logisticians. 
They said everybody in the city knew where it came from, 
because it said it on the bag, and they said one of the 
refugees said to me, We now know who our real enemies are.
    We were taught all along it was the United States; it is 
not the United States; it is our own government. That is what 
the refugee told me.
    That one bag he saw said a lot of things to him. the only 
food that got in there in two-and-a-half years was from the 
United States. It is a very powerful message.
    Senator Nelson. And so from that success--and it is my 
understanding that they not only get the value of the food, but 
they use the sacks for things.
    Mr. Natsios. Absolutely, they do.
    Senator Nelson. So what are we going to do in addition to 
those little packages?
    Mr. Natsios. All of the sacks that go in--and we expect 
between 300,000 and 400,000 tons of food to be delivered from 
the United States to Afghanistan in this current fiscal year, 
this period. The bags will say on it in the two principal 
languages, Pushtu and Dari, Gift of the American people, and 
there will be a flag, an American flag, on the bags, and that 
is how the food will be distributed. They are bags about this 
big. (Indicating.)
    Senator Nelson. It is 110-pound sack generally.
    Mr. Natsios. Fifty kilos, 110. You are right.
    Senator Nelson. All right. Now, you need to know what I 
just saw last Friday in the Port of Pensacola. I went there for 
a different reason. I went there on port security. I was 
gratified when I saw a whole warehouse of 110-pound sacks of 
flour going to Tajikistan, but the sacks just had USA in red, 
white and blue. They don't read, USA, so they need to say in 
the native language so we are getting the credit for it.
    Mr. Natsios. Senator, I learned some lessons from the North 
Korean famine. We are beginning to enforce that, and we are 
going to continue to do that.
    Senator Dodd. Soon. You have got to do this quickly. That 
is important.
    Mr. Natsios. We gave this order three weeks ago, Senator, 
in terms of the printing of the bags.
    Senator Dodd. This doesn't take much.
    Mr. Natsios. We would have brought a copy of the North 
Korean bag so you could see it.
    Senator Nelson. Other than red, white, and blue, there was 
no flag; there was nothing except, USA. And for somebody who 
doesn't read English, they wouldn't have any idea where it came 
from.
    Mr. Natsios. There are other means by which we will be 
making known how large the aid program is, who is distributing 
the aid, what countries are involved, where the food is moving 
to, because we believe for humanitarian purposes, it is 
important that the Afghan people know when shipments are coming 
in, what their ration is they are going to get, and it will 
become clear that is not the Taliban that is feeding them. The 
Afghan people already know that. The Afghan--it is not even a 
government; it is a movement. We shouldn't even call it a 
regime; it is just a movement.
    They have not been feeding the people. Last summer, I 
said--before September, What is bin Laden doing. He is supposed 
to love the Afghan people so much. You know what the NGOs told 
me? Absolutely nothing. The Taliban is doing nothing.
    Senator Wellstone. I am going to be abrupt and try to 
finish this up, because I am worried about that we won't give 
the other panelists a chance.
    Mr. Natsios. I apologize.
    Senator Wellstone. No, no. You have done fine work.
    Senator Nelson. Mr. Chairman, I just want to make sure that 
somebody is going to check this out. Why was a whole warehouse, 
of which I am just so grateful that it is going to Tajikistan, 
but with this phenomenal success that we have had in North 
Korea, you would think that that would be one of the first 
things that we would think of when we are sending sacks of 
flour to Tajikistan.
    Mr. Natsios. Those particular sacks are for--there is a 
drought and a famine--not a famine but a severe food emergency 
in Tajikistan now. Those actually weren't for Afghanistan. They 
were for another problem, but you are right on your point. I 
take it well.
    Senator Dodd. Korea was the first country?
    Mr. Natsios. That I am aware of.
    Senator Dodd. What genius has thought about this? I am 
stunned to hear that. This is not terribly difficult, and it 
is----
    Senator Nelson. And it is just so incredibly great for our 
country that here we have got a Communist dictator that is 
constantly trying to tell the people of North Korea how bad we 
are, and here the people are just so grateful to America as a 
result of what they are getting.
    Senator Wellstone. The Senator from the Florida and the 
Senator from Connecticut have been heard.
    [General laughter.]
    Senator Nelson. I want to know, who are we going to hear 
from and when are we going to hear.
    Senator Dodd. You ought to drop some of those in Cuba.
    [General laughter.]
    Senator Wellstone. Believe me, there will be follow-up from 
the Senator from Florida. We thank all three of you.
    Let me call the next panel up. Mr. Nicolas de Torrente, 
executive director of Doctors Without Borders; Mr. Ken Bacon, 
president of Refugees International; and Eleanor Smeal, 
president, Feminist Majority. And I would ask unanimous consent 
that Senator Enzi's statement go in the record, and a statement 
from Human Rights Watch be included in the record as well.
    [The prepared statement of Hon. Michael B. Enzi follows:]

        Prepared Statement Submitted by Senator Michael B. Enzi

    Mr. Chairman, I am pleased to have this opportunity to express my 
support for President Bush and the actions he has taken in Afghanistan, 
especially in the area of humanitarian aid. As we are all too aware, 
the people of Afghanistan have suffered over two decades of turmoil, 
nearly four years of drought, and the oppressive and illegitimate rule 
of the Taliban regime. I am pleased that the United States has been a 
staunch supporter of the Afghan people and the largest contributor of 
humanitarian aid. In fact, since 1979 the United States has contributed 
more than $1 billion in humanitarian assistance to the Afghan people.
    I believe President Bush is continuing our strong support with his 
proposal to contribute an additional $320 million in humanitarian 
assistance. The aid is on its way and the United States has already 
begun to airlift food. In just two airdrops, nearly 75,000 daily 
rations were distributed to various locations in Afghanistan. Two days 
ago World Food Program convoys carrying 1,000 tons of wheat left 
Pakistan and a convoy carrying 100 tons of wheat recently left Iran. 
While there are millions more in need of food, this is just the 
beginning. The United States currently has over 165,000 tons of wheat 
on ships headed for the region. We are working with neighboring 
countries to distribute food within Afghanistan. Although international 
relief workers are no longer in the country, local workers are 
continuing the effort to distribute food and medicine. Winter, however, 
is quickly approaching and the need for immediate assistance for the 
Afghan people is as crucial as ever. The mountainous country with 
little remaining infrastructure leaves too many communities stranded 
for the long winter months.
    It is important to reiterate, we are not fighting the Afghan 
people, we are fighting terrorism. While we oppose the terrorists 
within Afghanistan, we must proceed with our aid efforts throughout the 
country. I am confident that President Bush and his Administration will 
continue to support and aid the people of Afghanistan as we fight 
terrorism.

    [The prepared statement of Human Rights Watch follows:]

           Prepared Statement Submitted by Human Rights Watch

         afghanistan and refugees: need for humanitarian action
    Twenty years of civil war, political turmoil, continuing human 
rights violations and recent drought have already displaced more than 
five million of Afghanistan's population. Some four million refugees 
are displaced in neighboring countries and across the world, while 
another one million people are internally displaced within Afghanistan. 
Before September 11, severe drought had brought the country to the 
verge of famine and existing Taliban restrictions on relief agencies 
had severely hampered the delivery of assistance and civilian access to 
basic services.
    Now that U.S. and British air strikes have begun, the humanitarian 
situation is even more urgent. Unfortunately, the recent strikes killed 
four workers involved in demining operations inside Afghanistan, which 
is considered one of the most heavily mined countries in the world. 
Landmines are concentrated in the border regions to which refugees are 
likely to flee.
    If the situation was bad for Afghan civilians, displaced persons, 
and refugees before the September 11 attacks on New York and Washington 
D.C., it only worsened in the three weeks afterwards. Conditions inside 
Afghanistan as of early October have deteriorated dramatically and aid 
agencies are warning of a humanitarian disaster of epic proportions.
    The withdrawal of all international relief agency staff after the 
September 11 attacks when the Taliban declared that it could no longer 
guarantee their security has exacerbated an already dire situation. 
Border closures have severed the supply of aid into Afghanistan. At the 
same time the Taliban are reported to have confiscated food supplies 
from the United Nations and relief agencies and shut down U.N. 
communication networks. Many relief agencies report that they have been 
unable to contact their local staff since the September 11 attacks and 
thus information about conditions inside the country is scant. The 
World Food Program (WFP) warned shortly after the attacks that food 
supplies inside the country could only last two to three weeks. Limited 
food deliveries were resumed to the borders of northern and western 
Afghanistan at the end of September, but as of October 8, WFP announced 
that all food deliveries inside and outside the borders of Afghanistan 
had been stopped in response to the U.S. military air strikes. Airdrops 
by the U.S. military of food and medical supplies have been met with 
skepticism by aid agencies outside the U.N. system, because of the lack 
of in-country staff to deliver the supplies and to properly administer 
medicines to needy populations.
    After the September 11 attacks, fear of retaliatory military action 
and forced conscription by the Taliban, politically motivated attacks 
by the Taliban against particular ethnic groups believed to be 
sympathetic to the opposition, as well as the ongoing humanitarian 
crisis in Afghanistan have caused tens of thousands of Afghans to flee, 
most of them towards Pakistan.
    All six countries neighboring Afghanistan, including Pakistan, 
Iran, Tajikistan, Turkmenistan, Uzbekistan, and China, officially 
closed their borders to refugees both on security grounds and citing an 
inability to economically provide for more refugees. Like Pakistan and 
Iran, Tajikistan's borders had been closed to Afghan refugees for the 
past year. Pakistan's actions were reportedly in direct response to a 
request from the U.S. to strengthen security in an effort to apprehend 
those responsible for the U.S. attacks. Although tens of thousands of 
refugees have been able to cross into Pakistan, thousands more--most of 
them women and children--have been trapped at the border with no 
shelter, food, water, or medical care. UNHCR has reported that several 
women have given birth while waiting to cross the border into 
Afghanistan.
    While countries in the region do face legitimate security concerns 
at this time, measures must be found to address these concerns without 
denying refuge to those fleeing civil conflict, human rights 
violations, the fear of military threats and conscription, and the 
looming humanitarian crisis inside Afghanistan.
    Host and donor governments, in collaboration with the United 
Nations, should keep all borders open to fleeing refugees in line with 
neighboring countries' international obligations, while simultaneously 
developing a coordinated strategy to effectively identify and separate 
militants and armed elements from civilian refugees.
Pakistan
    Pakistan is host to some two million Afghan refugees, and despite 
having officially closed its borders, many more Afghans are crossing 
into Pakistan each day. Pakistan's border with Afghanistan is 1,560 
miles long, making it difficult to control. The current humanitarian 
crisis in Afghanistan and impending U.S. military action has led to an 
increased influx of refugees, particularly at the Chanam border 
crossing near Quetta in Balochistan province. Approximately 15,000 
refugees have reached the Chanam border; attempts to prevent thousands 
more Afghans from crossing have led to clashes between border guards 
and refugees. Concerned about deteriorating humanitarian and security 
conditions for refugees trapped at the Chanam border crossing, UNHCR 
was negotiating with the Pakistan authorities to allow the refugees 
entry into Pakistan. In a report on October 1, however, UNHCR stated 
that thousands of the refugees had left the border area, supposedly 
retreating back into Afghanistan and seeking other ways into Pakistan. 
Since then, each day several hundred refugees arrive in Pakistan via 
mountain roads, but as of October 8, Pakistan continues to officially 
refuse to re-open its borders. The Taliban have also established 
checkpoints along routes to Pakistan to prevent those without passports 
and visas from leaving the country.
    UNHCR is preparing to provide relief to those fleeing the country 
and the Pakistan government has stated that it will provide assistance 
to those refugees who manage to enter the country. Some 100 new refugee 
sites have been identified by the Pakistan authorities in the North 
West Frontier Province, which could accommodate up to one million 
people. The sites are located in what are known as Pakistan's Federally 
Administered Tribal Areas--largely lawless territories close to the 
Afghanistan border. The new sites lack adequate water supply and 
infrastructure and Human Rights Watch is concerned by reports that 
refugees may be held under detention-like conditions. Location of 
refugee camps in these areas could seriously endanger the well-being, 
safety and security of the refugees. International standards stipulate 
that refugee camps should be located at a safe distance from 
international borders to avoid cross-border attacks or military 
incursions and that refugees should not be held in detention-like 
conditions. In addition, all sites currently identified lack adequate 
water, an issue that promises to plague internally displaced and 
refugee populations throughout the region. On October 8, UNHCR offices 
were stoned and personnel were unable to travel to border regions 
because of demonstrations in Quetta and Peshawar. The UNICEF office in 
Quetta was burned by protesters, as were the offices of two NGOs 
working with refugees located in the northwest border regions.
Iran
    Iran's frontier with Afghanistan is 560 miles long. In the wake of 
proposed U.S. military action in Afghanistan, Iran has closed its 
border expecting large numbers of Afghan refugees to attempt to cross. 
Iran has indicated that it wishes to provide humanitarian assistance 
only inside Afghanistan with the consent of the Taliban. To this end, 
seven refugee camps have been proposed for the border region between 
Afghanistan and Iran, but on Afghan soil. These camps will be designed 
to hold a maximum of 200,000 refugees between them. Iranian newspapers 
have reported that the interior ministry called upon Iranian relief 
organizations to provide emergency aid, although relief workers have so 
far reported that few refugees have reached the Iranian border. The 
Office of the U.N. High Commissioner for Refugees (UNHCR) reported that 
the Iranian Red Crescent moved tons of relief items to the border in 
preparation for possible new arrivals. So far, Iran has not responded 
to calls from UNHCR or international NGOs to officially reopen its 
borders, although reportedly small numbers of refugees are being 
allowed to cross. Recent reports indicate that hundreds of Afghans 
seeking refuge from the military air strikes were unable to cross into 
Iran because of border closures. Iran has sent extra troops into the 
eastern border region to maintain security and keep the borders closed.
Tajikistan
    Recovering from its own 1992-1997 civil war, the situation in 
Tajikistan is still unstable. The war, which caused massive internal 
displacement, has compounded the country's problems. Tajikistan's 
frontier with Afghanistan has been closed since September 2000. The 
Tajikistan government, unable to adequately defend the border itself 
has been relying on thousands of Russian Federal border guards to guard 
its frontiers.
    There are currently over 10,000 internally displaced Afghans on 
islands in the Pyanj River, waiting for an opportunity to cross into 
Tajikistan, some of whom receive assistance from aid agencies. UNHCR 
has estimated that as many as 50,000 Afghans in neighboring provinces 
close to the border may also leave their homes should the current 
crisis escalate. Other estimates put this figure as high as 120,000. On 
September 20, the President of Tajikistan, Emomali Rakhmonov, stated 
that the country would not be prepared to let a single refugee into the 
country. He cited a threat of infiltration by Islamic militants as well 
as serious economic problems as his major concerns.
China, Turkmenistan, and Uzbekistan
    All three other countries have also closed their borders. China's 
relatively narrow border with Afghanistan is the least accessible route 
out of the country. Uzbekistan's frontier has been reinforced, with the 
government citing concerns about Islamic militancy as the 
justification. Turkmenistan's foreign minister indicated a willingness 
to work with UNHCR, although it is not clear whether this means that 
the border would reopen in the event of an influx of refugees.
Policy Recommendations
    There is an urgent need for international cooperation to address 
the humanitarian crisis inside Afghanistan, to assist countries in the 
region to cope with large-scale refugee flows, and for western states 
to take their share of Afghan refugees. Countries should not use 
legitimate security concerns in the face of the September 11 attacks as 
an opportunity to close their borders or introduce legislation that 
further restricts the rights of all refugees, asylum seekers, migrants, 
or other non-citizens.
    Afghanistan's neighbors should work quickly to establish 
procedures, in conjunction with UNHCR and donor governments, to 
separate armed elements from refugees. In this way they can keep their 
borders open and comply with their obligations under international 
refugee law, as well as their humanitarian obligations, while 
maintaining national security. Urgent steps should be taken to help 
these countries to cope with the potential mass influx of refugees.
    Human Rights Watch makes the following recommendations.

To the Taliban authorities

  <bullet> As a matter of urgency allow international relief and U.N. 
        agencies full, free, and unimpeded humanitarian access to all 
        civilians inside Afghanistan, including the internally 
        displaced, with full security guarantees.

  <bullet> Cease immediately the confiscation of humanitarian supplies 
        from relief and U.N. agencies and restore to the extent 
        possible full communication networks for U.N. and relief 
        agencies.

To neighboring countries

  <bullet> Re-open borders to refugees from Afghanistan and provide 
        them with adequate protection.

  <bullet> The deportation of Afghan refugees must cease immediately.

  <bullet> As a matter of urgency and in collaboration with donor 
        governments and United Nations agencies, develop a coordinated 
        strategy to effectively identify and separate militants and 
        armed elements from civilian refugees. Separation should take 
        place inside host countries at the border and involve an 
        international monitoring presence.

  <bullet> The establishment of cross-border camps, safe havens, or 
        humanitarian zones within Afghanistan should not be considered 
        as an alternative to refuge in neighboring countries.

  <bullet> Refugee camps should be established in safe, accessible 
        areas in neighboring countries and located at a safe distance 
        from international borders in accordance with international 
        refugee protection standards. Camps should be set up in areas 
        with adequate infrastructure and water. supply and humanitarian 
        agencies should have full, free and unimpeded access to the 
        camps. Refugees should not be held in camps under detention-
        like conditions.

To governments in industrialized countries

  <bullet> Continue to allow asylum seekers access to fair and 
        efficient asylum determination procedures. Tougher immigration 
        controls, including anti-terrorist and anti-smuggling measures, 
        should not infringe on the rights of all asylum seekers to 
        access fair and efficient asylum determination procedures, and 
        should in no way undermine government's international 
        obligations prohibiting arbitrary and indefinite detention and 
        the return of refugees and asylum seekers to territories where 
        their lives or freedom may be threatened.

  <bullet> Urgent measures must be taken to counteract and prevent 
        growing xenophobic and racist attacks against nationals, 
        immigrants, asylum seekers, and refugees on the basis of their 
        ethnic origin, nationality, religious and political beliefs and 
        backgrounds. Increased protection should be provided to these 
        groups, and government leaders should take the lead in 
        countering racial, religious, or ethnic discrimination.

  <bullet> Immigration control measures must include procedural 
        safeguards in conformity with international standards for 
        migrants, refugees, and asylum seekers arrested, detained, and 
        in the process of deportation.

To donor governments

  <bullet> The Bush Administration's commitment of $320 million in 
        immediate humanitarian aid both for refugees and the population 
        inside Afghanistan is a good start, but clearly more is needed.

  <bullet> International responsibility-sharing measures should be 
        urgently put in place to respond to the humanitarian crisis 
        inside Afghanistan and potential refugee flows.

  <bullet> Immediate humanitarian assistance must be provided to 
        civilians inside Afghanistan to prevent further humanitarian 
        disaster and options for ensuring that assistance reaches those 
        most in need, especially the internally displaced, must be 
        urgently explored.

  <bullet> Urgently provide international assistance to neighboring 
        countries and countries in the region to cope with the 
        potential outflow of refugees from Afghanistan.

  <bullet> Governments outside the region, particularly industrialized 
        states, should explore emergency resettlement possibilities for 
        Afghan refugees.

    Senator Wellstone. If I could bring the hearing to order, 
we have got a very important panel to hear from, and we will 
start with Mr. de Torrente.

   STATEMENT OF MR. NICOLAS DE TORRENTE, EXECUTIVE DIRECTOR, 
          DOCTORS WITHOUT BORDERS, NEW YORK, NEW YORK

    Mr. de Torrente. Thank you, Senator Wellstone. Ladies and 
gentlemen, I am very grateful to Senator Boxer.
    Senator Wellstone. Mr. de Torrente, excuse me. As those of 
you who leave the room, if you could please keep your 
conversation out of the room, it would be very, very helpful to 
us.
    Mr. de Torrente. I am very grateful to you, Senator Boxer 
and Senator Wellstone, for convening this important hearing 
today and for giving me the opportunity to present Doctors 
Without Borders' perspective on the humanitarian situation in 
Afghanistan.
    Before doing so, I would first like to express the deep 
shock of all of MSF's staff felt around the world following the 
September 11 attack on the United States and extent our 
condolences to the friends and families of the victims here.
    These deliberate attacks which indiscriminately targeted 
civilians were really an all-out assault on the fundamental 
values and principles that we as a humanitarian organization 
hold so dear.
    Turning now to the very severe humanitarian crisis in 
Afghanistan, I think for the sake of the short amount of time 
we have in front of us, it has been very well described by 
others before me. Suffice it to say that even before September 
11, we were very concerned about the situation.
    Doctors Without Borders has 70 international volunteers and 
over 400 Afghan staff present in all areas of the country. we 
are running hospitals, clinics, providing essential health care 
services, and responding to emergencies there.
    With the epidemics and health care problems resulting from 
population displacement and malnutrition, through our 
intervention we witnessed a clear deterioration, especially in 
nutritional terms, which Mr. Natsios has described. we 
witnessed also increasing population displacement and very 
severe medical problems leading to malnutrition such as scurvy 
epidemics in the north of the country earlier this year, 
cholera epidemics, and other problems of the like.
    Since September 11, the rising tensions and the grave 
uncertainty about the security situation led to the withdrawal 
of MSF and other international humanitarian staff. This is 
jeopardizing the programs that are providing a lifeline to the 
vulnerable Afghan population. It also makes it very difficult 
to know what is actually going on right now inside the country. 
Today our main goal is to bring our teams back up to full 
capacity. To do this, we require that all parties to the 
conflict guarantee safe and unhindered access to the Afghan 
civilians in need.
    Up until very recently, convoys of food and medical 
supplies were resupplying our programs in Mazar-i-Sharif, 
Herat, and Kabul. Our staff remains able and committed, and we 
are able to monitor the situation through some of them, and so 
although the supplies and the size of the teams are still 
insufficient, these programs remain important sources of 
medical and nutritional assistance to the Afghan population.
    The main point I would like to raise today is our concern 
regarding the impact that military actions have on humanitarian 
actions inside of Afghanistan and why we at MSF feel it is so 
important to maintain a clear distinction between these two 
endeavors. The United States has stated clearly that the 
delivery of aid is an integral component of its comprehensive 
anti-terrorism strategy, and we have heard a lot about that 
this afternoon.
    President Bush's recently announced aid package is a 
reflection of this approach, and it builds on the longstanding 
generosity of the U.S. Government and people for assistance 
programs toward Afghanistan. One of the key objectives of the 
strategy is to win over public support in Afghanistan and 
elsewhere for the United States's comprehensive assault on 
terrorism by conveying the message that the U.S. strikes at the 
Taliban leadership and Osama bin Laden network, but reaches out 
to the Afghan civilians.
    Now, clearly there is an enormous need for assistance, 
especially as winter approaches. However, we have a number of 
concerns about the blurring of lines between the current 
military and humanitarian actions. First of all, I would like 
to make a quick point about the air drops themselves. Air drops 
of food by the U.S. military, even if they are well-
intentioned, they are not really the most effective means of 
meeting the enormous humanitarian needs of the Afghan people.
    To be effective, air drops should include the clear 
identification of beneficiaries, careful monitoring of the 
distribution of assistance, and transparency and implementation 
of the operation. Our experience has taught us that delivering 
untargeted and unmonitored relief is generally ineffective and 
can even be potentially harmful. Most importantly, however, we 
believe that the military and humanitarian agendas and 
activities should be clearly separated.
    Now, this is not about semantics or abstract principles, 
but it has really very direct implications in terms of the 
security of humanitarian staff and access to populations in 
need. The Geneva conventions define humanitarian action as 
neutral, independent, and impartial. This means that 
humanitarian actors should not take sides and should be free 
from political influence so that they can go after their 
objective single-mindedly, to impartially help people solely 
based on the criteria of need.
    Now, if aid is not perceived to be entirely neutral and 
independent of political objectives, it can be claimed by one 
or both sides as a part of the war effort. Aid and aid workers 
can then become targets of war. When aid is delivered by 
military actors, it becomes increasingly difficult to convince 
armed factions on the ground of the impartial objectives of 
western humanitarian organizations in these very volatile and 
politically charged environments.
    Recent attacks on U.N. offices in Quetta, Pakistan, are 
just one reflection of this problem, and it is not a new one. 
In Somalia, the confusion of roles and agendas of the political 
and military actors with those of the humanitarian 
organizations resulted in ultimately neither side being able to 
reach their objectives and with dramatic consequences for both.
    What is really needed now is a large-scale independent 
humanitarian relief effort aimed at directly reaching those 
most in need in Afghanistan and neighboring countries. I will 
come back to that in a short while.
    Finally, I would just turn to the situation of Afghan 
refugees in recent months. In addition to the approximately 4 
million of refugees in neighboring countries, hundreds of 
thousands of Afghans have fled their country in search of 
security and assistance abroad. We have seen over 400,000 
people moving to Iran in the last six months and some 200,000 
to Pakistan over the last year or so.
    Our work with a large number of these refugees has shown 
that fear of violation and persecution have been a key factor 
in this population's decision to leave the country, and many 
also seek to escape the ravages of the drought. Knowing the 
dire medical and nutritional consequences of massive 
displacement--and, again, Mr. Natsios explained this very 
well--we understand why one important reason to inject food 
into Afghanistan may be to prevent further displacement.
    But it is important to remember that these necessary aid 
efforts, even if they are successful, cannot provide a 
guarantee of protection for the civilian population. the right 
of the Afghans to seek safe asylum must be respected.
    MSF is extremely concerned with the closing of all 
international borders with Afghanistan and the containment of 
the population that results from it. Non-refoulement, which is 
the right not to be forcibly returned to an insecure area, must 
also be upheld. Currently we have not witnessed the expected 
mass influx of Afghans across international borders in recent 
weeks.
    There has been much speculation as to the reasons for this. 
Have Afghans abandoned the more exposed larger towns and taken 
shelter in the countryside? Have they been blocked along the 
roads? We don't know for sure, but what is certain is that 
borders remain officially closed with even tighter controls 
than before. Only those who can afford the high price of 
smugglers can flee, leaving the poorest and most vulnerable 
behind.
    We are also very concerned that despite the ongoing 
preparations of aid agencies that are led by UNHCR and others, 
and including MFS, that despite these preparations, were 
refugees to arrive in big numbers today, they would not be 
adequately protected and assisted in host countries. For a 
number of years, despite their longstanding hospitality, 
Pakistan and Iran have been increasingly reluctant to accept 
newcomers.
    New signs that have been now identified for refugee camps 
in Pakistan are situated in insecure and inaccessible areas 
very close to the border. In these locations, the safety of the 
refugees and of the aid workers who would try to assist them is 
very far from assured. Moreover, these are desolate areas where 
water and shade are in very scarce supply.
    So to conclude, what is critical for MSF is in the midst of 
this conflict, that as many dimensions, the fundamental needs 
of protection and relief for the Afghan people are met, we 
would like to underline the following points:
    The rights of the Afghan civilian population to safety and 
humanitarian assistance should be assured by all parties to the 
conflict by maintaining a clear distinction between military 
actions on the one hand and aid operations on the other. The 
U.S. Government will contribute to the future involvement of 
the independent and impartial humanitarian actors in 
Afghanistan.
    The U.S. Government should also insist on the opening of 
borders of neighboring countries to Afghan refugees on a large-
scale and independent humanitarian relief operation, and we 
have heard about it as well in some of the testimony earlier 
today. That should be led by international, nongovernmental 
organizations. It is needed inside and outside Afghanistan. 
This large-scale, independent effort would provide effective 
assistance and protection to the civilian population solely on 
the basis of assessed needs in an impartial. In neighboring 
countries, the conditions for refugees current and future must 
be substantially improved.
    Mr. Chairman, I am very grateful for this opportunity to 
express our concerns today in front of the Senate Committee on 
Foreign Relations. Thank you very much.
    [The prepared statement of Mr. Nicolas de Torrente 
follows:]

            Prepared Statement of Nicolas de Torrente, Ph.D.

    Ladies and Gentleman: I am grateful to Senator Wellstone and his 
staff for convening this hearing today and for giving me the 
opportunity to present Doctors Without Borders/Medecins Sans Frontieres 
(MSF)'s perspective on the humanitarian situation in Afghanistan.
    First of all, I would like to express the deep shock that all MSF 
staff and volunteers around the world felt following the September 11 
attacks on the United States and extend our condolences to the friends 
and families of the victims. These deliberate attacks, which 
indiscriminately targeted civilians, were an all-out assault on the 
fundamental values and principles that we as a humanitarian 
organization hold so dear. We have been extremely impressed by the 
rescue and recovery operations in New York, and, in a modest way, were 
able to contribute to this effort by providing an MSF mental health 
team experienced in mass trauma to support New York's own excellent 
mental health professionals.
    I would also like to take this opportunity to clarify, up front, 
some confusion regarding MSF's stance on the U.S. actions taken since 
Sunday. As a humanitarian organization, our concern with any military 
actions, including those undertaken by U.S. forces in Afghanistan, is 
with their impact on the civilian population. Our intention is also to 
raise concerns regarding the blurring of lines between military and aid 
activities--such a mixing of roles has the potential to undermine the 
provision of larger-scale humanitarian assistance by independent, non-
governmental actors to the most vulnerable populations in Afghanistan, 
as I would like to explain, below.
    First, please allow me to briefly share with you the salient 
features of the severe humanitarian crisis currently facing 
Afghanistan.
             the severe humanitarian crisis in afghanistan
    MSF has been working in Afghanistan for over 20 years. In fact, I 
just returned from Faizabad, in the Northern Alliance-held territory, 
in late August. At that time, MSF had over 70 international volunteers 
and over 400 Afghan staff present in all areas of Afghanistan. MSF 
volunteers were running hospitals, clinics, providing essential health 
care services and responding to emergencies, particularly epidemics, 
and health problems resulting from population displacement and 
malnutrition.
    Over 20 years of war and three years of uninterrupted drought have 
combined to force hundreds of thousands of Afghans from their homes, 
exposing them to increasing insecurity, disease and hunger.
    Today, due to internal conflict and regional tensions, civilians 
are trapped within the cycle of violence, and are suffering from 
persecution, repression and other violations of international 
humanitarian law from different sides.
    The drought has compounded the effects of the ongoing conflict by 
gradually depleting people's coping mechanisms. Our surveys show a 
consistent deterioration of the nutritional situation in all areas, now 
reaching emergency levels for millions of people (more than 10 percent 
of children under 5 were measured as being acutely malnourished). There 
have recently been outbreaks of scurvy (vitamin C deficiency) and 
epidemics of diseases (cholera, measles, diarrhea) that easily kill 
malnourished children. We are concerned that with high levels of 
malnutrition, these people face a long winter before there is even the 
chance of a new harvest.
    Throughout Afghanistan, war and drought has resulted in massive 
displacement. In recent months, hundreds of thousands of people have 
been leaving their lands, homes and families out of fear or hunger or 
both, and fleeing to vast makeshift camps around the major cities or to 
neighboring countries.
    For MSF, carrying out effective humanitarian action requires the 
constant presence of our teams on the ground so they can assess the 
needs of the civilians, provide assistance to the most vulnerable, and 
evaluate the impact of our programs on the target population. In 
Afghanistan, it has been difficult to gain the necessary conditions for 
access and appropriate delivery of humanitarian assistance, especially 
to women, but it has been possible. Throughout our 20 years in 
Afghanistan, maintaining direct contact with the population and 
dialogue with the different actors, as well as demonstrating focused 
and clear humanitarian goals has been critical to our operations. This 
has become more difficult in recent years for several reasons, 
including the increasing restrictions on NGO operations by the Taliban 
regime.
    Since September 11, rising tensions, and grave uncertainty about 
the security situation led to the withdrawal of MSF and other 
international humanitarian staff. This is jeopardizing the programs 
that provide a lifeline to the vulnerable Afghan population, and also 
makes it difficult to really know what is happening inside the country.
    Today, our main goal is to bring our teams back up to full 
capacity. To do this, we require that all parties to the conflict 
guarantee safe and unhindered access to the Afghan civilians in need. 
Up until the air strikes, convoys of food and medical supplies were 
resupplying our programs in Mazar-i-Sharif, Herat and Kabul. Our Afghan 
staff remains in the country, very committed and able, and we are able 
to monitor the situation somewhat through communication with some of 
them. Although the supplies and the size of the teams are currently 
insufficient, these programs remain important sources of medical and 
nutritional assistance to the Afghan population. These efforts are 
currently suspended due to the military operation.
    A main point I would like to raise today is our concern regarding 
the impact that military actions have on humanitarian actions inside 
Afghanistan, and why we in MSF feel it is so important to maintain a 
clear distinction between these two endeavors. Allow me to elaborate 
more on this latter point.
         concerns regarding integrating humanitarian operations
                       within a military strategy
    The U.S. has stated clearly that the delivery of aid is an integral 
component of its comprehensive anti-terrorism strategy. President 
Bush's recently announced $320 million aid package is a reflection of 
this approach, building on the longstanding generosity of the U.S. 
government for assistance programs towards Afghanistan. One of the key 
objectives of this strategy is to win over public support in 
Afghanistan and elsewhere for the US's comprehensive assault on 
terrorism, by conveying the message that the U.S. strikes at the 
Taliban leadership and Osama-bin-Laden network, but reaches out to 
Afghan civilians. Clearly, there is an enormous need for assistance, 
especially as winter approaches. However, we have a number of concerns 
about the blurring of lines between the current military and 
humanitarian actions.
    First, I would like to make a quick point on the airdrops 
themselves. As has already been stated by administration officials, air 
drops of food by the U.S. military, even if well-intentioned, are not 
the most effective means of meeting the enormous humanitarian needs of 
the Afghan people. Air drops should include the clear identification of 
beneficiaries, careful monitoring of the distribution of assistance, 
and transparency in implementation of the operation. Our experience has 
taught us that delivering untargeted and unmonitored relief is 
generally ineffective and can even be potentially harmful. For 
instance, medicines need to be delivered through health structures and 
administered by qualified health staff if they are to be effective, and 
not risk causing more harm than good. Malnourished persons require 
specialized food and care. By packaging individual rations, the U.S. 
military's intention is to limit diversion of aid into the hands of 
military forces. However, this still does not ensure that the aid 
benefits those who need it most. Aid agencies on the ground have done 
extensive work to identify and target those most in need, whether they 
are displaced persons in camps or widow-headed household in major 
cities. Without independent assessments and monitoring on the ground, 
it will be very difficult to be convinced that airdrops have reached 
these people.
    Most importantly, however, we believe that the military and 
humanitarian agendas and activities should be clearly separated. This 
is not about semantics or abstract principles, this has very direct 
implications in terms of security of humanitarian staff and access to 
populations in need.
    The Geneva Conventions defines humanitarian action as neutral, 
independent and impartial. This means that humanitarian actors should 
not take sides and should be free from political influence so they can 
go after their objectives single-mindedly--to impartially help people 
based solely on criteria of need. If aid is not perceived to be 
entirely neutral and independent of political objectives it can be 
claimed by one or both sides as a part of the war effort. Aid and aid 
workers can then become targets of war.
    Gaining access and providing assistance to vulnerable populations 
under the sway of armed factions in a politically charged climate is 
always very difficult. Ultimately, it rests on demonstrating that the 
motives for helping the civilians are purely humanitarian. By making 
aid delivery an essential means of reaching its political and military 
objectives, the U.S.-led effort could well taint those independent and 
impartial humanitarian actors whose programs have provided the bulk of 
the assistance to Afghans for many years, and whose efforts will be 
needed for years more.
    In the aftermath of the current events, it will be increasingly 
difficult to convince armed factions of the impartial objectives of 
western humanitarian organizations in very volatile and politically 
charged environments. Recent attacks on UN offices in Quetta, Pakistan, 
are a reflection of this problem. And it is not a new one: in Somalia, 
the confusion of roles and agendas of the political and military actors 
with those of humanitarian organizations resulted in neither side being 
able to reach their objectives, with dramatic consequences for both.
    What is needed now is a large-scale independent humanitarian relief 
effort aimed directly at reaching those most in need in Afghanistan and 
neighboring countries. This response could be provided by independent 
humanitarian organizations and UN agencies. All parties to the 
conflict, including the Taliban, must allow for the delivery of large-
scale convoys of basic foodstuffs and medicines by humanitarian actors 
who can ensure that it is delivered to those who need it.
                            afghan refugees
    In recent months, in addition to the approximately 4 million 
refugees in neighboring countries, hundreds of thousands of Afghans 
have fled their country in search of security and assistance abroad: 
over 400,000 to Iran, and some 200,000 to Pakistan. Our work with a 
large number of these refugees has shown that fear, violence and 
persecution have been a key factor in this population's decision to 
leave the country. Many also seek to escape the ravages of the drought.
    Knowing the dire medical and nutritional consequences of massive 
displacement, we understand why one important reason to inject food aid 
into Afghanistan may be to prevent further displacement. But it is 
important to remember that these necessary aid efforts, even if they 
are successful, cannot provide a guarantee of protection for the 
civilian population. The right of the Afghans to seek safe asylum must 
be respected. MSF is extremely concerned with the closing of all 
international borders with Afghanistan and the containment of the 
population. Non-refoulement, or the right not to be forcibly returned 
to an insecure area must also be upheld.
    Currently, we have not witnessed the expected mass influx of 
Afghans across international borders. There is much speculation as to 
the reasons for this: have Afghans abandoned the more exposed, larger 
towns and taken shelter in the countryside? Have they been blocked 
along the roads? We don't know for sure, but what is certain is that 
borders remain officially closed, with even tighter controls than 
before. Only those who can afford the high price of smugglers can flee, 
leaving the poorest and most vulnerable behind.
    We are also very concerned that, despite the ongoing preparations 
of aid agencies, led by UNHCR and including MSF, were refugees to 
arrive in big numbers today, they would not be adequately protected and 
assisted in host countries. For a number of years, Pakistan and Iran 
have been increasingly reluctant to accept newcomers, and our ongoing 
experience working in Jalozai camp in Peshawar shows how difficult it 
is to assist Afghan refugees in Pakistan. New sites that have been 
identified for refugee camps in Pakistan are situated in insecure and 
inaccessible areas close to the border. In these locations, the safety 
of the refugees, and of the aid workers who would try to assist them, 
is far from assured. Moreover, these are desolate areas, where water 
and shade are in very scarce supply.
    The borders must be opened to allow refugees to flee warfare and 
persecution. The internationally recognized right to seek protection 
and receive asylum in neighboring countries must be upheld. Adequate 
steps to receive refugees in safe and appropriate conditions must be 
taken.
                               conclusion
    To conclude, what is critical for MSF is that, in the midst of 
conflict, the fundamental needs of protection and relief for the Afghan 
people are met.
    Therefore MSF would like to underline the following points:

  <bullet> The rights of the Afghan civilian population to safety and 
        humanitarian assistance should be assured by all parties to the 
        conflict,

  <bullet> By maintaining a clear distinction between military actions 
        and aid operations, the U.S. government will contribute to the 
        future involvement of independent and impartial humanitarian 
        actors in Afghanistan,

  <bullet> The U.S. Government should insist on the opening of the 
        borders of neighboring countries to Afghan refugees,

  <bullet> A large-scale independent humanitarian relief operation led 
        by international and non-governmental organizations is needed 
        inside and outside Afghanistan to provide effective assistance 
        and protection to the civilian population, solely on the basis 
        of assessed needs and in an impartial fashion. In neighboring 
        countries, the conditions for refugees--current and future--
        must be substantially improved.

    Mr. Chairman, we are grateful for the opportunity to express our 
concerns today in front of the Senate Committee on Foreign Relations.

    Senator Wellstone. Thank you.
    Mr. Bacon.

STATEMENT OF MR. KEN BACON, PRESIDENT, REFUGEES INTERNATIONAL, 
                        WASHINGTON, D.C.

    Mr. Bacon. Thank you, Senator Wellstone. I want to thank 
you and Senator Boxer for holding this very timely hearing. It 
is timely, because it comes at a time when the U.S. is pursuing 
two imperatives. One is to attack terrorists and their 
protectors in Afghanistan, and, two, to feed the Afghan people. 
It is a campaign, as Prime Minister Blair has said, of bombs 
and bread.
    I want to just make four points in order to leave time for 
questions. First, as has been amply documented here, 
Afghanistan has been a huge humanitarian crisis for years.
    Prior to September 11, the World Food Program of the United 
Nations was providing rations to 3.8 million people. It had 
planned to step up to 5.5 million people even before September 
11, and now, of course, the needs are 50,000 metric tons a 
month to meet the population in need of 5.5 to 7 million 
people.
    Second, the U.S. has played a leading role in responding to 
the humanitarian crisis in Afghanistan, and that leadership 
continues. Since September 11, the U.S. has allocated $320 
million to meet the humanitarian needs in Afghanistan and for 
Afghan refugees in neighboring countries. It is important to 
note that this is new money. It does not rob Peter to pay Paul. 
You are not taking money from the humanitarian aid for Africa 
or the Balkans. This is new money, and therefore, it is a very 
important addition.
    The U.S. has acted quickly and generously to meet growing 
humanitarian needs in Afghanistan, and they should be applauded 
for this. Air drops of food are just one sign that the 
administration has incorporated humanitarian needs into its 
military, diplomatic, and economic responses to the attack. 
While the air drops of food are inefficient and expensive, they 
are better than nothing.
    To be successful in meeting humanitarian needs, the U.S. 
must work with the United Nations and neighboring countries to 
resume significant food deliveries to Afghanistan over land.
    Refugees International recommends a strategy of letting the 
country with food by the most efficient and effective means.
    Available cross-border shipping by truck from Pakistan, 
Iran and the former Soviet republics in the north offer the 
best possibility to transport the maximum amount of food to 
areas with concentrations of vulnerable people.
    This effort needs to begin at once as winter weather, 
especially in the north, will impair road transport. I was very 
glad to hear the news today that the World Food Program has 
started deliveries from four neighboring countries.
    Senator Wellstone. And the question is whether that will be 
sustained or not.
    Mr. Bacon. That is the question, and only time will tell, 
but I think it does show that after suspending the deliveries 
on Sunday, that they have moved as quickly as possible to 
restart deliveries, and this is a good sign indeed. I might 
also point out it is necessary to deliver seeds. Food isn't 
enough. We have to do more than just meet the immediate needs.
    We have to prepare people to support themselves, and as 
Andrew Natsios pointed out, people have been eating their seed 
because they have no other food, so it is very important over 
the next month, and there is really--this is urgent, because 
there is probably only four to five weeks left in time to 
deliver seed for planting for the spring wheat crop, very 
important to get seeds in there as quickly as possible, 
particularly seeds that have been tested to grow in this 
climate.
    My third point: While the current U.S. commitment is a good 
start, it is not enough. Given the magnitudes of the needs in 
Afghanistan and the likelihood that reconstruction assistance 
will be badly needed in the aftermath of a military campaign, 
it is probably best to view the $320 million as a down payment. 
We clearly need something of the magnitude of the Biden 
proposal. It might even be too small.
    Fourth, this is something that Congress, I think, should 
pay attention to for this crisis and future crises. the crisis 
in Afghanistan is extremely complex. The response involves 
military, economic, diplomatic, and humanitarian pieces. A 
lesson that clearly emerges from similar crises over the past 
decade is the importance of designating a cabinet-level 
officer, specifically and solely to take responsibility for 
humanitarian issues, in other words, the humanitarian 
coordinator.
    In recent weeks, the President has announced a coordinator 
for homeland defense and a coordinator for counter-terrorism 
programs. I think the humanitarian program should have an equal 
stature at the table when the decisions are made.
    Let me conclude with this very brief summary. Refugees are 
a sign of instability. Frequently refugees flee a country where 
the government does not work or fails to protect its own 
people. The immediate challenge is to meet the humanitarian 
needs of millions of Afghans, both those in the country and 
those who have already fled. After the current crisis, the U.S. 
and its allies with face a longer-term task of helping 
Afghanistan to become stable and prosperous.
    Thank you very much.
    [The prepared statement of Mr. Ken Bacon follows:]

                 Prepared Statement of Kenneth H. Bacon

    At the outset, I want to thank Senator Paul Wellstone, the 
Chairman, of the Subcommittee on Near Eastern and South Asian Affairs, 
for organizing this hearing on Afghanistan's humanitarian crisis. This 
hearing could not be more timely, because it comes as the U.S. is 
attacking terrorists and their protectors in Afghanistan, while moving 
to feed the Afghan people, a campaign of bombs and bread.
    Afghanistan was one of the largest crises of displacement in the 
world well before the events of September 11, 2001. After more than 20 
years of conflict, three years of drought, and the repressive policies 
of the Taliban regime, four million Afghans had sought refuge in 
neighboring countries, with as many as two million each in Pakistan and 
Iran. Inside the country some 800,000 people were displaced. The United 
Nations World Food Program (WFP) was providing daily rations to 3.8 
million people and were preparing to increase the number fed to a total 
of 5.5 million through the long winter season. The United States was 
the leading funder of relief efforts for the Afghan people, providing 
$183 million in FY 2001.
    In the aftermath of the September 11 attacks on New York and 
Washington, it became clear that the initial focus of U.S. military 
retaliation would be in Afghanistan. Refugees International, joined by 
other humanitarian non-governmental organizations, immediately began 
pressing the Administration to recognize two imperatives: (1) the 
humanitarian imperative to continue to respond to the needs of the 
millions of vulnerable Afghan civilians who bear no responsibility 
whatsoever for the attacks on U.S. soil, and (2) the political 
imperative of ensuring that the U.S. military response did not harm 
innocent civilians and thereby jeopardize the moral high ground that 
the United States has been able to maintain as the victim of terrorism 
that targeted civilians in New York and Washington. We raised these 
points in a letter to President Bush and in subsequent meetings with 
administration and congressional officials. I have attached a copy of 
the letter to this testimony.
    RI applauds the administration's decision to allocate $320 million 
to respond to humanitarian needs in Afghanistan and for Afghan refugees 
in neighboring countries. We are especially glad that this pledge comes 
from the extraordinary $40 billion emergency fund approved by Congress 
and does not, therefore, reduce U.S. funding for other humanitarian 
crises around the world. The amount allocated by the Administration 
represents more than a fair share of the $584 million requested by UN 
Secretary General Kofi Annan in his appeal to the international 
community for Afghan relief.
    Nonetheless, given the magnitude of the needs in Afghanistan and 
the likelihood that reconstruction assistance will be badly needed in 
the aftermath of the U.S. military campaign, it is probably best to 
view the $320 million as an initial investment in a lengthy and costly 
response to the needs of the Afghan people for peace, reconstruction, 
and development.
    The most critical need at the moment is for significant food 
deliveries to Afghanistan to resume over land. As I have already noted, 
WFP had planned to provide daily rations to 5.5 million people in the 
coming months. In the immediate aftermath of the September 11 attacks, 
WFP evacuated their expatriate staff and suspended food deliveries. 
Their extensive network of local staff, however, was able to maintain 
feeding programs using existing stocks. Last week they delivered 5,000 
metric tons of additional food to Afghanistan, but the weekly 
requirement is about 12,000 tons. The WFP briefly suspended food 
shipments after military strikes began, but yesterday it announced that 
it was resuming overland food shipments through Iran.
    Refugees International recommends a strategy of flooding the 
country with food by the most efficient and effective means available. 
Cross-border shipping by truck from Pakistan, Iran, and the former 
Soviet republics in the north offers the best possibility to transport 
the maximum amount of food to areas with concentrations of vulnerable 
people. This effort needs to begin at once, as winter weather, 
especially in the north, will impair road transport.
    Airdrops of food are inefficient and expensive, but they are better 
than nothing. They should only be used as a last resort. Refugees 
International is concerned that the airdrops of individual emergency 
food packets organized by the U.S. military at the outset of the 
bombing campaign appear to be intended more to send a political message 
to the Afghan people and to the Muslim world than to reach large 
numbers of people at risk of starvation. The focus of the 
Administration should be to apply as much of the $320 million as 
possible to getting food into Afghanistan by overland routes through 
WFP and non-governmental organizations.
    Food deliveries inside Afghanistan will save lives and could also 
help prevent a refugee crisis on the borders of Pakistan, Iran, and 
other neighboring states. The United Nations High Commissioner for 
Refugees (UNHCR) estimates that as many as 1.5 million people could 
seek refuge in neighboring states as a result of anti-terrorist 
military actions and hunger. A refugee outpouring of this magnitude 
would not only be a humanitarian crisis of massive proportions, it 
would potentially be politically destabilizing, especially in Pakistan 
and Iran, where resentment against Afghan refugees was already growing 
well before the events of September 11.
    In this context, the preference is clearly to enable Afghans to 
remain in their homes and on their farms rather than to have them 
embark on a long, difficult, and dangerous journey to neighboring 
countries in search of food.
    In the event that large numbers of Afghans decide to seek asylum in 
neighboring countries, the issue of whether the borders will be open 
immediately arises. Both Pakistan and Iran insist that their borders 
remain closed to new Afghan refugees. Both countries prefer that the 
needs of the displaced be met through cross-border operations to 
Afghans held in camps inside Afghanistan. Iran is a signatory to the 
1951 Refugee Convention that obligates it to provide asylum to 
vulnerable people fleeing persecution, violence, and hunger. The UNHCR 
and the international community must insist that neighboring countries 
open their borders to Afghan refugees, with the understanding that 
under the principle of ``burden sharing'' receiving nations would 
receive appropriate financial assistance from the international 
community for their decision to honor their obligations.
    Refugees International is concerned that UNHCR's public comments on 
the issue of opening the borders to refugees at the recent Forum on 
Afghanistan Refugees and Displaced Persons (held in Geneva on October 
5-6) appear designed to meet the governments of Pakistan and Iran 
halfway rather than taking a principled position on the right to 
asylum. Ruud Lubbers, the UN High Commissioner, has spoken of the 
possibility of establishing camps inside Afghanistan and of opening 
borders not for all refugees seeking protection but to assist and 
protect the vulnerable ``temporarily.'' While this approach is 
presumably designed to advance delicate negotiations with the 
governments of Pakistan and Iran, the Afghan people depend on UN14CR to 
support their right to asylum at this difficult moment. RI urges the 
administration to insist that the borders of neighboring countries be 
open to refugees. The U.S. should also intervene with the High 
Commissioner to ensure that he is vigorously supporting the right to 
asylum for Afghans.
    The crisis in Afghanistan is complex. The U.S. response involves 
military, economic, diplomatic, and humanitarian elements. A lesson 
that clearly emerges from similar crises over the past decade is the 
importance of designating a Cabinet-level official specifically and 
solely to take charge of humanitarian issues. While all senior members 
of the U.S. team should be sensitive to humanitarian concerns, it is 
important to have one individual at the table who is responsible for 
the complex interplay among military, political, and humanitarian 
aspects of the operation. Recently, President Bush appointed 
coordinators for homeland defense and counter-terrorism programs.
    The over-riding brief for such a humanitarian affairs coordinator 
should be to ensure that the interests of the Afghan civilians and 
refugees are protected. The humanitarian affairs coordinator can be 
either a military or civilian officer. This person could also be the 
senior contact point for the UN, other international organizations, and 
NGOs involved on the humanitarian front. What is essential is that the 
coordinator be in the inner circle of those who are managing the U.S. 
part of the decision-making process. To do less will court humanitarian 
errors that will affect the lives of many and the overall credibility 
of the U.S. government.
    In conclusion, let me summarize my three main points:

  <bullet> The humanitarian crisis in Afghanistan predates the 
        September 11th attack against the United States and the U.S. 
        military response to that attack.

  <bullet> The international community, led by the U.S., has responded 
        well and quickly to the humanitarian needs of the Afghan 
        people.

  <bullet> Nevertheless, more needs to be done to meet the Afghan 
        people's needs for food, shelter and medical supplies, and 
        after the current crisis is over, the international community 
        will face the challenge of helping to rebuild Afghanistan.

    Refugees are a sign of instability. Frequently, refugees flee a 
country where the government does not work or fails to protect its own 
people. The immediate challenge is to meet the humanitarian needs of 
millions of Afghans, both those inside the country and those in refugee 
camps outside Afghanistan. After the current crisis, the U.S. and its 
allies will face a longer term task of helping Afghanistan to become 
stable and prosperous.

    [The letter referred to by Mr. Bacon follows:]

                            Refugees International,
                                            Washington, DC,
                                                September 18, 2001.

President George W. Bush,
The White House, Washington, DC.

Dear Mr. President:

    As you plan the military, diplomatic, and economic responses needed 
to destroy the terrorist network that attacked the United States, it is 
important that you also plan to meet the humanitarian needs of the 
people of Afghanistan, a country that already is the site of the 
greatest crisis of hunger and displacement in the world.
    Twenty-two years of war, three years of drought, and the 
difficulties caused by the repressive Taliban regime have caused nearly 
4 million Afghans to flee to Iran and Pakistan. According to the United 
Nations, 5 million people still in the country are in danger of 
starvation due to a three-year drought. Hoping to escape a U.S. 
response to last week's devastation, 100,000 Afghans have fled Kabul 
and other cities and the Taliban stronghold of Kandahar is now half-
empty.
    Many people in rural parts of the country are on famine rations: 
bitter wild roots and grass mixed with wheat flour to make bread. Tens 
of thousands of people in the cities, including war widows, the 
elderly, and orphans, are completely dependent upon international aid 
for their survival. Only food aid--mostly U.S.-donated wheat--stands 
between them and starvation.
    Yet most UN and non-governmental relief agencies have pulled out of 
Afghanistan following last week's attack against the U.S. The World 
Food Program says it has only enough food in the country for two weeks 
of distribution by local personnel. The borders with Pakistan and Iran 
are mostly closed to the flow of people and goods.
    The U.S. experience in the Gulf War suggests the importance of 
anticipating and minimizing refugee flows and starvation. In the Gulf 
War, the U.S. was caught by surprise when over 2 million Kurds fled, 
some to neighboring Turkey and Iran, to escape Saddam Hussein, 
necessitating an urgent humanitarian response for which the 
international community was largely unprepared.
    Refugees International recommends that the administration prepare a 
humanitarian impact analysis for military operations and contingency 
plans to deal with humanitarian challenges. Military operations should 
be planned to minimize the impact on people already tottering on the 
edge of famine and to repair humanitarian damage as soon as possible.
    Considering that the war is with terrorists and their supporters, 
not with the Afghan people, the U.S. also needs to find a way to resume 
relief operations and food aid to the Afghan people. The first step 
should be immediate consultations with the UN Secretary General to find 
ways to enable relief workers to return safely to the country and 
resume operations. The UN must anticipate huge refugee and humanitarian 
problems and, as it did in Macedonia this summer, get the people and 
the resources into the region to deal with them.
    The most appalling and universally condemned aspect of last week's 
attack against the U.S. was the targeting of innocent civilians. The 
U.S. cannot afford to be accused of doing the same in its response. The 
U.S. requires the support of moderate Muslims around the world and this 
necessitates maintaining the moral high ground. A humanitarian disaster 
in Afghanistan, if attributed to U.S. military operations, could leave 
the American people even more vulnerable to terrorism in the future. 
The United States wants to win the war against terrorism--not sow the 
seeds of future problems.
            Sincerely,
                                          Kenneth H. Bacon,
                                                         President.

    Senator Boxer. Thank you.
    Senator Wellstone, it is my pleasure to introduce Eleanor 
Smeal, the president of the Feminist Majority. We already heard 
of the plight of these people. We are looking at everything 
coming together: drought, famine, no human rights, a place 
where terrorism breeds, all of this coming down, and 
particularly a place where women just have absolutely no rights 
whatsoever, and all this was brought to my attention so long 
ago by Ellie Smeal and the grassroots women in California who 
work with her.
    So it is certainly an honor for me to introduce her, and, 
Senator Wellstone, thank you for that honor.

 STATEMENT OF MS. ELEANOR SMEAL, PRESIDENT, FEMINIST MAJORITY, 
                      ARLINGTON, VIRGINIA

    Ms. Smeal. Thank you, Senator Boxer, and thank you for 
being with us for so many years, supporting our efforts, and 
also thank your able staff. Sean Moore has been right there, 
too. As you know, our campaign to stop gender apartheid has 
been working not only at the national but at the grassroots 
level, very strong in California, but really in 49 of the 50 
states.
    I would also like to thank Senator Wellstone for your 
efforts here.
    We have been involved in this campaign to stop gender 
apartheid in Afghanistan since 1997. We got involved because of 
the horrific treatment of women, but when we got involved, we 
also learned about the terrible humanitarian crisis, so we 
immediately tried to get more humanitarian aid to save lives.
    In addition, we looked at the situation and realized that 
there must be not only nonrecognition of the Taliban by the 
United States and the United Nations, but also that there had 
to be more pressure on both Pakistan, Saudi Arabia, and the UAE 
to withdraw their support for the Taliban. As we all know, the 
United States came out against recognition, and, Senator Boxer, 
you played a major part in that. And we also came against the 
construction of a major oil pipeline there, and UNOCAL 
withdrew, again because the California women played a major 
role in that.
    We would like to point out that we came out early to have 
the Taliban designated as a terrorist organization, and I want 
to note that to this date, they are still not designated as a 
terrorist organization, and we think that should still happen.
    Right now, our grassroots effort has the endorsement of 
over 200 women's rights and human rights organizations that are 
co-sponsoring it, and Mavis Leno is our chair, our national 
chair.
    Hundreds of thousands of people now have written letters 
and signed petitions and sent e-mails to the Clinton 
administration and to the Bush administration, urging help for 
the Afghan women and for humanitarian aid. I point this out, 
because I want to stress the huge support for this among the 
American people. The American people do see a different between 
the Taliban and the humanitarian situation, and the Afghan 
people and especially the women there, and this constituency is 
deep. It is profound, and it has responded even more now in 
wake of the tragic events of September 11.
    We have now seen an outpouring. People are sending more 
help. They are trying to encourage that there be more aid, and 
indeed, some 800 different groups at the local level are trying 
themselves to raise money to help local Afghan groups and in 
the refugee areas to do clinics and schools. I have heard 
today--there has been so many different numbers of the millions 
of people in trouble.
    The one thing I would like to emphasize is that prior to 
September 11, millions have fled, and hundreds of thousands in 
this year alone. The numbers are so big, they are staggering.
    The refugee population is the single biggest in the world, 
and so I just want us to try to get our arms around the 
numbers, even though they might differ some, because the need 
is so great.
    Our staff has visited the refugee areas, and they are 
horrific. There is little food. Families have only a plastic 
sheeting for shelter, and there is virtually no sanitation.
    This has been going on. This is a near holocaust situation, 
and as far as health care, please, it is so minimal that one 
woman every 30 minutes, somebody calculated, is dying from 
childbirth, and one in four children are dying before the age 
of 5, and the infant mortality rate is soaring. This is 
staggering, and that is why we must think big. Yes. America 
has--the United States has led in humanitarian aid, but I must 
stress, it has been too little, and we believe that the United 
Nations' appeals have been very modest. The reason they have 
been so modest is because until September 11, all we could hear 
about is donor nation exhaustion, because this war had been 
going on so long.
    Consequently, the appeals have been modest, and even though 
the latest appeal, which is for 584 million--and I am thrilled 
that we now have 730 million--it too was modest, and let us 
point out why.
    First, the United Nations only counts as refugees those who 
live in the refugee camps, and most people do not live----
    Senator Wellstone. Excuse me, Ms. Smeal. Please go on a 
little longer.
    Ms. Smeal. Also the appeal only had 3 percent in it for 
health care and 1 percent in it for education, and we all know 
the importance of the education. We are heartened by Bush's 
response, but we agree with Senator Biden that we should be 
thinking in terms of billions of dollars, and we must be 
thinking in terms of really reconstructing this country, and at 
the center of it must be women. We are--we were the majority of 
the health care workers. We are 70 percent of the teachers. We 
must be at the center of it.
    And right now, we are urging that funds be set aside and go 
directly to women-led, Afghan women-led NGOs. Right now, we 
give money to the big international ones, but it is these 
little NGOs--and they are only little, because no one gives 
them aid. They have the capability; they have the talent.
    They have got to be part of the reconstruction effort, so 
we must support them. And they are there; they can do more.
    They are running the clinics and schools, and we hope that 
we will, in fact, support them directly in the reconstruction.
    I hear so much about what is going to happen afterwards.
    We plead. We think in terms of a constitutional democracy.
    They had one. They had one in 1964. By the way, it has an 
equal rights amendment for women in there. They had universal 
suffrage. Women were in the parliament. We were judges.
    There was a separate and independent judiciary, so we don't 
have to start from scratch. You can build and build on a very 
capable indigenous Afghan women.
    We have had the privilege of working with many Afghan 
women. Yes, it is true, there is a large illiterate population, 
but it is also true there are many educated women.
    They have been doctors; they have been engineers, lawyers.
    These are people who could and must be at the decision-
making table. And so we are hoping that when we think, we think 
in terms of what we did after World War II, that we 
reconstruct, we help to build a democracy, that we make sure 
that people are at the table, and that, in fact, their rights 
are fully restored, and that, indeed, that it is not treated as 
a side issue.
    I believe in this issue. In many ways, women were the 
canaries in the mine. If we had seen, if the world had 
responded faster, maybe, maybe more could have been averted, 
but in this time, they cannot be ignored. They must be treated 
as a major part of the solution of this problem.
    Thank you very much.
    [The prepared statement of Ms. Eleanor Smeal follows:]

                Prepared Statement of Ms. Eleanor Smeal

    Since early 1997, the Feminist Majority and its sister organization 
the Feminist Majority Foundation have led the Campaign to Stop Gender 
Apartheid in Afghanistan in order to raise public awareness about the 
treatment of women and girls in Afghanistan and to urge the U.S. and 
the U.N. to do all in their power to restore the rights of women and to 
address this humanitarian disaster. Throughout this campaign, we urged 
non-recognition of the Taliban by the United States and the United 
Nations, designation of the Taliban as an international terrorist 
organization, pressure on Pakistan, Saudi Arabia, and the UAE to 
withdraw their support for the Taliban, and that the construction of an 
oil and gas pipeline through Afghanistan that would have supplied 
millions of dollars in profits to the Taliban be stopped. As you know, 
the U.S.and the U.N. did come out against the recognition of the 
Taliban in an event at the White House on March 11, 1998 in 
commemoration of International Women's Day (March 8) and UNOCAL did 
stop the pipeline. But to this date, the U.S. has still not designated 
the Taliban as an international terrorist organization. To date, over 
200 women's rights and human rights organizations are co-sponsoring our 
national campaign chaired by Mavis Leno.
    Hundreds of thousands of individuals have written letters, signed 
petitions, and sent e-mails to urge both the Clinton Administration and 
now the Bush Administration to do everything in their power to restore 
the human rights of Afghan women. We have formed over 800 Action Teams 
to Help Afghan Women nationwide. These teams, which include girl scout 
troops, community organizations, classrooms, and groups of family, 
friends, and co-workers, are organizing petition drives and raising 
funds to support schools and clinics run by Afghan women in Pakistan 
for refugees. In both 1999 and 2000, officials at the U.S. State 
Department told us that we had successfully mobilized a U.S. 
constituency on a foreign policy issue and that they had received more 
mail from Americans on restoring women's rights in Afghanistan than on 
any other foreign policy issue.
    In the wake of the tragic events of September 11, we have seen an 
overwhelming outpouring of public support for Afghan women. People have 
responded to our message that humanitarian aid must be dramatically 
increased and that Afghan women must be freed. With the nation's focus 
on Afghanistan and increased visibility about the plight of Afghan 
women, Americans want to know how to help. In the past few weeks, tens 
of thousands of individuals have used our website to send messages to 
the Administration and to Congress urging that Afghan women not be 
forgotten. Action teams are now forming at the incredible pace of more 
than 100 per week.
    People are outraged about the Taliban's brutal treatment of women. 
Women were the first victims of the Taliban, and the public is becoming 
increasingly aware of this fact. The public has now seen broadcast on 
television again and again film footage of women being beaten and 
executed for violating the Taliban's decrees banning women from 
employment, from attending school, from leaving their homes without a 
close male relative and without wearing the head-to-toe burqa shroud.
    Before September 11, the tragic conditions of Afghanistan--
including the worst drought in 30 years, 23 years of military fighting, 
and the barbaric treatment of women and minorities by the Taliban--had 
resulted in massive numbers of Afghan refugees. Some 3.5 million Afghan 
refugees had fled to Pakistan alone, 2 million in the refugee camps and 
1.5 million in the cities and villages. Another 1.5 million refugees 
are in Iran, and hundreds of thousands more in other neighboring 
countries. Since September 11, the plight of refugees and displaced 
persons has become even more perilous and the number of people 
attempting to flee Afghanistan and its cities has increased 
dramatically.
    Now the United Nations expects that the total number of Afghans in 
need of humanitarian assistance soon will be at least 7.5 million. This 
estimate includes 1.2 million who are internally displaced within 
Afghanistan and have left their homes to find food and shelter; another 
4.2 million who are internally stranded and without adequate resources 
to survive; and tens of thousands who have escaped to neighboring 
countries since September 11 despite border closings. The estimate of 
vulnerable people also includes some 2 million vulnerable refugees 
among the 3.5 million Afghan refugees in Pakistan, 1.5 million in Iran, 
and at least 200,000 in other neighboring countries. Seventy-five 
percent of refugees are women and children.
    Our staff has visited the refugee areas in Pakistan. The conditions 
in which these refugees fight for survival are horrific with little 
food, with many families having no more than plastic sheets for 
shelter, and with virtually no sanitation. These conditions have 
resulted in widespread disease, death, and regional instability. 
According to some estimates, one woman is dying in childbirth every 30 
minutes and one in four children are dying before 5 years of age.
    The world response to this widespread suffering and near holocaust 
situation has been insufficient. Prior to September 11, the USA was 
leading all nations in providing humanitarian aid to Afghanistan by 
contributing some $70 million in 1999 and $113 million in 2000. In 
2001, the U.S. had been scheduled to provide $125 million in aid.
    We applaud the work of the United Nations' agencies, especially the 
World Food Program, in Afghanistan. But for years they have been forced 
to underestimate the needs of Afghan refugees and Afghan people because 
of the lack of donor nation response. Prior to September 11, we heard 
constantly of donor nation exhaustion. Consequently, the United Nations 
appeals have tended to be very modest. Although the most recent 
consolidated appeal is considerably more than in the past, we believe 
it still underestimates the real needs in several important respects:

  <bullet> First, the United Nations only counts as refugees and 
        provides assistance to those who live in the refugee camps. 
        However, almost half of the refugees in Pakistan approximately 
        1.5 million--live outside of camps. These desperate refugees, 
        who live in cities and villages in Pakistan, mostly belong to 
        the Hazara, Uzbek, and Tajik ethnic minorities who have been 
        most persecuted by the Taliban and who fear the Pashtun 
        dominated camps in which the Taliban has had influence. These 
        urban refugees receive virtually no assistance from the UN, and 
        are in desperate need of food, health care, and education 
        programs.

  <bullet> Second, the current appeal provides very little for health 
        or education. Only 3 percent of the United Nations appeal is 
        devoted to health. Nor are sufficient funds for education 
        inside and outside of the camps being requested in the appeal. 
        Education is less than 1 percent of the United Nations appeal. 
        Education is not a luxury, but a core component of ending 
        terrorism and promoting democracy. We cannot lose a generation 
        of Afghan girls and boys. Education for refugee girls is 
        necessary to make up for the denial of education under the 
        Taliban, and to make possible the participation of young women 
        in the reconstruction of Afghanistan. The availability of 
        education for boys is necessary to counteract the madrassas 
        (so-called religious schools) which are the source of foot 
        soldiers for the Taliban.

  <bullet> Finally, the LTN Appeal provides only 6 months of bare 
        subsistence rations. Of the food and support needs of $188 
        million, the commodities included are only wheat, vegetable 
        oil, pulses (lentils), salt, wheat/soy blend, sugar, and high 
        energy biscuits.

    We appreciate that on October 401 President Bush announced a 
commitment of an additional $295 million in U.S. emergency humanitarian 
aid to suffering people in Afghanistan and to Afghan refugees. This 
emergency humanitarian package is a critically needed escalation of aid 
that will help save the lives of millions of innocent Afghans, 
especially women and children, many of whom are near starvation in pre-
famine condition, without shelter, and without health care.
    The United States' leadership in meeting a significant portion of 
the United Nations $584 million appeal for emergency assistance is very 
heartening. However, we believe that the needs of Afghan refugees are 
even more massive and that our government must do even more to meet 
them.
    We commend and support the call of the Chairman of this Committee, 
Senator Joseph Biden, for a multi-billion dollar infusion of 
humanitarian relief for Afghanistan and for the surrounding region to 
address refugees' humanitarian needs and to sustain long-term 
reconstruction efforts. His leadership and vision in this call are 
timely and extremely needed.
    Our understanding is that of the funds that have recently been 
announced by President Bush, a yet to be determined portion will go 
towards the UN appeal for UN sponsored humanitarian aid and another 
portion of funds will go to programs carried out by other international 
nongovernmental organizations (NGOs).
    No funds, however, are scheduled to be granted directly to women-
led NGOs. I would like to stress the importance of the U.S. providing 
direct funding to Afghan women led NGOs. Humanitarian funds from the 
United States and the United Nations also should go directly to Afghan 
women-led humanitarian organizations that are delivering desperately 
needed health, education, and relief services. These groups are in a 
position to help large numbers of Afghan women and girls living as 
refugees in Pakistan, and where possible in Afghanistan, if only they 
had more resources to survive and to contend with the increasing need. 
The future of a peaceful, stable, and democratic Afghanistan depends in 
large measure upon the strength of these Afghan women's organizations 
and the women and girls to whom they are providing assistance and 
educational opportunities.
    The removal of the Taliban together with the restoration of the 
rights of women, broad-based, multi-ethnic constitutional democracy, 
and economic development are essential in the fights to end terrorism 
and to free women. In any rebuilding of Afghanistan, women must be in 
leadership roles. We have been urging the State Department that Afghan 
women not be forgotten in the U.S. strategies to combat terrorism. and 
in their planning for a post-bin Laden and post-Taliban Afghanistan.
    In order to gain regional stability and build democracy instead of 
dictatorship, the United States must make a commitment to provide not 
only significant emergency humanitarian assistance but also long-range 
assistance to help rebuild the economy and infrastructure of 
Afghanistan. To fight the Soviet Union, we gave billions to Afghanistan 
in the form of arms and training for the mujahedeen that gave rise to 
the Taliban. To combat terrorism, we must help rebuild Afghanistan and 
restore it to a civil society dependent on neither opium nor heroin 
trafficking and smuggling. We realized after World War 11 that the only 
way to break the back of fascism was to re-establish constitutional 
democracies in Germany and Italy, to establish one in Japan, to provide 
rights to women, and to provide economic development assistance.
    In the reconstruction, women will be essential. If a Loya Jirga or 
any other assembly takes place, there must be representation of women 
from each of the different parties and ethnic groups and women's groups 
must be included so that women leaders will be decision makers for 
Afghanistan's future. Afghan women even in these most difficult times 
have been running clandestine schools, health clinics in both 
Afghanistan and in refugee areas, and are key in relief programs and 
income generation projects in the refugee areas. Despite untold 
hardships, Afghan women have been leading NGOs in the refugee areas. 
These women must be involved in charting the future of the country.
    During the past five years, the Feminist Majority has had the 
privilege of working with many Afghan women leaders. We have been 
impressed and inspired by their courage, knowledge, and ability to 
provide services, work and survive in the most repressive regime 
against women in the history of the world. They remind us that women 
were leaders, members of parliament, educators, civil servants, 
doctors, and technicians before the Taliban. Indeed, with so many men 
killed in 23 years of war, women are thought to be 60-70 percent of the 
adult population and have managed to keep going the few remnants of 
Afghan civil society that exist today. They have risked their own lives 
and some have lost their lives to run home schools and health clinics 
despite Taliban edicts. These women leaders must be a part of the peace 
process and the rebuilding of their country. They must be at the table 
as decision makers.
    We cannot be fooled by those who would use culture and religion as 
an excuse for the marginalization or exclusion of women in the 
reconstruction of Afghanistan. The Taliban's decrees are foreign to 
Islam, to the culture, and to the people of Afghanistan. Since the 
1950s, women and girls in Kabul and in many other parts of the country 
attended schools as did boys. Before the Taliban gained dominance in 
Afghanistan, women were a crucial part of the workforce. Afghan women 
have a history of public service leadership and were believed to be 30% 
of its civil bureaucracy. For example, in Kabul, before the Taliban 
took over, women were: over 70 percent of teachers were women; 40 
percent of doctors and the vast majority of health care workers were 
women; and over half the university students.
    If civil society is to be rebuilt in Afghanistan and the rogue 
state that has been sustained by drug trafficking is to be brought to 
an end, all citizens--especially those in the health care and education 
fields--must be utilized. The employment of these workers--who are 
mostly women--is essential to the rebuilding of the country's social 
infrastructure and civilization itself. The restoration of the rights 
of women is crucial both for the sake of human rights and to make 
possible the return to civil society. The United States would be 
repeating a tragic mistake if it again turns to another set of 
extremists as it did to repel the Soviet invasion of Afghanistan and 
chooses a dictatorship as the most expedient strategy to replace the 
Taliban. The restoration of a broad-based democracy, representative of 
both ethnic minorities and women, with women at the table, is necessary 
to break the back of a terrorist and a war-torn existence. We urge you 
to think long-term--in this case, the right thing to do is also the 
best thing for global security, human rights, and economic development.
    In a discussion at the State Department, we were asked would the 
U.S. people support a massive reconstruction of Afghanistan or would 
the U.S. people rather support simply sustaining a tolerable 
subsistence economy in Afghanistan. We often hear today (a la Tom 
Brokaw) the World War II generation of Americans referred to as the 
``greatest generation.'' We are proud we fought fascism, rebuilt the 
economies of Germany and Japan, and helped to establish democracies in 
these nations with women's rights. We helped to establish in post WWII, 
a United Nations and under the leadership of Eleanor Roosevelt, the 
U.N. Universal Declaration of Human Rights. If this declaration is to 
mean anything, we must help to restore women's rights in this most 
abused nation--Afghanistan--and we must restore its democracy. 
Afghanistan first adopted a constitutional democracy in 1964 that 
included full universal suffrage, an equal rights amendment for women 
that even included equal pay provisions, and a separation of powers 
with an independent judiciary. Women were members of the Parliament and 
were judges.
    We know today that literally millions of Americans are appalled at 
the Taliban's treatment of its own people, especially its women. We 
know from our work at the grass roots level in 49 states of the union 
that Americans want women's rights restored in Afghanistan and for this 
society to return to normalcy. We as Americans do feel a moral 
obligation to Afghanistan because it was the last stop in the Cold War. 
We can be the ``greatest generation'' today. We must meet the challenge 
and as our parents, not settle for expediency but strive for the dream 
of democracy and human rights for all--and in Eleanor Roosevelt's 
memory, we cannot forget the women.

    Senator Wellstone. Thank you so much. What I am going to do 
is just lay out some of my concerns all at once, and then kind 
of have you respond, and that is the most efficient use of 
time.
    There are people--there is the whole issue of conditions 
right now in the refugee camps which are deplorable, and also I 
have concerns about the security right now of these camps, and 
I want to talk about that with each one of you. Then are the 
people left behind, many of whom by definition are elderly, 
infirm, more vulnerable, left behind to eat meals of locusts 
and animal fodder by reports?
    Here are some of the questions I have. Number one, it seems 
to me that the convoys--and, Ken, you were talking about this, 
the UNWFP--the convoys, the air drops, it is 1 percent, less 
than 1 percent, and not all that efficient, and the earlier 
testimony was we can't rely on that anyway. I think there is 
agreement. You have got to get this in by the convoys; you have 
got to get the food in this way. So one question I have is: I 
would think that is going to be a priority for our government, 
to somehow do what we need to do to make sure those convoys can 
continue to be coming in with food. That is a question I have 
for you, whether you would agree.
    There is the question of--there have been some reports, as 
long as we are talking about NGOs and the United Nations, there 
have been some reports of UN and NGO offices being burned in 
Pakistan by anti-American protesters, and so I want you to 
speak to whether or not you think there is sufficient steps 
being taken to protect humanitarian workers, including women, 
who are associated with these international and local 
organizations in Pakistan.
    And then finally--I guess those are the first order 
questions. At some point in time, I want to get your 
perspective. Your organization has been in Afghanistan a long 
time, and the Taliban are widely despised for all the right 
reasons.
    I also understand that there are a significant number of 
Afghans that are alarmed or express alarm at the prospect of 
the Northern Alliance, that they might return to power, given 
their record of serious abuses, including rape and massacres 
and indiscriminate bombing that were committed while they were 
in power, and I want to ask you whether or not that sentiment--
to what extent that sentiment is widespread or not. That is a 
flow of questions, starting with Mr. Bacon.
    Mr. Bacon. Sure. On convoys, you are absolutely right.
    They have to continue. Andrew Natsios told of a bunch of 
NGOs yesterday that the U.S. is totally committed to making 
sure the convoys flow as freely as possible. The key here is 
many entry points, not just through Pakistan or through Iran, 
but also through Turkmenistan, Uzbekistan, and Tajikistan. 
There are efforts underway to open the so-called Friendship 
Ridge from Uzbekistan into Afghanistan, and that would be 
helpful.
    Convoys are obviously subject to attack, and one of the 
issues that our government and the UN is looking at is how to 
secure the convoys. I don't think anybody has good answers.
    Right now there is another question. Once you get the food 
into Afghanistan, how do you make sure that it is not taken by 
the wrong people, taken by the military or the Taliban forces.
    One way to do that would be so-called web feeding, that is, 
a sort of hot, prepared meals rather than the giveaway packets 
of food. Usually people with AK-47s don't like to stand in line 
to get handout dinners in refugee camps.
    But these are details that have to be worked out to make 
sure that, one, the food gets in, and, two, it goes to the 
right people. Obviously security is a problem for humanitarian 
workers, and that is something that the UN has never been 
particularly good at. It is something that the UN and NGOs are 
paying more attention to, but ultimately we have to rely, as 
much as possible, on the governments of Pakistan and Iran to 
provide the security for the camps and for the humanitarian 
workers. The problem has been greater in Pakistan than Iran.
    Finally, there is an urgent problem that demands attention, 
and that is while Pakistan is preventing refugees from coming 
in right now, there are signs that they are preparing to 
relent. They are preparing some camps in the northwest frontier 
province, which is generally a very hostile area, and camps 
there could be very dangerous, both for refugees and for 
humanitarian workers. So it is imperative that the U.S., the 
UN, and other nations work very hard to try to get Pakistan to 
relocate whatever new camps it sets up.
    This is a difficult issue, but it is one that could be 
crucially important to the protection of refugees and the 
people who help them.
    Ms. Smeal. On the convoys, one thing I want to point out is 
that most of the non-Afghan humanitarian workers have left 
Afghanistan, so again it is one of the reasons I think we must 
invest in Afghan workers, because they are the only ones that 
are there, and even they are discombobulated under these 
conditions. Obviously we have to provide security, but, in 
fact, we have superior forces and can do that.
    But one of the things that I want to emphasize is even the 
people in the refugee areas outside of Afghanistan do not have 
enough food, and so that also is a serious problem. And, by the 
way, the reason so many of the refugees are not in the camps is 
because they don't think they are secure. Some of the camps, 
the Taliban have been holding sway over, and so many of the 
ethnic groups who they have been persecuting, such as the 
Hazarahs and Tajiks are afraid to go into the camps, and not 
only that. So are women, because, indeed, they have been 
harassing and doing things to women in some of these areas.
    And so basically you have a lot of people who are afraid to 
be in the camps. That is why we are so pleading with our 
government and the United Nations to please count who are in 
the refugee areas but simply are not in these camps that are 
very dangerous for them, because there hasn't been security in 
quite a long time.
    And I want to just read, because there is so much been done 
about this package, that is supposed to be 2,200 calories in 
this little yellow package. I want to read what we are giving. 
We are giving wheat--and this is now from the World Food 
Program, which I totally respect. Catherine Brutini has done 
one magnificent job. But this is what we give. It is wheat, 
vegetable oil, pulses which is lentils--I assume dry--salt, 
wheat soy blend, sugar, and high energy biscuits.
    So what does that really boil down to? It is principally 
bread and water, and the water isn't clean. I don't want us to 
feel so generous and so good here. When I realize what these 
folks are surviving on, no wonder the infant mortality is so 
high. No wonder children aren't surviving. Couldn't we put some 
dry milk in it? Couldn't we get a little ingenious and get some 
more food in this? You can't--I don't understand how these 
people survived this long, but this is literally from the food 
health program, and it is really scary. And there is no 
sanitation, remember, in these areas.
    And so no wonder, you know, there is unrest in Pakistan. 
That is where the bulk of the people are. No wonder there is 
unrest, because there has not been enough aid, so we have got 
to do far better, and we have got to get with a much bigger 
program.
    Mr. de Torrente. I think the issue of the convoys has 
already been answered clearly. Going through the established 
aid operations that are already on the ground and have done the 
assessments, that have targeted the people, is the way to go, 
and that is what we think should happen, a big effort of 
assistance going through these already-established channels and 
people who are on the ground, and who can target the 
beneficiaries in a good way.
    On security of NGOs, I think really there are different 
approaches to security. One, you could put them in like two 
different camps. One is to say that aid workers should be 
physically protected, meaning higher armed guards or the like.
    The other is to say that the security relies on the consent 
of the people and the authorities of the areas in which you try 
to provide relief.
    And actually that is the consent, is the consensual 
approach is the one that organizations like ourselves who are 
unarmed and who go and work in very difficult environments 
throughout the world, not only in Afghanistan. It is the one we 
rely on, and that is why I stressed before the fact of being 
perceived as neutral, as independent, as only concerned with 
humanitarian issues is so important for the security of staff. 
And this is why this point about separating these agendas is so 
critical.
    So I think it will go some way. It won't go all the way.
    We know there is anti-western sentiment, even before the 
U.S. military was dropping food, air drops. I am not saying it 
is only due to that. I think there is anti-western sentiment 
generally, which is going to be difficult to combat, but it 
does contribute to this problem.
    For security of refugees, I want to come back to that, for 
security of refugees in Pakistan especially. As I said before, 
the camps, the sites for new influx that have been determined 
so far are really in areas where security of refugees, were 
they able to cross, cannot be guaranteed.
    These are areas--these are called tribal areas of Pakistan. 
There is none under direct control of the Pakistan government. 
There are an array of different forces there.
    This is an ethnically homogeneous area. If you are from a 
different ethnic minority--we heard about Tajiks, Uzbeks, 
Hazarahs. If you go to these areas, it will be very difficult 
for you to be protected and to be safe. I think this is 
important. This is why the people have to be brought further 
inland, allowed to come further inland in the areas where they 
can be safer and where international staff can have access to 
them for assistance.
    Your third question had to do with the situation in the 
Northern Alliance areas. I was there very recently, in August, 
and I would say that conditions are better, but not 
significantly better, especially for women. Women--the key 
difference--there are two key differences. One is that girls 
are allowed to go to school and women can be teachers, can 
teach children. The other one is that the Islamic rules are not 
enforced by an institution such as the religious police, such 
as in the Taliban areas. Therefore, it is more diffuse.
    However, the issue of if you are a woman and you go to a 
health center, you need to be accompanied by your husband or 
male relative. Just like in the Taliban areas, women have to 
wear burqas in the Northern Alliance areas. Women in many of 
these areas are not allowed to go to the market, for instance.
    So the type of situation we do see has similarities with 
the situation in the Taliban areas. I think we should recognize 
that, and so the health problems of women that we heard about 
before are quite similar in these different parts of the 
country.
    In terms of the general condition, the other point I wanted 
to make about that is that throughout the country, the war has 
had a big impact. There has been militarization of the society. 
The people who have risen to power are military actors, and 
they control the economic and the political arena.
    The social concerns, health issues, and so on are really at 
the bottom of the list. In the Northern Alliance areas, there 
are very few health centers, clinics, et cetera. There are very 
few Afghan medical staff, and it is really a link through 
international organizations such as ourselves that these 
structures, these very few remaining structures, can be 
maintained.
    So this is just to say that we should not see it in terms 
of two completely different areas of the country. There are 
similarities between them, although I do stress that the 
situation in the Taliban areas on a number of counts is 
significantly worse.
    Senator Wellstone. Senator Boxer?
    Senator Boxer. Mr. de Torrente, I think you have proven the 
point Ellie Smeal made, that even where the women can go to 
school and teach, it is still oppressive with the Northern 
Alliance, and when she says that the women should be the 
central part of the rebuild, I think this is absolutely what 
has to happen, and I am going to dedicate myself to being that 
voice, because that is the voice of reason.
    That is the voice of moderation, the women's voices, so 
that is something we really must keep in mind, so thank you for 
talking about what it is like for women to live even with the 
Northern Alliance, which is supposed to be the most liberal 
compared to the Taliban. We have got human rights violations 
all over the place from them toward the women, and so I think 
this is key.
    Ms. Smeal, do you want to add to that?
    Ms. Smeal. Yes. Remember, the Northern Alliance and the 
Taliban come from the mujaheddin, which were extremists and 
religious extremists, but also who were involved in drug 
trafficking, and basically we really shouldn't replace one set 
of extremists with another. Although there is no question the 
Northern Alliance is better, it is a matter of degree here, and 
that is why I keep urging so much that constitutional democracy 
and that we return to civil society where we reach out to not 
just military commanders who came out of this whole, defeating 
the Soviets, but to people who were the part of the Afghan 
society prior to all of this.
    Now, one other major thing--and it is hard to keep in our 
brain, but because of all of this war, the majority of adults 
are women. Some people estimate in some areas we are 60 and 70 
percent of the adults, and so because they are even--the 
Taliban is stepping down to 12-year-olds in their army. There 
is no way to rebuild without us, and we have to be at the 
center, and I really am grateful for your statement that you 
will make this a center focus, because we need it, because we 
keep dropping out.
    And somehow I think people think, well, there is only two 
choices, or we have got to go to one of these military 
commanders, and others that are mentioned, too, have horrific 
human rights violations in their background.
    Senator Boxer. We just have to see beneath the veil to get 
a sense of what it is like there. I keep coming back to this 
comment made by the USAID leader here on the part of the 
administration, and that is that people should stay in their 
homes. From what you know about what is planned--and I would 
ask this to all of you who care so deeply and who know this so 
well: Do you think that is a good message?
    Let's say we had an opportunity to talk to those folks 
today who are frightened and afraid that they are running out 
of options. Would you tell them to stay in their homes?
    Ms. Smeal. Well, you know, this is not inconsistent with 
what the State Department has been saying now for the five 
years I have been involved. In fact, there was a period very 
recently where we were putting more effort into having refugees 
go back than helping them where they were, even though it was 
clear it was unsafe where they were going back to.
    I think in some ways it is a message that is even too late. 
We were looking at the numbers while he was talking, the number 
of the people estimated already displaced from their homes. 
There are people--they estimate that 4.2 million are internally 
stranded. We asked what that definition meant, and that is a 
new definition in the UN which means they are no longer in 
their homes, but they are in their village or city areas.
    Okay. They have already moved, but they are not really, so 
that is internally stranded. Another 1.2 million are internally 
displaced within Afghanistan, and they are called internally 
displaced, not stranded. That means they have left their 
village or city, and they are looking for food and shelter 
elsewhere, so that is about 5.4 million, according to the UN, 
on the move within the country already.
    And then I went through the numbers that are already in the 
refugee areas in Afghanistan and Pakistan. It is 3.5 million, 
we estimate, and 2 million in the refugee camps, 11.5 million 
in the cities and towns, another million and a half in Iran, 
and hundreds of thousands in Tajikistan and Ubekistan. There is 
a lot of people on the move here, and it is sort of like trying 
to close the door after--what is it?--the barn door after the 
horse has left.
    The other thing that we keep not mentioning, but I think--
and I don't know if even my staff will agree, but, you know, we 
have admitted very few refugees into the United States or other 
countries. In 1996 and 1997, the United States accepted no 
refugees from Afghanistan. In 1998, it was, I think, 88; in 
1999, it was 300-some. Last year, it was--I think it was--I am 
doing this off the top of my head--about 1,700. We can get you 
the numbers. Why did we close the doors, and it wasn't just us? 
It is all the world.
    Remember, that ship off of Australia of several hundred 
Afghan refugees that no one would accept? I think there has to 
be some larger acceptance of refugees, especially young people 
who could go to college or go to graduate school, because they 
could go home and rebuild their countries. we have a 
scholarship program, trying to get young women out. We can't 
afford to lose a whole generation of women and still think we 
are going to rebuild this society, or a whole generation of 
people.
    So I think part of this has to be thinking in terms of how 
we can train and educate while we are also reconstructing, and 
it certainly should be opening our doors, especially to those 
who are being persecuted because they spoke up. A woman who 
speaks out can be targeted for all kinds of abuse. we should be 
having more political refugees in this intense situation.
    Senator Boxer. I know time is running out. I just want to 
make a comment, and then ask both of you to get back to that 
question. Ken and Nicolas, the question about whether you could 
tell people who haven't left their homes to stay in their 
homes, so think about that.
    But I just wanted to underscore what you said. More than 80 
percent of the world's refugees and displaced persons are women 
and children. So whatever happened to the gallant side of our 
spirits? Women and children, help them. And I know from what I 
can tell, there is not that many special programs to address 
the particular needs, and when you say--and it is worth 
repeating--Senator Wellstone, 26 percent of the children in 
Afghanistan die before the age of 5, 26 percent, and you just--
on a day when we had great news about our life expectancy and 
our infant mortality going in the right direction, we have got 
to just do something about it.
    Senator Wellstone and I were just talking that we really 
want to keep our team together here, to take a lot of what you 
have already told us, and there is a tremendous sense of 
urgency. And if I could be critical only a tiny bit--and it is 
not even critical, because this thing happened to us so fast 
that we got thrown into everything--it is whether it is air 
safety, if you will, or whether it is this abroad, we have to 
even go faster. We have to go faster.
    How many weeks is it, Nicolas, until the winter, the snows 
come?
    Mr. de Torrente. Well, it depends where. Certain areas, 
certain passes are already starting to get snow, and by mid-
October some passes will not be passable any longer.
    Senator Boxer. We're practically at mid-October, so we have 
a humanitarian crisis that needs an urgent response, and we 
have to think big about it, and I think that is really our 
message we have gotten from all the panelists.
    If you two can answer that question about, do you stay home 
if you haven't left, and then I will stop and turn it back to 
Senator Wellstone.
    Mr. Bacon. Refugees International has been urging for years 
that the best way to deal with the problem in Afghanistan is to 
get food to the villages so people can stay there. People are 
reluctant to leave their homes. They don't want to leave their 
homes and their families, but they will leave if they are not 
fed obviously.
    The conditions in the refugee camps in Harak, for instance, 
in Afghanistan are horrific, and we feel everybody would be 
better off for many of the reasons that Mr. Natsios said 
earlier, if we could get food to them in their villages.
    The problem is it is very difficult to do. There is very 
little transportation infrastructure. We are talking about a 
country as large as Texas. The topography is challenging, to 
say the least, so maybe Nicolas can say more about this, but we 
have long advocated this is the best thing to do.
    We support the administration's desire to do that. we 
question whether it is possible.
    Mr. de Torrente. I think people have to have options.
    They have two basic needs: security and sustenance, and 
being able to survive. And, therefore, clearly from a health 
perspective, if people stay in their homes, it is better, and 
we know the consequences of moving and being in this displaced 
persons camps. These are densely populated areas. It is 
difficult to control in terms of epidemic and so on, so it is 
clearly--it is better from a health perspective if people stay 
in their homes.
    However, people move also because of a fear of violence, 
persecution, and fear, and we have seen--we did a survey in one 
of our refugee programs we are running in Mashad in Iran.
    The date is a bit old, but it gives you an indication. This 
was in January of this year. We are asking people coming to our 
clinic and doing a questionnaire, and there we found that 70 
percent of them had fled because of violence and fear, and 
either that the war was coming to them. This is the civil war. 
They had pockets throughout the country. There were a lot of 
local commanders that were opposing the Taliban in different 
areas.
    It is not only the main front line, but a number of other 
areas, and persecution. There has been targeting of distinct 
ethnic groups such as the Hazarahs. Therefore, if it is a 
perfect world, you can guarantee security to all people.
    Then, of course, they should be told not to go, but I think 
you cannot tell people to stay in their homes if there is still 
a threat of violence that is hanging over their heads, and 
violence comes from many different quarters.
    Senator Boxer. I so appreciate that. That was my sense, 
that in the perfect world, you are only dealing with a famine, 
which is awful in and of itself, but if that is the only thing 
you are dealing with, and you can have the flat land and the 
good weather and the convoys, yes. But my sense is a little bit 
of unrealistic talk here with an imagery of people staying in 
their homes and just waiting for the truck to pull up, like the 
milk truck used to pull up. It just is not right.
    Ms. Smeal. Plus the fact that the Taliban are persecuting 
women as a class. They are walking around with these religious 
police beating people. I mean, the whole atmosphere, plus they 
are now conscripting young kids. If they don't go with them, 
they shoot them, and so you might leave for that reason alone.
    Senator Boxer. To get away from them shooting your youngest 
son.
    Ms. Smeal. By the way, I wanted to submit--I forgot my 
testimony formally, because it has a lot of stuff in it.
    Senator Wellstone. Absolutely. That will be a part of the 
record, and, Nicolas, we will finish with you and Ken.
    Mr. de Torrente. Not to conclude, but just to--just on the 
reasons why people leave as a result of drought, just to give 
you an indication of how the process happened, I think it is 
important to realize this has been ongoing for three years now, 
and people--it has eroded their coping mechanisms over time. 
Three years ago, people had assets. They had livestock. They 
were richer people. There was sharing among them. They were 
coping and coping on their own within their communities without 
having to rely on outside assistance in a lot of these remote 
areas and remote villages.
    But over time, they have had to sell off assets. They have 
had crops failing time after time, and this has put people to 
the brink, and what we have seen in going to rural areas and 
doing surveys is that all of a sudden, a village decides, We 
can't stay here any longer; it is just not feasible; no options 
left; let's take the little we have remaining and move. And 
that is what we have been seeing, is people moving from remote 
areas in provinces of Herat and these areas, and moving. That 
makes it when they move, it is really out of desperation and 
really as a means of last resort.
    Therefore, we should try to reach out to them if we can, 
before they reach that point.
    Senator Wellstone. Let me just agree with Senator Boxer 
that we thank you. I would like to thank the reporter who has 
been working so hard. It is really important to have this on 
the record, and I think both of us--and I think I speak for 
others who are here--it is hard for any of this to be symbolic. 
I mean, we would be less than fully human if we just had 
another committee hearing, another discussion. This is all just 
so compelling and so important and so before us right now.
    Thank you for being here. The committee is adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]

                              ----------                              












        HUMANITARIAN CRISIS: IS ENOUGH AID REACHING AFGHANISTAN?

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2001

        U.S. Senate, Subcommittee on Near Eastern and South 
            Asian Affairs and the Subcommittee on 
            International Operations and Terrorism, 
            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 3:10 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Paul D. 
Wellstone (chairman of the Subcommittee on Near Eastern and 
South Asian Affairs) presiding.
    Present: Senators Wellstone and Lugar.
    Senator Wellstone. The Senate Foreign Relations 
Subcommittee on Near Eastern and South Asian Affairs will come 
to order. I am going to be joined by Senator Boxer. I want to 
apologize to all. We had a briefing from the State Department 
and Defense Department that all Senators attended from 2 to 3, 
and some Senators are still there, but I would like to 
apologize to everyone for the inconvenience of having to wait 
an hour.
    I want to again thank all of you for participating in 
today's hearing, and again apologize for the delay. Angelina 
Jolie is not here yet, but I had a chance to meet with her. She 
has been a UNHCR goodwill Ambassador, and she has recently 
visited the Afghan refugee camps. We want to thank Ms. Jolie 
for her fine leadership. She will be coming later on, and we 
will recognize her.
    Events are moving extremely quickly in Afghanistan, with 
the military success by the anti-Taliban forces in the northern 
half of the country and with the winter closing rapidly, 
threatening the lives and well-being of millions of Afghans 
afflicted by drought and war.
    The challenge the United States and its coalition partners 
now face is to translate the recent military successes into 
humanitarian action that delivers assistance to the Afghans 
quickly and effectively. The international community must 
continue to contribute significant resources to address the 
humanitarian needs of the Afghans. There were some delays at 
our own agencies, specifically with OMB, in releasing much-
needed funds. That now is going fine. There were some delays, 
and this was unacceptable.
    We now need to ensure that these resources arrive on the 
ground in a timely and efficient manner, and I believe that 
will happen. With Northern Alliance control of the area across 
from Termez, Uzbekistan excuses are running out for Uzbekistan 
not to open the Friendship Bridge. My understanding is that may 
have happened today, which would speed crucial supplies into 
the country.
    Further, the security situation must improve. The 
withdrawal of the Taliban--if I am not correct, and I thought 
that is what I heard, but I guess I cannot even talk about a 
briefing, so you can give me your latest assessment of the 
Friendship Bridge.
    Further, the security situation must improve. The 
withdrawal of the Taliban has not resulted in a secure 
environment necessary for humanitarian efforts to move forward. 
There are deeply disturbing reports that Northern Alliance 
fighters seized UNICEF employees and trucks and that 89 tons of 
World Food Program supplies were stolen over the weekend.
    It is unclear whether the Northern Alliance has the 
capacity to provide security and establish law and order. 
Consequently, the United Nations must move quickly to deploy a 
multinational force to establish security so that the 
humanitarian organizations can do their jobs. We must also 
begin planning now for a long-term commitment to the 
reconstruction of Afghanistan.
    The people of Afghanistan have endured 23 years of war 
misery, and the conflict has threatened international stability 
and placed enormous burdens on their limited means. The United 
States must not just talk the talk, but we must also walk the 
walk. We must show Afghans that we are not going to give up on 
them this time and turn our backs on them as we did before. We 
must show genuine solidarity and real generosity now.
    For many of these innocent Afghans you can absolutely count 
on the fact that there will be others that will be making all 
kinds of offers to them in a very fluid environment, and I do 
not think it is at all too late for us to announce a bold 
economic reconstruction program, microenterprises program, 
microenterprises infrastructure, cash assistance, public 
health, you name it. I cannot emphasize strongly enough that 
our Government needs to, with the international community, move 
forward with this now.
    It is time to reverse more than a decade of neglect. We 
must be willing to make a multiyear, multinational, and 
multibillion effort to rebuild Afghanistan. We must move 
quickly to put in place a long-term economic reconstruction 
package for this embattled nation, to be administered through 
the United Nation or another multinational entity.
    We need to target assistance to the north now, which would 
have a huge symbolic importance and be a powerful incentive, I 
believe, to a push to the leaders in the south to abandon the 
Taliban and join the United States-led effort. We know that 
many of the Pashtun chiefs, including supporters of the 
Taliban, are already on the fence. If the Pashtuns are now 
going hungry, and if they were to see significant assistance 
enter in neighboring provinces, the seemingly intractable 
problem of forging a political consensus in Afghanistan might 
become a whole lot easier to solve.
    I believe our reconstruction effort must focus on 
rebuilding basic infrastructure, repairing shattered bridges 
and roads, removing land mines, reconstructing irrigation 
systems, and drilling wells. Creation of secular schools will 
break the stranglehold of extremism and allow both boys and 
girls to make positive contributions to the development of 
their society. We must also rebuild the shattered health 
infrastructure by establishing base hospital and village 
clinics.
    Again, I would point out that there is a huge vacuum. You 
have got people without means, in desperate economic shape. 
Above and beyond the importance of this humanitarian 
assistance, I believe this economic package is an absolute 
must. The Afghans have been through enough hell. They deserve 
to live in a society where they can feed their children, live 
in safety, and participate fully in their country's 
development, regardless of gender, religious belief, or 
ethnicity.
    I thank you.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    I want to thank all of you for participating in today's hearing, 
and I apologize for the delay due to a last minute briefing. I want to 
briefly introduce Angelina Jolie, UNHCR's Goodwill Ambassador, who has 
recently visited the Afghan refugee camps.
    Events are moving extremely quickly in Afghanistan, with the 
military successes by the anti-Taliban forces in the northern half of 
the country, and with winter closing in rapidly, threatening the lives 
and well being of millions of Afghans afflicted by drought and war.
    The challenge the U.S. and its coalition partners now face is to 
translate the recent military successes into humanitarian action that 
delivers assistance to the Afghans quickly and effectively. The 
international community must continue to contribute significant 
resources to address the humanitarian needs of the Afghans. There were 
some delays at our own agencies in releasing much needed funds. This is 
unacceptable. We need to ensure that these resources arrive on the 
ground in a timely and efficient manner.
    With Northern Alliance control of the area across from Termez, 
Uzbekistan, excuses are running out for Uzbekistan not to open the 
Friendship bridge, which would speed crucial supplies into the country.
    Further, the security situation must improve. The withdrawal of the 
Taliban has not resulted in a secure environment necessary for 
humanitarian efforts to move forward. There are deeply disturbing 
reports that Northern Alliance fighters seized UNICEF employees and 
trucks, and that 89 tons of World Food Program supplies were stolen 
over the weekend. It is unclear whether the Northern Alliance has the 
capacity to provide security and establish law and order. Consequently, 
the United Nations must move quickly to deploy a multi-national force 
to establish security so that the humanitarian organizations can do 
their jobs.
    We must also begin planning now for a long-term commitment to the 
reconstruction of Afghanistan. The people of the Afghanistan have 
endured 23 years of war and misery, and the conflict has threatened 
international stability, and placed enormous burdens on their limited 
means. The United States must not just talk the talk, but must also 
walk the walk--we must show Afghans that we are not going to give up on 
them this time, and turn our backs on them as we did before. We must 
show genuine solidarity and real generosity now.
    It is time to reverse more than a decade of neglect. We must be 
willing to make a multiyear, multinational and multibillion effort to 
rebuild Afghanistan. We must move quickly to put in place a long-term 
economic reconstruction package for this embattled nation, to be 
administered through the United Nations or another multinational 
entity.
    We need to target assistance to the north now, which would have 
huge symbolic importance and be a powerful incentive to the Pushtun 
leaders in the south to abandon the Taliban and join the U.S.-led 
effort. We know that many of the Pashtun chiefs, including current 
supporters of the Taliban, are already on the fence. If the Pashtuns 
who are now going hungry, saw significant assistance entering 
neighboring provinces, the seemingly intractable problem of forging a 
political consensus in Afghanistan might become a whole lot easier to 
solve.
    I believe our reconstruction effort must focus on rebuilding basic 
infrastructure repairing shattered bridges and roads, removing land 
mines, reconstructing irrigation systems and drilling wells. Creation 
of secular schools will break the stranglehold of extremism, and allow 
both boys and girls to make positive contributions to the development 
of their society. We must also rebuild the shattered health 
infrastructure by establishing basic hospitals and village clinics. The 
Afghans have been through enough hell. They deserve to live in a 
society where they can feed their children, live in safety and 
participate fully in their country's development regardless of gender, 
religious belief or ethnicity.
    Thank you.

    Senator Wellstone. Now, I know we are going to be joined by 
Senator Boxer, but I think since we have already held the 
hearing back for an hour we are going to proceed and then when 
Senator Boxer comes I know she will want to make an opening 
statement.
    We are going to start with Bernd McConnell, who is Director 
of Central Asian Task Force and has done some wonderful work in 
Bosnia and really is, I think, a real expert in the best sense, 
Director of Central Asian Task Force, United States Agency for 
International Development, and then he will be followed by Alan 
Kreczko, who is Acting Assistant Secretary of the Bureau of 
Population, Refugees and Migration, Department of State.
    Bernd McConnell will make it clear that Administrator 
Natsios was more than willing to testify, but when we put the 
hearing off for--he is now in the region, and when we put it 
off for an hour it just proved impossible, logistics-wise, to 
do the communication.
    Joel Charny is going to join us in panel 2. This past month 
he has also been in the region. Mark Bartolini, vice president 
of Governmental Relations for the International Rescue 
Committee will also be testifying, and we owe a special debt of 
gratitude to George Devendorf, director of Emergency Operations 
for Mercy Corps, who I just talked to, and just came back from 
refugee camps I think last night, and who is utterly exhausted, 
but is here with us as well.
    We are going to get a very important report from the ground 
and from the people that are responsible for administering 
humanitarian assistance. I think this hearing could not come at 
a more important time, and I very much again thank all of the 
panelists and journalists and others for your interest.
    We will start out with Mr. McConnell.

 STATEMENT OF BERND McCONNELL, DIRECTOR OF CENTRAL ASIAN TASK 
  FORCE, UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Thank you, sir. First, I must apologize for not being 
Andrew Natsios. We were just unable, as you point out, to 
connect the electronic dots. He did want to emphasize that he 
is most available on his return over the weekend to come and 
brief you or anyone you would designate.
    We do submit his testimony, the testimony he would have 
given for the record.

    [The prepared statement of Mr. Natsios follows:]

   Prepared Statement of Hon. Andrew S. Natsios, Administrator, U.S. 
                  Agency for International Development

    Madam Chairman, Mr. Chairman and Members of the Committee, thank 
you for inviting me to testify before your committee on the rapidly 
evolving humanitarian crisis in Afghanistan. I submit this testimony 
even as I am leading a White House mission to the Central Asian 
Republics on Afghanistan's northern border. This mission signals to the 
world the importance President Bush places on a robust humanitarian 
response to this crisis. I am also exploring ways to enhance 
coordination with our United Nations and nongovernmental organization 
(NGO) partners in this historic effort.
                               background
    As you know, Afghanistan is a country in crisis, a crisis that 
predates the events of September 11th. Three years of drought have 
brought Afghans to the precipice, but this did not have to become a 
famine. It was five years of brutal Taliban misrule and neglect that 
have pushed Afghanistan over the edge. Nearly 1.5 million Afghans are 
now at risk of starving and 5-7 million Afghans are dependent on 
outside assistance to survive the combination of a harsh winter, pre-
famine conditions, and the dislocation of conflict.
    As I testified before you on October 10th of this year, the US 
Agency for International Development is working energetically with the 
World Food Program, other international organizations, and 
international and Afghan NGOs to implement the President's humanitarian 
strategy in that region. Of the $320 million that President Bush 
announced on October 4th, USAID will implement $195 million for 
emergency humanitarian programs. This includes $96 million of 
International Disaster Assistance, $95 million of P.L. 480 Title II 
resources, $3 million for demining, and $1 million for extraordinary 
operational expenses associated with the Afghanistan crisis. We have 
already committed $51 million of the International Disaster Assistance 
funds and $58.4 million of the P.L. 480 Title II money for aid 
organizations working in Afghanistan.
    The U.S. humanitarian strategy is fully in operation inside 
Afghanistan. By that, I mean we are working diligently to deliver and 
distribute food and relief supplies to reduce death rates. We are 
focused on distribution of this food to rural villages to minimize 
population movements, because we know that death comes more easily to 
those forced to flee their homes. We are devising programs to stabilize 
rural food markets by increasing incomes.(i.e., effective demand) so 
that commercial suppliers will bring food to those markets. We are 
developing humanitarian information for radio broadcasts into 
Afghanistan that tell people food is coming, thereby ensuring that aid 
reaches the intended recipients. Importantly, we are funding 
developmental relief activities--what we call ``spot reconstruction'' 
to begin the process of recovery even as we are preventing starvation.
    Our geographic focus on the north is aimed at reducing the 
suffering of the most vulnerable groups in the population, as 
identified by the world Food Program vulnerability assessment map. This 
means we have been concentrating in the past month on opening entry 
points for food flows from the northern and western borders--through 
Turkmenistan, Uzbekistan, Tajikistan and Iran. The international aid 
community has pre-positioned relief stocks and trucks in these areas to 
be ready to open the spigots when circumstances allow.
    We are very pleased that the World Food Program has been able to 
increase its delivery of food into Afghanistan so significantly--from 
an all-time high of 29,000 metric tons in October to 27,000 metric tons 
just in the first 11 days of November. The challenge that we now face 
is that of the capacity of NGOs to distribute within Afghanistan. 
Clearly, the absence of expatriate NGO staff and lack of security have 
been the greatest obstacles to getting food into peoples' hands.
                           current situation
    The stunning changes in the war campaign over this past weekend 
therefore present important new opportunities to respond to the most 
pressing needs of the north and northwest, but only when these military 
successes of the Northern Alliance are consolidated and converted into 
more secure circumstances within Afghanistan. Already, food is crossing 
the Turkmenistan border into Badghis and Faryab provinces, where NGOs 
and international organizations like Save the Children and 
International Organization for Migration are working.
    When the road from Mazar-i-Sharif to Termez is secure, a high 
volume of food can begin to flow into the northern territories because 
of the road network radiating from Mazar. Use of barges to cross the 
Amu Darya River and the opening of the Friendship Bridge at Termez by 
the President of Uzbekistan are essential to this strategy. While barge 
traffic began yesterday, we are hopeful that the bridge also will be 
opened quickly as it will allow up to 25,000 metric tons a month to 
pass into Northern Afghanistan.
    The World Food Program and the Russian emergency response agency, 
EMERCOM, are working together to expand cross-border deliveries from 
Tajikistan. However, reports indicate that the Kunduz-Bahglan area 
south of the Tajikistan border remains very much insecure and may take 
longer than other northern provinces to open up.
    Finally, the resurgence of the Northern Alliance in the Herat-Ghor 
areas may enable the World Food Program (WFP) to reach very vulnerable 
populations in the Hazarajat central highlands and west more 
effectively. In fact, WFP reports that it has already dispatched to the 
Hazarajat and Ghor areas more than 13,000 metric tons of food, or 
nearly a half of the winter's requirements.
                               next steps
    Upon my return from the region, I will redouble our coordination 
efforts with United Nations and NGO partners to ensure that they have 
the support they need to capitalize on these openings within 
Afghanistan. We have 65,000 metric tons of U.S. wheat being off-loaded 
in Iran for transshipment to Mashad and the Central Asian entry points 
and another 100,000 metric tons of food being prepared for loading in 
the United States. We have just ordered another 55,000 metric tons of 
wheat and 17,000 metric tons of oil, pulses and blended foods to ensure 
that the WFP and NGO pipelines are filled through February or March, 
2002. We have also given WFP a grant of $6 million for procurement of 
15,000 metric tons of wheat in Kazakhstan to meet immediate needs, but 
most of our food aid will come from the United States.
    We will also actively engage with our NGO partners to increase our 
focus on spot reconstruction or developmental relief. It will be 
critical for vulnerable Afghans not only to eat for survival, but also 
to have clean water to drink, improved local roads to markets, seeds 
and other agricultural inputs for spring planting--the basic elements 
that will begin the rebuilding process from the bottom up. These 
programs will also show Afghans the tangible benefits of the ouster of 
the Taliban.
    Finally, USAID will engage actively with our State and Treasury 
Department colleagues in the upcoming dialogue with other donors, IFIs 
and Afghans themselves on how best to make the transition from a 
crippled Afghanistan to a recovering, rebuilt Afghanistan.

    Mr. McConnell. I thought I would just speak briefly about a 
couple of things, one of which is his trip, and I would like to 
start with a brief anecdote from the trip. One of the reasons 
we could not connect those dots is because Andrew Natsios went 
to Afghanistan today.
    He went south of the Tajik border into a place that, 
hopefully, I will not butcher too badly in naming, 
Khohabakhodin, where there are a number of IDP areas within the 
boundaries of Afghanistan.
    The anecdote I would like to share with you he told me just 
a little while ago, and that is, he went to what passes for a 
school in one of the camps and asked the question of the 
children there, what does America mean to you? The answer he 
got was, America is where the food comes from. That was in his 
words quite a moving moment for him, and that is one of the 
messages that we would hope to leave here today, and that is, 
food is moving into Afghanistan.
    At the risk of giving a commercial here, the World Food 
Program has done an absolutely magnificent job of moving food 
into the region. Currently, the major obstacle to the final 
distribution of that food is the security situation and, as you 
point out, Senator, that is something that has got to be better 
and got to be clarified.
    If I may just throw out a few numbers here, the World Food 
Program monthly requirement for the entire country is 52,000 
metric tons. This last 30-day period is the first time ever 
that that goal has been met. So far, halfway through the month 
of November, World Food Program has moved 30,000 metric tons of 
food. Before November, the most they had ever moved was 29,000 
metric tons for a whole month, and that was in October.
    So they are doing an astounding job of moving the food. The 
issue is, once the food is in the area, how do you get it 
precisely to the areas of most need, and that, of course, is a 
function of the security situation. The question of what change 
has occurred because of the dramatic events of the weekend and 
subsequently, the most obvious example of what is changing is 
the Friendship Bridge at Termez. The situation there, as we 
understand it, is the bridge is not open.
    Senator Wellstone. Is not open.
    Mr. McConnell. Is not open. The reason it is not open is 
that there has not yet been a U.N. assessment done of the 
roadway between Mazar and the border, and as we understand it, 
that assessment will inform the Uzbek Government and hopefully 
encourage them to make their final decision to open the bridge 
at long last.
    I would emphasize that yesterday the first barge did, in 
fact, move. It was very lightly loaded, 50 metric tons, mainly 
of nonfood items. The river is quite low. They were being 
cautious in this first barge about making sure it did not run 
aground. Yesterday it went without problem. It is about a 18-
kilometer ride on that barge from one port to the other.
    Today a second barge has, in fact, made that round trip, 
this time 200 metric tons of food, and so barge traffic has 
begun. We are hopeful and optimistic that the real key to the 
north, which is to say the opening of the bridge, will occur 
early in the week. The U.N. intends to run this assessment 
mission over this weekend.
    Senator Wellstone. Mr. McConnell, before we go on, just 
since there are a number of people here in the audience, maybe 
you could explain--sometimes those of us who are very focused 
on this, we get it at a micro level. Maybe you could put this 
in just a little bit broader context as to the importance of 
the Friendship Bridge and the food coming in from the north, 
and getting the approval of the Uzbek Government, because this 
is one of the more positive developments, that we can now bring 
in a lot of food from the north.
    Maybe you could kind of spell out what is going on here, 
and also with the barge traffic, why this is such an important 
development, and why we need to do this, if you could just 
embellish that point a little bit.
    Mr. McConnell. Yes, sir, I will. The World Food Program 
surveys show that the areas in most need in Afghanistan are in 
the north. Traditionally, food has come in from the south, 
southeast kind of access. What is key to getting to the people 
in the north, those in most need, both because of geography and 
climate and Taliban misrule, the key to that is the so-called 
Friendship Bridge, where some estimates are--remember, I gave 
the number of 52,000 metric tons a month will feed the country. 
Some estimates are, half of that could come across this bridge.
    I have not been there, but I am told it is quite an 
enormous structure, and this was used by the Soviets for entry 
and subsequent exit from Afghanistan.
    Senator Wellstone. And again, we have every reason to 
believe the Uzbek Government will open it up, I gather, right? 
You are optimistic that they will? That is what we are waiting 
on. It is U.N. assessment, but then the Government to give its 
approval. Can we expect that to happen soon?
    Mr. McConnell. I think so. It is more of a State Department 
question than one for us, but the concern the Uzbeks have 
expressed all along has been the security situation south of 
the bridge, and that is why I say that if this assessment 
mission can give those assurances, we would expect that the 
Uzbek Government would follow through.
    Senator Wellstone. Well, we will move right to Mr. Kreczko.
    Alan, thank you for being here.

 STATEMENT OF ALAN KRECZKO, ACTING ASSISTANT SECRETARY, BUREAU 
  OF POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Kreczko. Thank you, Senator. Let me thank you for 
convening another hearing on the subject, and express my 
appreciation for the support this committee has shown for a 
robust humanitarian response in Afghanistan, which, as you 
know, has been a major component of President Bush's response 
to the situation in Afghanistan.
    I also wanted to say that we agree with most of the points 
that you identified in your opening comment, including the need 
to seize on the opportunity that is presented by the changed 
security circumstances to get as much assistance in as 
possible, in particular in the north, where the need is the 
greatest, and that is what Bernd McConnell and USAID are 
working so hard on.
    We also agree on the need for the Northern Alliance to 
avoid human rights abuses and interference with relief efforts. 
We agree on the need for a reconstruction effort, and the U.S. 
and Japan will be hosting a meeting November 20 in Washington 
on reconstruction. The aim is to seek agreement in principle on 
a multiyear, multinational, multibillion reconstruction effort, 
and we agree on the need for there to be a broadbased 
representative government in Afghanistan, so on all of those 
fundamental points that you made we agree.
    Senator with your permission, I would just say a few things 
about the refugee situation and how it has changed since we 
last had an opportunity to brief the committee on that. Overall 
the number of refugee flows to neighboring countries has 
remained relatively small, far fewer than had been originally 
feared. You remember, people were talking about 1.5 million new 
refugees. The United States has continued to urge countries to 
maintain an open border for those who need to flee persecution 
or conflict, but it remains the case that all of the countries 
maintain an official posture of a closed border to refugee 
flows.
    As in October, there have been no significant refugee flows 
toward the northern border with Uzbekistan, Turkmenistan, and 
Tajikistan. There have been increased flows since we last 
talked toward Iran. Several thousand Afghans may have entered 
illegally, and there have been some reports of forced 
deportations by Iran back into Afghanistan.
    Two camps were established by the Iranian Red Crescent 
Society for Afghans moving toward Iran, but they were 
established on the Afghan side of the border, and we understand 
that the Iranian Red Crescent Society withdrew their support 
from one of those camps because the Taliban moved armed 
elements into it. That camp is now in an area controlled by the 
Northern Alliance.
    Iran has done some more contingency planning with the U.N. 
High Commissioner for Refugees for future refugee flows, and 
has identified some sites for refugee camps that are on the 
border, but none of those are opened at this point.
    Pakistan remains the destination of choice for most people 
seeking to leave Afghanistan. Pakistan generally maintains a 
closed border to refugee flows, but has made exceptions for 
certain vulnerable individuals. Roughly 4,000 individuals have 
been provided assistance at a U.N. High Commissioner for 
Refugees transit facility in the southeast, and those people 
are now being moved to a new camp in Pakistan that the 
Government of Pakistan has allowed to open.
    While the number of legal entrants to Pakistan has been 
small, the estimates of those who have entered unofficially has 
grown from the 10 to 20,000 that I mentioned to you last time 
to about 135,000 now. Those individuals have generally gone to 
live with relatives or friends and receive little assistance 
from the international humanitarian community.
    Similar to the Iran situation, some camps have been set up 
on the Afghan side of the Pakistani border. The Taliban has 
been directing people to these camps, and some assistance has 
been provided in these camps, but the United States has not 
supported the establishment of these camps out of concern that 
they are subject to Taliban control and do not provide adequate 
security to refugees or to assistance workers.
    The extent of future refugee flows is uncertain. It is too 
early to conclude that there will not be additional numbers. 
Nonetheless, with our encouragement, the U.N. High Commissioner 
for Refugees has shifted to planning, as well, for the return 
of refugees to Afghanistan. We encourage this planning. The 
return and reintegration of refugees and displaced persons 
needs to be a central element in the rehabilitation and 
reconstruction of Afghanistan.
    Thank you, Senator.
    [The prepared statement of Mr. Kreczko follows:]

 Prepared Statement of Acting Assistant Secretary Alan Kreczko, Bureau 
      of Population, Refugees, and Migration, Department of State

    President Bush is providing firm leadership in the international 
campaign to eradicate terrorism worldwide. A key part of his efforts is 
directed at both the immediate and the longer-term problems plaguing 
the people of Afghanistan, and on this front, too, the United States is 
providing leadership.
    Compassion is an integral component of the President's foreign 
policy, and it motivates America, even in these trying times, to lead 
the international humanitarian relief effort for those most vulnerable 
in Afghanistan. As the President asserted, ``We have no compassion for 
terrorists, or for any state that sponsors them. But we do have great 
compassion for the millions around the world who are victims of hate 
and oppression--including those in Afghanistan. We are friends of the 
Afghan people. We have an opportunity to make sure the world is a 
better place for generations to come.''
    The President, on October 4th, announced a $320 million initiative 
to provide additional humanitarian assistance for Afghans--for both 
those inside Afghanistan and for those who flee Taliban oppression to 
neighboring countries. The United States has consistently been the 
largest donor to international humanitarian efforts. With vital help 
from a number of countries around the world, our goal is to alleviate 
the suffering that Afghans have endured for more than two decades, as a 
result of war, severe drought, and the brutal, repressive rule of the 
Taliban regime.
    The United States believes that all of Afghanistan's neighbors 
should be prepared to accept new Afghan refugees as needed, and that 
the international community must be prepared to shoulder the economic 
costs incurred by the flight of desperate Afghan people. In working 
with neighboring countries on potential new refugee flows, we need to 
take into account the existing refugee situation. Over 3.5 million 
Afghan refugees already reside in neighboring countries. The bulk of 
those are in Pakistan, which generously has taken in some 2 million 
refugees, and Iran, where some 1.5 million Afghan refugees reside. As 
with its contributions to relief efforts overall, the United States has 
consistently been the largest financial donor to support those 
refugees. At the same time, it is important to acknowledge the 
remarkable generosity of Pakistan, Iran, and other neighboring 
countries in providing relief and refuge to so many Afghans for nearly 
two decades.
    The UN High Commissioner for Refugees originally prepared 
contingency plans for the arrival of as many as 1.5 million additional 
Afghans in the countries neighboring Afghanistan. Based on information 
available at the time of their original plan, UNHCR estimated an 
additional 1 million Afghans would arrive in Pakistan; 400,000 in Iran; 
and 50,000 each in Tajikistan and Turkmenistan.
    Those were planning figures, and the actual flow of new refugees 
has been much smaller. UNHCR estimates that 135,000 Afghans have found 
their way across the border into Pakistan since September 11, 
significantly fewer than originally anticipated. Possible reasons 
include: the international community's ability to deliver continued 
assistance inside Afghanistan; Taliban restrictions on male departures; 
the focused nature of the U.S. military campaign; and the fact that the 
borders of all neighboring countries are officially closed. There has 
been no significant population movement to the North, toward the 
Central Asian states of Turkmenistan, Uzbekistan, and Tajikistan. 
Turkmenistan and Tajikistan have, nevertheless, engaged in some 
contingency planning with the UN High Commissioner for Refugees (UNHCR) 
and have agreed to facilitate cross-border assistance to Afghanistan. 
Uzbekistan has agreed to the prepositioning of relief material at 
Termez, and has now allowed relief material to move from barge to 
Afghanistan.
    Iran also maintains a closed border. Reportedly a few thousand 
Afghans have entered Iran in the past several weeks, some of whom may 
have been deported back into Afghanistan by Iran. The Iranian Red 
Crescent Society had established two refugee camps inside Afghanistan, 
with about 8,000 to 10,000 Afghans there. However, we understand that 
the Iranian Red Crescent Society withdrew from one of those camps 
because Taliban armed elements entered it. That camp is now reportedly 
in the control of the Northern Alliance. Iran has done contingency 
planning with UNHCR for larger flows of refugees, and has identified 
some sites for refugee camps along its border with Afghanistan. Iran 
also is facilitating cross-border assistance into Afghanistan.
    Pakistan officially maintains a closed border with Afghanistan, 
fearing that an open border and the prospect of relief inside Pakistan 
could attract hundreds of thousands of new refugees, with attendant 
security and economic implications for Pakistan. Pakistan has allowed 
some vulnerable groups to cross the border, and acknowledges that tens 
of thousands more have crossed unofficially. With Pakistan's 
authorization, UNHCR has established a transit center near the Quetta 
border crossing, where initial assistance can be provided to new 
arrivals who are permitted official entry. UNHCR has begun to move 
Afghans from the temporary receiving centers at the Quetta crossing in 
the south--to new refugee camps. Those who enter unofficially receive 
little assistance and fear deportation if discovered. Pakistan has 
identified sites where UNHCR can establish new refugee camps, although 
the site locations are in remote areas and security of humanitarian 
staff there will be a great concern. UNHCR has prepositioned 
substantial relief materials in Pakistan. Camps have been set up on the 
Afghan side of the Pakistan border, where individuals denied entry to 
Pakistan are getting some minimal assistance. However, we are concerned 
that these camps are subject to Taliban control and do not provide 
adequate security to refugees or to assistance workers.
    The extent of future refugee flows will be affected by the same 
factors that currently appear to be limiting outflows and, of course, 
how the military campaign unfolds. Recent successes by the Northern 
Alliance has changed the dynamic within the country and could provoke 
new refugee outflows, especially by those sympathetic to the Taliban. 
We will continue to work with UNHCR, relief organizations, and with 
Pakistan and other neighboring countries, to prepare for possible 
increased refugee flows.
    Our ultimate hope, of course, is that Afghans will be able to 
return to their homes. We have--despite the current fluidity of the 
situation--seen the voluntary return of almost 3,000 Afghans from Iran 
to Afghanistan. Afghans in Pakistan are following closely the events in 
Kabul and other parts of the country, calling relatives, and thinking 
about testing the waters for return. While continuing to prepare for 
refugee flows, UNHCR has therefore begun to prepare for the possible 
return of refugees to Afghanistan. We encourage this planning. The 
return and reintegration of refugees and displaced persons needs to be 
a central element in the planning for the rehabilitation and 
reconstruction of Afghanistan.
    The United States supports a broad-based representative government. 
We support the inclusion of Afghan women in the planning and future 
reconstruction of Afghanistan. We support their full participation in 
the economic, political and social life of Afghanistan. Promoting human 
rights in Afghanistan, and particularly the rights of women and girls, 
is a high priority for the United States. We have repeatedly called on 
the Taliban to lift restrictions on access to health care, employment, 
mobility, and education of women and girls.
    On October 5th, the UN convened in Geneva a meeting of major 
donors, as well as Iran and Pakistan, to discuss the Afghan 
humanitarian situation. Attendees at this meeting praised President 
Bush's initiative and strongly endorsed the view that the international 
community should make maximum effort to provide assistance inside 
Afghanistan, so that people would not be forced to leave in search of 
aid. The meeting also endorsed contingency planning for refugee flows, 
and provided assurances to Pakistan and Iran of burden sharing to care 
for all new arrivals. Total offers of humanitarian assistance from over 
40 countries--including President Bush's pledge of $320 million--now 
total some $800 million. For UNHCR, initial cash receipts were slow to 
match pledges, but now (November 15) the refugee organization has 
received $57.6 million, of its $268 million request for the six months 
from October 2001 through March 2002. The Bureau of Population, 
Refugees, and Migration has contributed $14 million of that amount, 
part of the Bureau's contribution of over $36 million to the current 
Afghan crisis.
    The unambiguous message of that meeting was support for the Afghan 
people. That certainly represents the attitude and endeavors of the 
United States as well. We are not at war with the innocent people of 
Afghanistan, and we are doing all we can to ameliorate the conditions 
under which they have long been suffering.

    Senator Wellstone. Thank you. Just real quickly, Mr. 
Kreczko, I appreciate the agreement and the work that you are 
doing. Again, on the economic reconstruction, I was pleased to 
hear you say that we are really trying to organize the 
international community.
    I think, again, sometimes you know, these economic 
reconstruction plans, they stay abstract for too long. I think 
we are going to need to get some action on the ground soon and 
some money on the ground soon, because again I think you have 
got this vacuum where all sorts of people are going to be 
dealing with all sorts of people, and I think it is real 
important that we are there.
    One very just quick comment, at the very end of your 
testimony you talked about repatriation, and I am going to come 
back with a question and ask you how we are going to deal with 
a lot of people who I would guess are going to want to be 
coming back, or going to be coming back. They are not going to 
be waiting for any official blessing to do so, and so I would 
be interested in your plans there.
    The other thing I want to talk about is, I know that the 
Pakistanis have opened up another camp, but it is in pretty 
awful conditions. I mean, it is remote. There is no access to 
water. I would like to talk a little bit more about that and 
try and figure out exactly what kind of discussions we have had 
with the Pakistanis on the border crossings. Are we encouraging 
them to open up the borders, or are we not now, not knowing 
whether they are Taliban? I would be interested in that 
discussion as well.
    Mr. Rogers.

STATEMENT OF LEONARD ROGERS, ACTING ASSISTANT ADMINISTRATOR FOR 
 HUMANITARIAN RESPONSE, UNITED STATES AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Mr. Rogers. I would just like to make a few brief comments. 
As Bernd said, the Administrator submitted our written 
testimony, but I think it is important to understand the 
context in which we are going to have to assess this 
humanitarian operation in Afghanistan and also plan for the 
reconstruction.
    Afghanistan is one of the poorest countries in the world. 
UNICEF estimates that even in a normal year 300,000 children 
die from preventable causes, and that nearly half the children 
in the country have malnutrition, so it is one of the poorest 
countries in the world. It is also in the grip of a 3-year 
drought. There is nothing we can do except hope that the rains 
come normally, but if that drought persists into the next year, 
then the reconstruction is going to be hampered severely.
    Many of the poorest people have lost all their assets. 
Their livestock herds have been liquidated. People have no 
ready source of income, as you suggest, and it is going to be 
important to get people back to work earning income so they can 
buy food in normal commercial markets.
    Afghanistan has had 22 years of brutal conflict. There are 
4 million refugees outside the country, and Afghanistan is one 
of the most heavily mined countries in the world, so security 
is going to continue to be a major problem.
    The President has provided significant resources for the 
humanitarian effort. USAID is responsible for managing $192 
million of that. Together with assets from USDA, we believe 
that is going to allow us to provide approximately 400,000 tons 
of food. Some of that food is already in the country. That 
volume of food will allow the United States alone to feed 4 
million people through spring.
    We are welcoming other donors' contributions which are now 
coming in at a reasonably strong rate, so we believe that the 
resources are either in hand or coming onstream to allow an 
effective humanitarian response.
    I would be happy to answer your questions.
    Senator Wellstone. Well, thank you for your testimony.
    First of all, on the package, the $320 million, one of the 
things again I want to repeat, it is past history now, but for 
a while OMB was too slow in getting this money out to people on 
the ground, and I want to emphasize at this hearing just as a 
matter of record I know that a number of Senators had to 
contact them, and I just hope we will not have any more 
problems with delay.
    Of the $320 million committed by the administration, what 
portion of these funds--this could be for any of you--will 
actually flow inside of Afghanistan as opposed to the 
maintenance of the refugee populations in neighboring 
countries? Do you have any sense of that?
    Mr. Kreczko. Well, Senator, it is hard to answer that with 
precision for the following reason. We know how much money was 
apportioned to our respective accounts, which is $125 million 
came to the State Department refugee account, and the remainder 
went to AID, but our money will basically follow the refugees, 
so if the refugees return to Afghanistan we will be using our 
money inside Afghanistan to help with the return and 
reintegration of Afghan refugees.
    If more Afghans leave Afghanistan to go to Pakistan, then 
our money would be used there, so it is kind of refugee-
specific, but whether it is spent inside Afghanistan or inside 
Pakistan depends upon events.
    We also use a significant chunk of our money to support the 
International Committee of the Red Cross, because that is our 
statutory responsibility, and that is activities inside, so I 
am afraid it is not as easy to define it with precision.
    Senator Wellstone. Mr. McConnell.
    Mr. McConnell. It is also important to remind ourselves 
that the Presidential initiative was a regional initiative. The 
drought that has been described is not peculiar just to the 
northern part of Afghanistan. Tajikistan is suffering as well. 
Part of this money is being used to address some of the food 
needs there.
    Senator Wellstone. Well, God knows, I am not trying to play 
off one group of desperately poor people against another, but I 
would find it hard to believe that probably you are going to 
get more people trying to leave to go to Pakistan. My guess is 
you are going to have people starting to come back, and 
moreover, the people in Afghanistan, this has been like--they 
have kind of been living a nightmare, so there is all sorts of 
needs there, dire needs, and so the people who could not leave 
in the first place were the elderly, the infirm, the poorest of 
the poorest of the poor people, and so I guess what I would 
want to do is just emphasize that we make that a priority, the 
internally displaced people in Afghanistan. I gather there is 
no disagreement on that.
    Mr. Rogers. I think the simple answer would be that of our 
$192 million, excluding the $20 million that will be used for 
food in Tajikistan, virtually all of that will go inside of 
Afghanistan, and a significant share of the PRM budget will 
ultimately wind up in Afghanistan as well, so I think the 
priorities are definitely on assisting inside Afghanistan.
    Senator Wellstone. Well, I am glad we have that on the 
record. Thank you.
    Just to go back to Friendship Bridge one more time, if I 
understand this the right way, we have got a changed security 
situation in the north. I mean, the Taliban are no longer in 
charge, so those considerations are no longer paramount, is 
that right?
    Mr. McConnell. Yes, sir, but the security assessment that 
is being anxiously awaited here will also look for evidence of 
mining on the roads, but as far as active Taliban involvement, 
it is our belief that is gone.
    Senator Wellstone. And again, the point being it is a 
dramatically different situation, so hopefully the Uzbek 
Government, after we get the security assessment, should be 
able to grant approval for use of that bridge. Talk a little 
bit about the differences it would make having to do it just 
with barge traffic, the bridge versus the way we are doing it 
now, just so, again, people can have an understanding of why we 
keep talking about Friendship Bridge, just what the difference 
would make in concrete terms. Right now, we are doing it how, 
we are just doing it on the river, across the river?
    Mr. McConnell. Even the barge traffic is in a way a 
breakthrough. That has just begun, and that is a lot better 
than before. We are conducting in some areas airlift of food, 
to get food to the, sort of the gaps, the places where we do 
not have food coverage.
    What this will mean, again, is an unfettered movement 
through the Friendship Bridge will essentially provide half the 
needs of the country, needs as defined by those people in most 
need, those people who are in the most inaccessible areas.
    I would like to go back one more time, the World Food 
Program [WFP] is doing a superb job in getting food to the 
area. The issue is reorienting the food distribution to the 
north, which as you have pointed out is the area of most need. 
Friendship Bridge is key to that. We do not want to do 
airlifts. It is expensive, it is inefficient, and it takes 
resources away from the basic needs. This will allow us to use 
a well-developed road network in the north that is so far 
proving to be perhaps a little better than we had thought in 
terms of year-round capability.
    Senator Wellstone. Senator Lugar, I would just ask one more 
question and then shift to you. Thank you so much for joining 
us.
    The questions I asked, I was wondering what portion of the 
$320 million was going to be committed to actually flow inside 
of Afghanistan versus care and maintenance of the refugee 
populations, and the reason I ask the question is because I 
think a lot of people are going to be coming back, and I also 
think, among the elderly and poorest in Afghanistan, it has 
sort of been their living hell.
    And then the second question I was just asking was about 
Friendship Bridge, and when we could see that opened up, 
because that is going to make a huge difference coming over 
from Uzbekistan.
    I guess my last question is, what do you all think would be 
required from a security standpoint to reintroduce 
international staff in the required numbers into Afghanistan? 
How quickly might this happen, and in what regions of the 
country?
    Mr. McConnell. This weekend a U.N. team is going into Kabul 
itself. The intent is, well, to look around obviously, but the 
intent is, we are told, to leave a staff of 10 behind in Kabul. 
Feyzabad in the north, the U.N. intended--and I do not know 
whether this occurred or not--to put their first staff in today 
on the ground. Mazar is a big question mark because of some 
security concerns and some of the reports you alluded to 
earlier, and so I think everybody is anxious to get the 
internationals back in as quickly as possible. We ourselves 
would like very much to get somebody on the ground to do some 
assessing for ourselves, and we are attempting to attach 
ourselves to one or two of those missions.
    Senator Wellstone. Let me send it over--Senator Lugar, 
first of all I cannot tell you how honored I am that you are 
here. You are really probably one of the three, four, five 
Senators who have been most engaged in international affairs 
with the most sophistication in the U.S. Senate, and the other 
thing that we have administration witnesses and then we have a 
report from people on the ground in the second panel.
    The other question I raised, and then I am going to send it 
over to you, I said earlier when I asked the question that I 
thought today is not too early for us to put together this 
economic reconstruction plan, because I think that it is going 
to be of key importance.
    A lot of people are going to be wandering all around there. 
A lot of people are going to be making deals. A lot of people 
do not believe, given our history, that we are going to follow 
through, and I think we really need to be talking about all the 
infrastructure developments, and I especially think it would be 
a wonderful message to the Pashtun in the south to see that 
happening in the north right now, and that was the other thing 
we had talked about.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I 
apologize for my tardiness. Senator Wellstone has been holding 
the fort here and others of us have been over with Rich 
Armitage and Paul Wolfowitz and Steve Hadley thinking about the 
situations they brought to our attention.
    Let me just pick up, however, on Senator Wellstone's point, 
and that is that a fairly large sum of money is going to be 
required, almost an endowment of this process. We have no idea 
how long military action will proceed in Afghanistan, but 
hopefully the attention of the American public and our 
Government officials will last longer than that. We must 
identify the resources in advance, not only from ourselves, but 
also our partners, would seem to be essential, an international 
fund-raising effort.
    I am certain this is part of your portfolio now to identify 
who is prepared to step up for the long term with substantial 
funds.
    I just want to follow through a specific aspect of this, 
just to get a feel for how you envision the organization of 
this effort. Until fairly recently, a number of our friends 
abroad were advising us that, given what they felt was the 
halting nature of military operations, that we should stop the 
bombing during the holy days and perhaps utilize that period 
for some international relief to show our goodwill.
    This was rejected by our military people and others, but at 
the same time, everyone realized that the problems of winter 
and the difficulties were likely to be substantial.
    Now, that has not all changed, but nevertheless the on-the-
ground situation in the country has changed, remarkably, in a 
week. The bridge that Senator Wellstone was talking about from 
Uzbekistan into Afghanistan is apparently open.
    Mr. McConnell. Senator, everybody desperately wants that 
bridge open, but our information is that Uzbekistan has not yet 
agreed to open it. This weekend, a U.N. assessment team will 
make the run from Termez up--I am sorry, from Mazar up to 
hopefully form a decision, a positive decision by the 
Government of Uzbekistan to open the bridge, hopefully next 
week.
    Senator Lugar. In other words, the bridge is physically OK, 
it is the diplomatic situation.
    Mr. McConnell. And I think this team will certify that 
physical OKness, but it appears to be OK to us.
    Senator Lugar. Well, let us say we have good fortune and 
that works out, is it true that a thousand metric tons of wheat 
can come across the bridge every day?
    Mr. McConnell. Yes, sir.
    Senator Lugar. That would be your plan, would it not?
    Mr. McConnell. Yes, sir. The working number is 25,000 
metric tons a month will come across that bridge.
    Senator Lugar. Now, just in terms of what happens to that 
wheat, is it literally in the form of wheat, or is it flour, 
and how, depending upon what it is, do you get it in some other 
form, and what is the distribution network? How does it reach 
people?
    Mr. McConnell. It will reach people in basically the same 
way as it does now. World Food Program will get the wheat into 
the country. The NGO's, the very fine NGO's and PVO 
organizations that have been doing such an incredible job 
inside will then do the physical distribution. It is preferable 
that be done by truck.
    The bridge that we are all so fond of here is sort of the 
giant funnel into the north, and I think we are all agreed that 
the north is the area of most need. The World Food Program 
surveys identify it as such, and the road system that we are 
aware of is such that those trucks will be able to feed that 
half of the country very efficiently.
    I ought to say that it is not the only route. The central 
highlands, the Hazarajat, is an area, too, of great 
inaccessibility and great need. The World Food Program is, 
again, even now, without that bridge being opened, able to, 
from newly liberated, apparently, Kabul, bring food in, and 
there is almost 13,000 metric tons of food aimed at the central 
highlands today, out of a, in order to get through the winter, 
requirement of maybe 30,000 for that whole area.
    So there are good news parts of the distribution, but I 
would certainly agree that the bridge is key to the northern 
area of most need.
    Senator Lugar. How do you arrive at the 30,000 figure, and 
how do you determine how much wheat is necessary for the number 
of people that are there?
    Mr. McConnell. I will not pretend to be an expert, having 
been an employee of USAID for 6 weeks here, but the World Food 
Program, through people on the ground, conducts surveys to 
develop estimates and for the Hazarajat, that area of the 
central highland area, their conclusion is 30,000 metric tons 
will feed that population for the winter months, and we accept 
their calculation of that.
    Mr. Rogers. Senator, a rule of thumb we use at USAID is 
that 2,000 tons of grain will feed 1 million people for a year. 
You can push the math around a lot of ways, but that is a basic 
rule of thumb.
    Senator Lugar. That is a very useful figure to begin to 
quantify it physically, because you have got a thousand tons a 
day across the bridge when it is open, and you have now control 
of the area in a way that we did not a short time ago. That 
does not mean every pocket of resistance is gone, but the 
possibilities of reasonably peaceful distribution by the NGO's 
becomes a practical possibility.
    Now, we do not have full control of the southern part of 
the country, and so that is another story, although we might in 
due course. Now, how do you get it into the south? Are there 
routes through Pakistan, then, that are more likely at that 
stage?
    Mr. McConnell. Yes, sir, but the thing we have to 
remember--and again, I am going back to World Food Program, in 
their assessment of the country as a whole, whereas there might 
be hungry people in the south, they are not those that are most 
gravely affected.
    I mean, there is food in the south. Yes, there is 
turbulence, but the traditional route through the Kabul area 
from Pakistan is certainly much more available to us now, or to 
the NGO's now than it was, but the critical need is in the 
north, and that is the significance of the new routes that are 
available. There is food in the south, and I think we will not 
see the difficulty there.
    Senator Lugar. Now, how have all these NGO's survived 
during this most recent period, or are they coming back in? I 
mean, are they now kind of liberated and can do their thing, or 
do they have to come in?
    Senator Wellstone. Some of them are smiling. They are going 
to tell you, too.
    Mr. McConnell. Better the people who do the heavy lifting 
tell you, sir, but the expatriates have been out for sometime. 
They are jumping at the bit to get back in, and I think you 
will hear about that in the next panel.
    Senator Lugar. I will not jump ahead in the story. I 
appreciate your testimony. Thank you.
    Senator Wellstone. I do, too. Thank you, and tell 
Administrator Natsios we appreciate his cooperation and effort 
to be with us, but I think, Mr. McConnell, we heard a lot from 
you. Thank you so much.
    Let me call now George Devendorf. We are going to start 
with George out of deference, so he does not fall asleep, and 
Mark Bartolini, and Joel Charny.
    We will start with George Devendorf, who, as I said, just 
got back last night from the region. George.

     STATEMENT OF GEORGE DEVENDORF, DIRECTOR OF EMERGENCY 
            OPERATIONS, MERCY CORPS, WASHINGTON, DC

    Mr. Devendorf. Senator, thank you very much. Thank you in 
particular for your leadership over these several months on 
this very important issue.
    As the Senator mentioned, I just returned last night from 
about 10 days in the region. I was visiting with our staff and 
our operations in Pakistan, both in Islamabad and in Quetta, in 
Beluchistan, where I had the opportunity to visit a number of 
the new refugee camps which have been established over the last 
couple of weeks near the border crossing between, the Chaman 
border crossing heading up into Kandahar, and as you might 
imagine, and as you have heard from us and others for some time 
now, the sites which have been identified for these new refugee 
camps are inhospitable, to say the least. Nonetheless, you and 
agencies and NGO's are doing the best they can, along with 
Pakistani authorities, to provide at least the minimum 
requirements for the families which have come across.
    I would point out these families have come, we have found, 
from all over Afghanistan, not just from the southern regions, 
but from Herat, from Mazar, even from areas around Takar, and 
so they really represent a very wide variety of ethnic groups 
and geographic areas and so forth. What they have in common, 
clearly, is they have just about nothing left, and that is why 
they have come across.
    So that said, I know for weeks now and for several months, 
in fact, Mercy Corps and her colleague agencies have been 
trying as much as possible to highlight the need for a 
significant amount of resources to be made available to help 
respond to what are extremely broad and severe humanitarian 
needs inside Afghanistan today, without at all trying to 
diminish the validity of that argument.
    What Mercy Corps would like to do, and what we tried to do 
in the prepared statement for today, is to try to look ahead a 
bit. We do not think it is too early, particularly with the 
events of the past week and the dramatic changes in the 
geography of the humanitarian effort inside Afghanistan, to 
really start thinking about what we can do now, and how we can 
perform now in such a way that it will more easily and more 
coherently lead to the revitalization of Afghan society, and 
what I would like to highlight in particular is the role that 
the market can play in that revitalization.
    I have attached to our statement for today a photograph, 
again a relatively simple example, but nonetheless a photograph 
which was taken by our staff members on Monday in Taloqan. This 
is 2 days after the Norther Alliance forces had reentered that 
city.
    That city is traditionally the hub of economic activity in 
that sort of north central region between Mazar and the far 
east end of the north of Afghanistan, and what it shows quite 
simply is a market vendor doing his work, and what we found is 
that even during the heaviest periods of fighting during the 
last 2 months, by and large markets have continued to operate. 
Beyond that, the halala system of informal cash transfers, the 
system inside of Afghanistan that enables economic 
opportunities and activities to go on is once again working in 
many areas.
    What we would propose is that whenever possible, let us 
look toward revitalizing economic opportunities and economic 
activity inside the country as a primary way to help meet the 
supply needs. Whether it be food, rebuilding necessary--I 
should say, materials necessary for rebuilding, what-have-you, 
and there are things we can do to support that, then I would 
suggest we focus on that as much as possible.
    Thank you.
    [The prepared statement of Mr. Devendorf follows:]

     Prepared Statement of George Devendorf, Director of Emergency 
                        Operations, Mercy Corps

         priorities for humanitarian assistance in afghanistan
Introduction
    The stunning pace of the Taliban's withdrawal from many areas of 
Afghanistan over the past several days has lent considerable hope to 
the ongoing emergency humanitarian effort in the region. With the rapid 
advance of opposition forces have come a number of positive 
developments that seemed quite unlikely only a few days ago. Several 
new access routes have opened up, international relief staff have been 
reintroduced in some areas, and limited numbers of internally displaced 
families are now beginning to return to their homes areas. This said, 
numerous challenges remain--challenges that will severely test the 
international community's ability both to meet critical, live-saving 
needs during the winter, and to lay the foundation for the longer-term 
rehabilitation of Afghanistan, a process that will ultimately come to 
define the success or failure of the international community's effort 
in Afghanistan. In this respect, the most difficult tasks still lay 
before us.
    Mercy Corps, a non-governmental humanitarian organization, has been 
working in and around Afghanistan since 1986. In the coming months, we 
recommend that the following key considerations be taken into account 
as the US Government follows through with, and expands upon, it's 
significant commitment to assist the people of Afghanistan.
  key considerations for the future of humanitarian assistance in the 
                                 region
1. Demonstrate A Long Term Commitment to Afghanistan
    There is today inside Afghanistan an overwhelming sentiment among 
people of all ethnic groups that, after the Soviet occupation ended, 
the United States abandoned Afghanistan. Not surprisingly, many Afghans 
are uncertain about this government's motivations and wonder what sort 
of commitment the United States will make to Afghanistan once Taliban 
forces have been defeated. The US Government has already made generous 
contributions to assist the people of Afghanistan--from the more than 
$178 million that was dedicated to Afghan relief efforts during the 
last fiscal year, to the $320 million in additional aid that this 
government announced during October. In order to safeguard these 
investments, and to successfully address the poverty and oppression 
that have directly fueled instability in Afghanistan in recent years, 
the United States and other donor governments should take this 
opportunity to make a firm, long-term commitment to help the people of 
Afghanistan. This commitment should be guided and informed by the 
considerations outlined below.
2. Help Afghans to Help Themselves
    Humanitarian efforts, including those meant to provide urgently 
needed relief assistance, should be firmly based upon strategies that 
help Afghan families and communities to restore their productive 
capacities as quickly as possible--in short, to help Afghans help 
themselves. Massive amounts of both food and non-food aid are currently 
being assembled in the region. Given the scale and severity of relief 
needs inside Afghanistan, these commodities represent a necessary 
response that will form the backbone of the international community's 
emergency assistance effort over the coming months. However, prolonged 
distributions of ``free'' food and non-food aid is clearly not in the 
best interests of the Afghan people. ``Free'' aid is, in fact, rarely 
free. Over time, it promotes apathy and a feeling of helplessness that 
directly undermines the sense of self-reliance and initiative that 
affected communities have traditionally relied upon. As a result, Mercy 
Corps strongly believes that free distributions of aid should be 
limited to immediate, life-saving efforts and that, as quickly as 
possible, humanitarian assistance should seek to promote the capacities 
of Afghans to reinvigorate their own society and economy. Towards this 
end, we would recommend particular attention be paid to helping Afghans 
revitalize both economic markets and individual livelihoods.
3. Restore Livelihoods and Revitalize Markets
    In a small but significant way, the photograph attached to copies 
of this testimony serves to underscore the resilience of Afghan 
markets. Taken two days after the city of Taloqan fell to Northern 
Alliance forces, it depicts a small-scale vendor offering vegetables 
for sale on the streets of the city. Throughout Afghanistan, markets 
have continued to operate during the on-going conflict. Prices for most 
staple foods have increased, but not dramatically, thus indicating that 
economic supply lines have remained viable in many communities. In 
addition, the informal method of moving money into and around the 
country--the Hawala system--is once again working in several areas. 
These developments illustrate a simple fact--if the international 
community can help Afghan families to rebuild their asset bases and 
thus restore their purchasing power, the marketplace can and will 
provide much of what is needed in the way of food, non-food items, and 
reconstruction materials, etc. Mercy Corps therefore recommends that 
humanitarian efforts focus on interventions such as cash for work, 
access to credit, and infrastructure repair projects that target vital 
economical sectors, including transportation, agriculture, and 
livestock, etc. By re-injecting cash into Afghan society through these 
means, aid agencies can help families and communities to more quickly 
regain self-sufficiency, and thus minimize their dependence on 
international aid in the years ahead.
4. Ensure Security for Humanitarian Operations
    Recent incidences of looting in Mazar and Kabul, among other 
places, underscore the need to ensure the safety of humanitarian 
workers, facilities and operations. The United Nations and major donor 
governments should continue to impress upon both Taliban and opposition 
forces that they are directly responsible for the safety of relief 
workers operating in areas under their control. Towards this end, UN-
sanctioned international military forces should be deployed as soon as 
possible to help ensure law and order until such time as a post-Taliban 
governmental structure is firmly established.
5. Don't Forget the Refugee Populations
    Even under the most optimistic scenarios, it will be months if not 
years before many of the nearly 4 million Afghan refugees in the region 
feel that it is safe to return to their homes inside Afghanistan. The 
United States and other major donor governments should ensure that 
sufficient resources are made available to assist these groups and that 
governments within the region do not adopt policies that force or 
encourage refugees to return home before it is clearly safe for them to 
do so.

    Mercy Corps exists to alleviate suffering, poverty and oppression 
by helping people build secure, productive and just communities. Mercy 
Corps has 15 years of experience in Afghanistan/Pakistan. This year 
Mercy Corps has assisted more than 500,000 people with drought relief 
and rehabilitation services, food aid, agricultural support programs, 
veterinary care for livestock, engineering and drilling wells, health, 
and sanitation projects. Since 1986, the agency has provided more than 
$20 million in assistance to Afghanistan.

    Senator Wellstone. That is very helpful.
    Mr. Charny.

 STATEMENT OF JOEL CHARNY, VICE PRESIDENT FOR POLICY, REFUGEES 
                 INTERNATIONAL, WASHINGTON, DC

    Mr. Charny. Thank you. I would like to echo the comments of 
appreciation for the work of this committee and the way you 
have been really providing leadership on the necessity of 
providing humanitarian assistance in Afghanistan. I really do 
honestly believe, as an American citizen, that generosity of 
the U.S. in this crisis is exceptional. In a way, it has been 
ironically underplayed by the administration. To make a large 
commitment, as we did at the outset of this crisis, has been 
critical, and I think if we can stay the course and stay for 
the reconstruction phase, that will be extremely significant.
    Many of the points that were made in my written testimony 
have already been discussed in some detail, so I will just 
highlight a few issues. One, on security, we have not really 
talked about the mechanics of how security should be provided 
at this stage. In other words, the issue is law and order, and 
Mazar-i-Sharif right now, the security situation is still very 
uncertain, and that begs the question of what options do we 
have to achieve security immediately so that the opening of the 
bridge between Uzbekistan and Afghanistan will really make a 
difference, so that whole northern tier can be reached.
    It seems to us at Refugees International you have on the 
one hand the Northern Alliance perhaps could assure security. 
That seems to be rather dubious, given what has happened over 
the last few days, and the fact that they still have an ongoing 
conflict with the Taliban in the southern part of the country.
    The second option is providing security under basically the 
mandate or rubric of the coalition itself, and I read today in 
one communication that there is an idea being floated that 
maybe the French and the Jordanians, I assume with a coalition 
mandate, would go into Mazar and try to assure law and order in 
the short term.
    The third option, which is the one that I think we would 
prefer, is to have a U.N.-mandated force, not a U.N. force, but 
one, as Ambassador Holbrooke, who is a member of our board of 
directors, as he argued yesterday in the Washington Post, the 
Security Council can mandate a force, a coalition of the 
willing, as it has been called, and I think the advantage is 
that if the Security Council does it, it gives a more 
international character to the operation, rather than relying 
on something that might be interpreted as unilateral.
    The second point I want to make is to stress the importance 
of the commitment to reconstruction, and the fact that 
additional funding will be required beyond the $320-million 
commitment. Refugees International is an advocacy organization. 
We are not an operational NGO, but I hope our colleagues who 
are operational can look forward to receiving funding for the 
reconstruction effort that will be badly needed.
    Even with the gains on the ground, however, I do want to 
point out that this central highland area, the Ghor province in 
particular, the Hazarajat region, is still very vulnerable 
because of the onset of winter, and it still may be necessary 
to do airlifts into this region.
    WFP is said to be organizing or preparing for these 
airlifts, and I just want to signal that it is really critical 
that we get an operational plan from WFP as soon as possible. 
In other words, do they really have the capacity to get food 
into this region in time. We do not want to rely on ground 
transport and hope for airlift plans only to find in December, 
well, sorry, we are not ready and it cannot happen. I think we 
need to get on top of this situation as soon as possible.
    The fourth point I want to make is to point out--I know you 
are all sympathetic on this issue, but I have to point out the 
incredible irony of Taliban fighters crossing into Pakistan 
unimpeded, when refugees are blocked at the border. 
Unfortunately, this is typical in crises in the midst of 
conflict, but nonetheless, it is a stark irony that Taliban 
fighters with their guns can cross into Pakistan, but refugees 
with legitimate reason to cross cannot.
    Finally, we are concerned that----
    Senator Wellstone. Excuse me. Maybe you could tell me, why 
is this the case? It is counterintuitive when I first hear it. 
The Taliban cross with weapons, refugees cannot.
    Mr. Charny. Well, I hope my colleagues agree, but I mean, 
basically there is a long history of partnership and 
collaboration along the border region between the Taliban and 
local commanders and local government officials on the 
Pakistani side, and when I was at the border crossing just a 
couple of weeks ago I was told unequivocally by U.N. workers, 
Bangladeshi U.N. workers who had been based in Kandahar, the 
Taliban were going back and forth, no problem, even at the end 
of October.
    Now that the force is disintegrating and the Taliban may 
need shelter, they are going to get that shelter from 
commanders on the other side that they have been collaborating 
with. That is the real life--I mean, that is the truth of what 
is happening in the border area, and we know that the crossing 
of refugees and the fear of large numbers was something that 
Pakistan was worried about from a political standpoint, that 
Musharraf did not want to jeopardize his standing with the 
Pakistani people, but it does seem ironic from a refugee rights 
standpoint that refugees cannot cross.
    Finally, we are concerned about the situation for 
internally displaced people inside Afghanistan due to lack of 
access. Now that access is improving, it is critical that there 
be some central mechanism to get an overview of the situation 
for internal displacement. UNHCR has capacity that has been 
underutilized, because the refugee crisis that was predicted 
has not in fact taken place. It may be possible for UNHCR to 
provide leadership and even respond to the situation of 
internal displacement inside Afghanistan in cooperation with 
NGO's that they might wish to partner with.
    [The prepared statement of Mr. Charny follows:]

    Prepared Statement of Joel R. Charny, Vice President for Policy,
                         Refugees International

    I want to thank Senator Wellstone and Senator Boxer for organizing 
this hearing on the humanitarian situation in Afghanistan and for 
inviting me to testify on behalf of Refugees International. I was 
recently in Pakistan, where I had the opportunity to monitor the 
situation in Afghanistan as viewed by the aid agencies based in 
Islamabad and to travel to the Afghan border at the Chaman border 
crossing with Pakistan. RI, which has been covering the humanitarian 
crisis in Central Asia for the past year, presently has an advocate in 
Peshawar, the other main border crossing point; he is monitoring the 
impact of current events on the movement of people in the eastern part 
of Afghanistan. My testimony will draw both on our experience on the 
ground and on RI's on-going analysis of the overall humanitarian 
situation in this highly complex emergency.
    The capture of the northern half of Afghanistan is a military 
victory for the anti-Taliban forces that should translate into a much-
needed humanitarian victory for the United States and others trying to 
fight famine and give hope to the Afghan people. Specific, immediate 
actions are required, however, to translate the recent military 
successes into humanitarian action that delivers assistance to Afghans 
in a timely and effective manner.
    Aid agencies estimate that as many as 7.5 million Afghans will need 
food and other assistance this winter. Two decades of civil war, three 
years of drought and five years of repressive Taliban rule have made 
Afghanistan one of the world's most acute humanitarian disaster zones. 
Between four and five million people had fled the country as refugees 
or been displaced within Afghanistan before Sept. 11, and six weeks of 
bombing have increased the displacement.
    Approximately 75% of the Afghan people afflicted by famine live in 
the northern half of the country, the area liberated by the Northern 
Alliance. Winter is closing in on much of this area, so there is 
literally a race against time and snow to get aid to vulnerable 
populations in the next few days and weeks.
    Three steps must be taken now to head off a humanitarian disaster 
in northern Afghanistan.
    First, Afghanistan's northern neighbors--Turkmenistan, Uzbekistan 
and Tajikistan--must move quickly to enable an increased flow of aid 
across their borders. These three former Soviet states tried to stop 
traffic to and from Afghanistan prior to September 11. After the 
attacks against the U.S. they started to allow aid to flow into 
Afghanistan, but the relief is not yet moving quickly enough. It is 
absolutely crucial that Uzbekistan open the Friendship Bridge that 
crosses the Amu Darya River between Uzbekistan and Afghanistan. The 
U.S. has been trying to secure access to the bridge for weeks. Now that 
the Taliban has been driven out of Mazar-i-Sharif, 40 miles south of 
the bridge, Uzbekistan has no excuse to keep the bridge closed. Andrew 
Natsios, the head of the U.S. Agency for International Development, has 
just completed talks with Uzbek government in Tashkent about increasing 
the flow of aid, and RI hopes that his efforts will lead to a speedy 
opening of the Friendship Bridge.
    If this bridge is open, the World Food Program says that it should 
be able to move at least 16,000 metric tons of food a month across the 
river--almost one-third of the food the WFP needs to move into 
Afghanistan each month--and much of this would reach Afghanistan's 
hungriest people. In contrast, with the bridge closed, food and other 
badly needed supplies have to be loaded onto barges on the Uzbek side 
of the border and then off-loaded onto trucks on the Afghan side. 
Further, due to the three-year drought, the Amu Darya River is so 
shallow that barges are limited to transporting small quantities of 
cargo in a single crossing. The sheer inefficiency of this operation 
would greatly reduce the amount of supplies that the World Food Program 
and other agencies would be able to ship into the famine-stricken 
northern central part of the Afghanistan.
    Second, the security situation must improve. The withdrawal of the 
Taliban has so far not resulted in the establishment of a secure 
environment for the humanitarian relief effort, especially in Mazar-i-
Sharif. Since its capture one week ago, conflict has continued in the 
city. UNICEF has reported that one of its drivers was killed in Mazar 
and WFP reports that 89 tons of oil, sugar and high energy biscuits 
were stolen from a warehouse there over this past weekend. Overall WFP 
reports that their food shipments across the border have slowed to a 
trickle in the past three days, underscoring the urgency of the need to 
establish law and order.
    The situation in Kabul appears to be more stable and Medicins sans 
Frontieres/Doctors without Borders announced two days ago that a four-
person international medical team has returned to the capital for the 
first time since September 11. The International Committee of the Red 
Cross has also re-established its international presence in Kabul.
    In the long, violent history of Afghanistan, murder and banditry 
often follow liberation. U.S. advisers working with Northern Alliance 
troops must discourage such lawlessness in the strongest possible 
terms. The question remains, however, whether the Northern Alliance has 
the capacity to provide security and establish law and order, 
especially given the need to continue to pursue remaining Taliban 
forces.
    The options available to the international community to provide the 
security required to increase the strength and effectiveness of the 
humanitarian aid effort are limited. With time of the essence, RI 
believes that the best option is for the United Nations Security 
Council to authorize the deployment of police units and soldiers from 
Islamic nations that have expressed a willingness to serve in a 
peacekeeping capacity in Afghanistan. Countries believed to be 
interested include Turkey, Bangladesh, and Indonesia. Their duties 
should be focused primarily on establishing law and order in the 
capital and in provincial towns, such as Mazar-i-Sharif and Herat, that 
can serve as hubs for the aid effort. RI would like to stress that the 
world continually pays the price for the refusal of the UN and its 
major donors to establish a standing, well-trained police force that 
could move quickly to establish rule of law. Creating such a force 
should be a longterm goal. Now, the UN should identify a multinational 
force to establish secure and stable conditions so that aid agencies 
can do their work.
    Third, the U.S. must accelerate the disbursal of aid funds and 
increase the amount of money it has set aside to support relief 
organizations working in Afghanistan. President Bush has pledged $320 
million for humanitarian aid to Afghanistan. Most of that money will go 
for the purchase of food, but about 10% is slated to support the work 
of relief agencies in Afghanistan. Until recently that money flowed 
slowly to the agencies, hampering their efforts to prepare for just the 
type of humanitarian opportunities that have resulted from continuing 
military victories. The disbursements began to accelerate last week 
after complaints from Senators Wellstone and Boxer, strong proponents 
of aid to Afghanistan. With more opportunities to deliver food, 
shelter, medical care and, eventually, educational services, the 
government should consider increasing funds for relief organizations. 
Even in the midst of this crisis, funds devoted to agricultural 
rehabilitation can start the process of achieving food security for 
many more Afghans. Educating Afghan girls and women, who were largely 
denied schooling by the Taliban, is essential if they are to play a 
role in the reconstruction of their country.
    Prior to the recent military advances by the Northern Alliance, two 
locations in northern Afghanistan were of special concern. In Bamyan, 
Ghor, and eastern Badghis provinces snowfall and sporadic conflict will 
cut off 500,000 people by the end of November. It is now too late to 
reach many of the affected communities by organizing overland 
distribution of emergency food. In Jawzjan, Sar-e Pul, Balkh, and 
southern Samangan in the north central portion of the country the 
battle for the pivotal town of Mazar-i-Sharif limited humanitarian 
access throughout the region. The UN Office for the Coordination of 
Humanitarian Affairs (OCHA) estimated that there were some 500,000 
internally displaced people in this region alone, many facing another 
winter without proper shelter.
    If security can be rapidly established in the area around Mazar-i-
Sharif the aid effort should be able to reach the vulnerable and the 
displaced in the north central region of the country. For the 
vulnerable people of the central highlands, however, winter weather is 
the main obstacle to humanitarian access and air transport is the only 
option to provide the estimated 20,000 metric tons of wheat required 
once overland shipment becomes impossible. The UN World Food Program 
(WFP) is organizing the logistics for air lifts into this region and is 
attempting to identify NGOs with provincial networks that might be able 
to assure adequate preparation of the landing sites and distribution to 
vulnerable people. The United States should press WFP to present its 
exact implementation plan to ensure that it is credible and will go 
forward on schedule. If WFP is not able to present a credible plan to 
get assistance into the central highlands, then other alternatives for 
air lifts may need to be considered, including the use of coalition or 
other military aircraft in support of a WFP-managed operation.
    The focus on the wheat pipeline and the delivery of this staple 
inside Afghanistan, while fully justified, should not detract from the 
importance of other urgently needed items. Supplementary foods such as 
lentils, beans, oil, and sugar are also essential. Nonfood items such 
as blankets and shelter materials are needed to help vulnerable Afghans 
survive the bitter winter. With Afghan women experiencing the highest 
rate of maternal mortality in the world (860 per 100,000 live births, 
compared to 12 in the United States), RI wishes to highlight the 
availability of low-cost clean delivery kits, consisting of a plastic 
sheet, soap, and a new razor blade to cut the umbilical cord. These 
kits, available from the United Nations Population Fund, should be 
included in aid distributions to help reduce the terrible rate of 
maternal mortality in the near-total absence of a system of basic 
health care in rural Afghanistan.
    The impact of the developments of the past week on the movements of 
displaced people and refugees is difficult to assess. The borders of 
neighboring countries continue to be closed to Afghans seeking 
protection and asylum. Since the outset of this most recent crisis, RI 
has continuously called for these borders to be opened, to no avail. 
Afghanistan's border with Pakistan is lengthy and porous and thus at 
least 135,000 Afghans have been able to cross the frontier illegally. 
These refugees, however, have no official status and very few of them 
can be reached by UNHCR and non-governmental organizations. Many are 
living with families in urban areas in Peshawar or Quetta, while others 
have managed to sneak into existing refugee camps where they scramble 
to obtain access to food and shelter. The apparent compromise achieved 
in late October between the High Commissioner and the Government of 
Pakistan to allow vulnerable people into the country on a temporary 
basis has so far not resulted in substantial numbers of Afghans being 
able to access protection and sustenance legally.
    Reports today indicate that Taliban fighters have been crossing 
into Pakistan in large numbers with their arms. Thus, the Pakistani 
border is open to the Taliban but not open to legitimate refugees. This 
stark irony is typical of crises of displacement in the midst of 
conflict and underscores the political underpinnings of Pakistan's 
decision to keep the border closed.
    Interviews in the past several days with Afghans who recently 
crossed into Peshawar in Pakistan indicate that they feel abandoned in 
Pakistan but are uncertain if and when security will permit their 
return. A number told RI that they left after their homes or fields 
were bombed; others left when they lost their jobs or means of 
livelihood. They gave the impression that incentives in the form of 
economic support or reconstruction assistance will be required for them 
to opt to return.
    Since the start of the bombing campaign new displacement has 
primarily taken the form of people fleeing cities and towns, where the 
bombing had been most intense until the end of October, to the 
countryside, either to live with relatives or to find temporary shelter 
in their village of origin or other safe location. With almost all 
urban areas in Afghanistan now in the hands of the Northern Alliance, 
we assume that most of these people will now opt to return to their 
homes, if security can be assured. Along the border with Pakistan RI 
staff report that there are no longer large concentrations of displaced 
people. They may already have begun to return to their homes in the 
light of the changing military situation.
    RI would like to underscore that it has been practically impossible 
to obtain an accurate and comprehensive picture of the situation for 
internally displaced people inside Afghanistan due to the lack of 
access. Now that parts of the country may become more secure, a 
strategy for identifying the location of the newly displaced and the 
scope of their needs is urgently required, followed by a rapid targeted 
response. To address the potential gap in providing this assistance, RI 
recommends that UNHCR, in cooperation with experience NGOs, should play 
the leading role in responding to their needs.
    Hunger, poverty and lawlessness afflict Afghanistan, a country 
where hundreds of thousands of people could die of starvation and 
exposure this winter. The significant advances in the coalition 
military effort over the past week, while promising from a humanitarian 
perspective, do not in and of themselves create the security required 
to mount the effort needed to save lives. Urgent action is needed more 
than ever to prevent a humanitarian catastrophe for the Afghan people, 
who after two decades of suffering deserve nothing less than security 
and the means to survive.

    Senator Wellstone. Mr. Bartolini.

   STATEMENT OF MARK BARTOLINI, VICE PRESIDENT OF GOVERNMENT 
   RELATIONS, INTERNATIONAL RESCUE COMMITTEE, WASHINGTON, DC

    Mr. Bartolini. Thank you, Senators, for inviting me to 
present the International Rescue Committee's view on the crisis 
in Afghanistan. I particularly want to thank you, Senator 
Wellstone, for your really exceptional leadership on this 
issue.
    A week ago, the International Rescue Committee--and Senator 
Lugar, you asked this question about what the NGO's were doing. 
We have been active in the region for 21 years. We have been in 
Afghanistan right after the Soviets left for about 12 years. We 
have about 1,500 staff that we work with through our local 
partners, and they really have been doing heroic efforts over 
the last 2 months. We do not have any expat staff in yet, but 
we probably will in the next few days. I know Mercy Corps and a 
few other organizations are going to send their expat staff 
back in.
    A week ago we were working in all-Taliban-controlled areas 
of Afghanistan. We were in the north, the southwest, and the 
east. Today, we are working in no Taliban-held areas of 
Afghanistan. We are working in some areas in the east where it 
is hard to tell who is in control. Paktia and Lowgar are two 
regions which are too difficult right now to tell who is in 
control.
    I want to touch on five areas that I think are critical, 
and one I hope the other panelists have touched on is access 
and security. While there certainly seems to be a very 
favorable turn in the situation, we are waiting for the 
situation to resolve itself. I spoke to our staff this morning 
up in Mazar-i-Sharif. It is very uncertain. There is still 
fighting going on.
    We have been asked by the Northern Alliance commanders in 
the region to continue to suspend our operations until 
Saturday, while they set up a garrison, and they will put 
military forces in the region to try to create some sort of law 
and order, but it is still anybody's guess whether or not--the 
Northern Alliance obviously have some political imperatives to 
demonstrate that they can create a situation for humanitarian 
assistance to proceed and for law and order, but having been in 
these situations in the past, it is possible we will face 
harassment, bribes, many of the things we were facing under the 
Taliban, and for these reasons I would echo Joel Charny's call 
for some sort of multinational force to go into Afghanistan to 
assure that humanitarian assistance can continue.
    Also, I think another critical dimension of this is the 
type of displacement that could occur, and this was a big fear 
of many Afghans. There was a fear of bombing, which made many 
flee, but there was also a fear of what would happen if the 
Northern Alliance moved back in. They have very stark memories 
of the early nineties during the civil war.
    And through our work, especially in Eastern Congo, where we 
have done dramatic studies on the link between displacement and 
mortality, if we see this population in Afghanistan, which is 
so decimated, displaced in large numbers, we will see 
significant mortality, and I do not think we are out of the 
woods on the question yet, so we really think security is the 
key to this situation now.
    Let me turn to the political equation, which is, of course, 
directly linked to this, and there is concern that events of 
the last week have outstripped the political process in terms 
of establishing a viable unity government, and we cannot stress 
too much the importance, we think, of moving forward on some 
sort of framework government that we can put in place as soon 
as possible to help stabilize the situation.
    Third, I want to touch on something Senator Wellstone 
raised earlier, and that is resources. The U.N. appeal has been 
oversubscribed for the crisis in Afghanistan in terms of 
pledges, but there can be a difference between pledges and the 
actual contributions that arrive in cash, and so we cannot 
stress enough the importance of governments coming forward with 
their pledges and fulfilling them.
    Also, there is still moneys out of the $320 million 
supplemental that need to go through the appropriations 
process, and we would urge that that is streamlined as much as 
possible, because while there are, I think, sufficient 
resources for the short term, I think within a few months we 
are going to be looking at--out of this $320 million we are 
going to need new resources to continue our work.
    Fourth, I would like to touch on the issue of refugees, and 
there are some 4 million refugees scattered between Iran and 
Pakistan, and clearly there is an opportunity here to create an 
Afghanistan that these people can return to, and we all saw the 
dramatic repatriation in Kosovo, some 800,000 people. I do not 
think we are going to see the speed, because of the conditions 
inside of Afghanistan, that we saw in Kosovo, but certainly we 
can work quickly to try to effect that repatriation which will 
not only give these people who are living in really deplorable 
conditions, most of them, a new lease on life, but it will 
also, I think, go far to stabilize the region.
    The other issue we have since this crisis began, we 
continue to call for open borders. We think that is crucial. It 
is mandated under the refugee convention and under 
international humanitarian law, but having said that, we also 
want to point out the danger, and I think it was--I am not sure 
if it was George or Joel who touched on this, but the danger of 
Taliban and their fighters crossing into Pakistan. We have been 
seeing that over the last few days.
    In these tribal areas there are Pashtu, and they are going 
to be very sympathetic to the population, and they could be an 
extremely destabilizing factor in Pakistan, and so while we 
call for open borders, we also recognize--and this is very 
difficult to do. There are some 2,000 kilometers of border that 
Pakistan has with Afghanistan, but some sort of screening 
mechanism.
    The camps that have been set up inside Pakistan in the 
northwest province frontier, frontier province, are very close 
to the border, within 10 kilometers. This really provides an 
ideal staging area for troops. It is one of the reasons that we 
have been opposed to transfer of refugees out of some camps 
into these newer camps, aside from the fact that they are also 
very difficult to service.
    Finally, let me touch on the long-term response. The 
withdrawal of the United States development assistance in the 
early 1990's was a contributing factor in the deteriorating 
conditions that led to the rise of the Taliban. To ensure that 
the massive efforts we currently have underway can be 
sustained, Congress will need to appropriate something on the 
scale that you are talking about, Senator, a dramatic economic 
package for the region. I think that is a really critical 
priority.
    Rehabilitation needs include a health care system, the 
agricultural system, and we are not talking in some cases 
massive projects. Even on a very local level, a simple 
irrigation system at relatively minor cost, that could make a 
dramatic difference on the Afghans' ability to feed themselves.
    We need to remove land mines. It is the most heavily mined 
country in the world. I had a report from our staff last week. 
We work in a camp up in the north, in Mazar-i-Sharif, called 
the Stoki camp. There is about 15,000 families in that camp. 
Six children went out--it has gotten very cold up there--went 
out to search for firewood. Three of them were killed when they 
stepped on a land mine, and the other three were severely 
injured. This is an unbelievably common occurrence in 
Afghanistan, so clearly mine clearance is one of the 
priorities.
    Rehabilitating orchards. The livestock in the famine belt 
region in the northwest of the country, the people have sold 
virtually everything. They are literally eating grasses and 
roots. The livestock in some of these areas has been depleted 
up to 80 percent, and the livestock is critical to the economy 
of the region for farming, for their very livelihood. Seeds are 
going to be another critical need.
    We did get some seeds up into the Mazar-i-Sharif area about 
2 weeks ago. There was some rainfall, and so that was 
encouraging, but people have eaten their seeds. There is less 
than 10 percent of the viable seed left in Afghanistan. They 
are going to need massive seed programs come spring for 
planting.
    Finally, after 22 years of war, as Senator Wellstone said, 
the Afghans deserve to live in an Afghanistan where they can 
feed themselves--we need to help them to do that--to live in 
safety, to educate their children, and to participate in 
society, no matter their gender, their ethnicity, or their 
religion.
    Thank you.
    [The prepared statement of Mr. Bartolini follows:]

   Prepared Statement of Mark Bartolini, Vice President, Government 
               Relations, International Rescue Committee

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to present the International Rescue Committee's (IRC) views on the 
humanitarian crisis in Afghanistan.
    Mr. Chairman, the IRC would like to express its deepest sympathies 
to the victims and their families of the 11 September attacks. These 
attacks, and the humanitarian crisis in Afghanistan which predated 11 
September, are now inexorably linked. There is a clear imperative to 
prevent future attacks against civilians and to bring the perpetrators 
to justice.
    The methods the United States employs to meet these objectives 
defines us as a people. The President has stated that the Afghan people 
are not our enemy. The Administration and Congress have appropriated 
$320 million dollars to respond to immediate humanitarian needs in the 
region. And the President has stressed that the United States will 
assist Afghanistan over the long-term, helping the country rebuild 
after 22 years of war. In the final analysis, it will be the United 
States' adherence to these promises, and not any one action, that will 
determine to what extent Americans can expect to win the ``hearts and 
minds'' of the people of the region, and the extent to which, in this 
time of great national trial, we live up to our own highest ideals.
    In my testimony today, I will provide a brief overview of the 
humanitarian situation and touch on five issues that are key to 
ensuring that the needs of the Afghan people are met.
                                overview
    The IRC implements programs in both Afghanistan and Pakistan. In 
concert with local partner agencies inside Afghanistan, the IRC employs 
over 1,500 Afghans who are heroically endeavoring to assist 750,000 
vulnerable individuals, 75-80% of whom are women and children. We are 
in contact with our staff on a daily basis from our office in Peshawar, 
Pakistan. In Afghanistan we are working in the North, Southwest and 
East, in a total of eight provinces, including the cities of Mazar-i-
Sharif, Herat, Kabul and Jalalabad. We are distributing food, shelter 
materials, clothing, medical supplies as well as seeds, firewood, 
stoves and hygiene kits. Other sectors in which we work include health 
care, water and sanitation, education, agriculture and infrastructure 
rehabilitation.
    Afghanistan suffers from one of the lowest rated indices for the 
human condition in the world. Prior to 11 September the World Food 
Program had identified some 5.5 million people in need of food aid. The 
infant mortality rate at 18% is the highest in the world. A quarter of 
all children die before they reach their fifth birthday. 1,700 mothers 
out of every 100,000 die in childbirth, life expectancy is 46. And 
approximately 90% of girls and 60% of boys that are of school age are 
affected by illiteracy. Many civilians, especially women, suffer from 
persecution and other violations of their human rights.
    The country has suffered from 22 years of war and 3 years of a 
severe drought. Fighting and drought has internally displaced over 
900,000 people, most having sold everything they owned before taking 
flight. Some have even sold their children seeing this as the only way 
for their children to survive. The drought has seriously degraded the 
condition of millions of civilians caught in this 22-year cycle of 
violence. Nutritional surveys reveal an increase in malnourishment with 
some areas approaching famine levels.
    In parts of the ``famine belt'' 80% of herds of sheep and goats 
have died due to the drought. Farmers have been forced to sell or eat 
their seed for food. Crops have failed and not produced seeds. Only 10% 
of Afghanistan's seed needs are currently viable. Children can be seen 
pulling grasses and roots for food, at great personal risk as the 
country is littered with the largest concentration of landmines in the 
world. Just last week three children were killed and three injured by a 
land mine explosion as they searched for firewood outside of the Sakhi 
refugee camp near Mazar-i-Sharif.
    The situation deteriorated even further after 11 September. In fear 
of coalition bombing and a power vacuum following a fall of the 
Taliban, Afghans fled the cities of Kandahar, Khowst, Kabul and 
Jalalabad. Taliban and lawless elements raided aid warehouses, stole 
vehicles, blocked convoys, demanded bribes and harassed staff. Given 
the displacement and disruption in food supplies, the World Food 
Program is now estimating some 7.5 million Afghans who are in need of 
food, clean water and shelter this winter.
    Recent surveys inside Afghanistan revealed famine and prefamine 
conditions in several areas of the country. And some refugees entering 
Pakistan have exhibited signs of severe malnutrition. Under such 
conditions people, especially children, succumb more readily to easily 
treatable diseases such as respiratory infections, vitamin A 
deficiency, measles and diarrhea. The harsh conditions of winter also 
will fall hardest on these vulnerable individuals.
    Despite all these obstacles humanitarian agencies continue to work. 
In the last two weeks the level of aid reaching the most vulnerable 
populations was increasing. The World Food Program has set a target of 
52,000 metric tons a month. Already in the first two weeks of November 
they have moved in 27,000 metric tons. In one area most in need, the 
Hazarajat, WFP has moved in 13,000 metric tons and the requirement for 
the entire winter is approximately 30,000 metric tons. The secondary 
distribution of this food to the beneficiaries will be done by NGOs 
like IRC still operating in Afghanistan. Supplementing these deliveries 
are NGOs who are contracting with local traders to bring food from 
neighboring countries into designated areas. Several American NGOs are 
just now ramping up their operations after having received USG funding. 
Will it be enough? That is a very difficult question to answer, and is 
dependent on a number of variables. In all likelihood we will avert an 
escalating humanitarian crisis in some, hopefully most, regions of the 
country. But there still exists the very real possibility of changing 
conditions that will make access to some areas difficult if not 
impossible.
                          access and security
    The dramatic fall of Taliban-held areas over the past several days 
presents both opportunities and dangers. Our staff in Mazar-i-Sharif 
reported on Monday a chaotic scene with bodies in the street, revenge 
killings, and looting of aid agencies. Many IDPs have expressed fear 
that the country could return to the chaos and brutality that marked 
the civil war years of the early 90s.
    Over the coming weeks the security situation will determine the 
success or failure of aid operations. Some agencies have already begun 
to return expatriate staff to Afghanistan. They are to some extent the 
``canaries in the mineshaft.'' The extent to which they can carry out 
their programs unhindered and in safety will determine how many more 
agencies are able to return staff and to what degree operations can 
continue to be expanded.
    If the security situation allows, there are opportunities to do 
significant airlifts into the most vulnerable regions, including the 
Hazarajat and Mazar-i-Sharif. Convoys from the Central Asian Republics 
can better access vulnerable areas of western Afghanistan. Efforts 
should be redoubled to urge the Uzbek government to open the Friendship 
Bridge at Termez, a vital link to northwestern Afghanistan. One 
estimate is that up to 25,000 metric tons a month can cross that 
bridge, half of Afghanistan's monthly requirement. And as that bridge 
provides the most ready access to the north, where the need is 
greatest, its opening would be a significant boost to aid efforts.
    With most of the significant vulnerable populations in the 
southwest and northwest falling out of Taliban hands, there is an 
opportunity to rapidly increase the level of aid reaching the most 
vulnerable populations. Steps should rapidly be taken to deploy a 
multilateral security force sanctioned by the United Nations Security 
Council to provide some level of security to territory now held by the 
Northern Alliance. Such a force could provide protection against 
ethnicity-based retribution, support a transitional government and 
protect against lawlessness and banditry that could potentially cripple 
aid efforts.
    There is a danger that further displacement could occur if the 
security situation is not stabilized. In a population as stressed as 
that now found in much of Afghanistan, displacement will almost 
certainly lead to higher mortality rates. Epidemiological studies the 
IRC has conducted in Eastern Democratic Republic of Congo expose a 
clear link between displacement and increased mortality. This has led 
us to prioritize our efforts to try and sustain people in their homes. 
And with the threat of bombing now over, this strategy becomes all the 
more imperative.
    The severity of winter will also play a significant part in the 
humanitarian equation. It will determine access to many higher 
elevation areas and it will pose the additional requirements of 
providing shelter supplies and clothing to keep people alive. In the 
north, we are trying to provide IDPs with a three months supply of food 
so that they can return to their villages rather than try and survive 
in a rudimentary shelter or tent.
                               resources
    The United States government, in combination with other donors, has 
contributed significant resources to address the short-term needs of 
the Afghan people this winter. The imperative now is to ensure that 
those resources arrive in a timely manner. Despite a United Nations 
appeal that has been oversubscribed, pledges do not always translate 
into actual contributions. There were some delays in getting the first 
tranche of money from the supplemental out to the agencies that needed 
those funds. The remaining supplemental funds for humanitarian response 
will need to go through the appropriations process. As with the first 
tranche, speed and flexibility of use will be key to ensuring they are 
most effectively spent.
                         the political equation
    There is concern that with the dramatic events of this past week, 
military action has gotten too far out in front of the political 
imperative of constructing a coalition government. The long-term 
success of this humanitarian intervention will largely depend on the 
viability of whatever coalition government is formed and the ability of 
such a government to act independently of neighboring states. The fact 
that this process is still in its infancy, augers for the rapid 
deployment of a security force to ensure stability while this process 
moves forward.
                                refugees
    Pakistan and Afghanistan's other neighbors should respect the right 
of first asylum and allow refugees fleeing the conflict to cross their 
borders. Refugees should not be forcibly repatriated back to 
Afghanistan in violation of the Refugee Convention and international 
humanitarian law.
    This being said it is important to point out a potential threat to 
Pakistan's security with respect to the border areas. The border with 
Afghanistan is roughly 2,000 kilometers long. Much of the border areas 
are ``Tribal Areas'' where the Government of Pakistan faces legal and 
political limitations in exercising its control. These areas are 
predominantly Pashtun. It is possible that Taliban and Arabs fleeing 
the south could be a destabilizing influence if they infiltrate these 
areas in Western Pakistan. For this reason, we see the need for careful 
screening at the border to ensure that Afghans entering Pakistan are 
bona fide refugees.
    The new camps in Pakistan's Northwest Frontier Province are 
extremely difficult for aid agencies to work in. They are located in 
insecure areas, the water table is in some case over 1,000 feet down, 
they are close to the Afghanistan border, susceptible to manipulation 
both by tribal leaders and belligerents entering from Afghanistan. The 
United States should continue to advocate for their relocation with the 
Government of Pakistan and the UNHCR.
                           long-term response
    The withdrawal of United States development assistance in the early 
1990s was a contributing factor in the deteriorating conditions that 
led to the rise of the Taliban. To ensure that the massive efforts 
currently underway are sustainable, Congress will need to appropriate 
further funds in order to address longer-term rehabilitation and 
reconstruction needs in Afghanistan. Priority rehabilitation needs 
include rebuilding the health care system, reconstructing irrigation 
systems, removing land mines, rehabilitating orchards, increasing 
livestock, providing seeds, and assisting in education.
    After 22 years of war, ten of which were fought with United States 
support against a brutal Soviet occupation, Afghans deserve to live in 
an Afghanistan where they can feed themselves, live in safety, educate 
their children, and participate in society to the fullest extent--
regardless of ethnicity, religion or gender.
    Mr. Chairman thank you for allowing the IRC to provide its views 
today before the Senate Committee on Foreign Relations

    Senator Wellstone. Thank you. Just superb testimony, and I 
just want to thank each of you for your wonderful work. People 
like you inspire me.
    I have three questions. I will go through them quickly, 
then we will move to Senator Lugar. I was--I guess, Mark, you 
were the one that said this, and it got me thinking. 
Originally, and I want to talk, the recent press makes it 
appear as if, now that the Northern Alliance has taken back 
many key cities in the north, that the security situation is 
good and humanitarian relief will flow easily, and I want to 
ask you about the security situation on the ground and also 
your assessment of the Northern Alliance's ability to establish 
security and promote law and order, and then I want to add a 
couple of things.
    Because of what you said, it sounds like a number of you 
have said already that we need some kind of U.N.-mandated 
force, not just for the sake of bringing the relief in, the 
humanitarian assistance in, but it seems like, Mark, what you 
said, I thought, was very interesting, which is that if we have 
a repeat of what happened before with the Northern Alliance, 
and you have all sorts of people fleeing the Northern Alliance, 
they are going to die, they are going to be internal refugees.
    So let me get some sense of Northern Alliance has taken 
over these key cities, ipso facto, security situation is good, 
humanitarian relief will be able to flow easily, or what is 
your assessment of where we are at right now?
    Mr. Bartolini. I think we are really in a waiting period 
right now. Clearly, the Northern Alliance has a political 
imperative to demonstrate that they can control the situation, 
but it is very unclear whether they will have the command and 
control down to their soldiers to actually effect that, and in 
Mazar-i-Sharif we saw aid organizations looted by the Northern 
Alliance. It was not just the UNICEF convoy. There were other 
aid organizations that suffered from this.
    In Herat we have not seen that problem. It has been calm 
down there, but I think it is really too early, and clearly the 
government, the Northern Alliance has moved very quickly into 
Kabul. There is no Pashtun representative in this coalition, 
and I think that is going to create very serious security 
problems unless it is worked out quickly.
    Mr. Devendorf. I would just echo that. It would indeed be 
truly ironic if, with withdrawal of Taliban from these areas, 
the international community was, in fact, not able to expand 
humanitarian assistance.
    Senator Wellstone. George, to a certain extent--I know this 
will sound odd to some people, but to a certain extent you had 
some cooperation from some of the Taliban, did you not? I mean, 
I am not saying 100 percent, but is that not true, that you had 
built up some kind of working relationships with them?
    Mr. Devendorf. Sure. Every agency that was continuing to 
run operations in Taliban-held territories had at least the 
acquiescence of those authorities, if not the outright support. 
What the Taliban brought to the areas which they controlled was 
law and order. It was a very severe form of that, but of course 
that has broken down in recent weeks, further complicating 
operations inside, and just the basic assurances that any 
agency would want to have before undertaking large-scale 
operations, simply to support what Mark was just saying, the 
Northern Alliance forces are the de facto responsible entities 
in the entire north of the country right now and, as such, I 
believe major governments and the U.N. should hold them 
responsible for the safety and security of the humanitarian 
operations ongoing in their areas.
    We have seen a couple of examples where Northern Alliance 
forces have offered to safeguard or help provide protection to 
some humanitarian compounds. Of course, while that was going 
on, there were also lootings taking place of humanitarian 
compounds by Northern Alliance forces.
    What is clear is that, more so than even any normal 
military force, the Northern Alliance is an alliance in name 
only, very disparate levels of command and control based upon 
the different individual personalities across their ranks, but 
again, I think that the same measures should be held with the 
Northern Alliance, and that is, are they cooperating and 
providing assistance, and if they are not, clearly we would 
seek the assistance of the U.N. and the major donor governments 
to try to encourage that as much as possible.
    Senator Wellstone. And just a quick reaction from any one 
of you all, and then I will go to Senator Lugar, and I will put 
my last two questions together.
    To me, in my mind there are three things to do, and I want 
this to be a working committee, and we want to be helpful, and 
one of them is working with our Government and from this 
committee as well to communicate a very emphatic message to the 
Northern Alliance that this is now your responsibility, to make 
sure that the relief work goes on and that people are to create 
the conditions on the ground for security so that this 
humanitarian relief gets to people. That is No. 1.
    Second of all, to think about or to propose that we really 
do need some kind of, along the lines of what Richard Holbrooke 
was talking about, and what you have talked about, not an 
actual U.N. force, but a United Nations-sanctioned force, 
international force to go in to help create these conditions on 
the ground.
    And then the third thing, everybody today, everybody has 
talked about the importance--and this is the first thing you 
started talking about--of reconstruction, that it is not too 
early for us to think about how we walk our walk when it comes 
to an economic reconstruction package, that that is terribly 
important for all sorts of reasons, so we do not repeat what we 
did in the past, because the people in Afghanistan deserve a 
different life than a living hell, and also, from very real 
politic reasons, as you have this huge vacuum, and all sorts of 
people are going to be wheeling and dealing in there, and 
people can go in any number of different directions, and this 
is going to have a lot to do with whether or not we can create 
the kind of conditions for stability.
    Those are the three things to work on, at least as I see 
it.
    Mr. Charny. That sounds like a good agenda. What I want to 
stress, because as you know, a lot of people in Washington get 
awfully nervous when you start talking about U.N.-mandated 
forces, I think what is needed immediately is basically police 
who can try and ensure stability and law and order in some of 
these key towns, so I do not want to raise the specter of 
200,000 U.N.-sanctioned troops fanning out all over 
Afghanistan, because that is when people understandably begin 
to get nervous.
    The idea is to either help the Northern Alliance assure 
security and stability, or, if they cannot do the job, replace 
them at the level of assuring basic law and order. Just to 
underscore the necessity of this, I heard an interview with the 
WFP spokesperson in Islamabad this morning, and he said that 
virtually no WFP convoys had crossed into Afghanistan in the 
last 3 days because of concern about the security situation, 
and so while the overall picture that Bernd McConnell painted 
is accurate, that major progress is being made, they have 
almost suspended operations in this uncertain time, and we 
just--we need every day. Every minute is critical to get food 
in and to get other supplies in in the coming days.
    Senator Wellstone. Senator Lugar.
    Senator Lugar. Thank you. I salute you, as the panelists 
have, for focusing our attention on this. Our powers, whatever 
they may be in this committee or in the Senate, are often what 
we are doing today, and that is trying to illuminate a 
situation and provide some oversight but also a forum for 
people well-informed, as you are on the ground, and with 
associates.
    There is a very steep learning curve for each one of us in 
the Senate, and to think through what is happening in the 
region as the Northern Alliance proceeded, toward Kabul, there 
was anxiety as to whether they should enter before the southern 
Afghans were to join them. On the other hand, anxiety was 
expressed, as to who will police the situation while the 
Taliban pulls out and before a new government is in place.
    So apparently, some Northern Alliance people came into the 
city to hold things down to a dull roar. This created great 
anxiety with the Pakistanis, and as we heard President 
Musharraf and his press conference with President Bush 
describing atrocities in the past, and the reasons why Pakistan 
has great anxiety, but if not the Northern Alliance, who?
    So the idea that Secretary Holbrooke has presented makes a 
lot of sense, but it requires some implementation. It would 
require our State Department and foreign ministers of other 
countries to coalesce with that suggestion, with Secretary 
General Annan or somebody to implement what we are discussing.
    This is a public forum, with well-informed people 
attempting to get the word out, and an agenda that needs to be 
met. Meanwhile, as you have all suggested, because the policing 
powers are uneven, perhaps better in some places than in 
others, the problems for the NGO's or for those who are 
offering humanitarian relief are substantial. The risks remain 
even if the military situation is improving.
    Our own military people are not in a position to do this 
job. They are at best auxiliaries to the Northern Alliance, or 
whoever is involved in ground fighting. Our forces pass 
messages back through the chain of command of what they 
observe, and that is helpful, and we found this with the 
testimony of Mr. Wolfowitz and Mr. Armitage and Mr. Hadley this 
afternoon, as the Senators queried them for the last hour and a 
half about all sorts of things, including the humanitarian 
situation, including this bridge and the wheat and so forth.
    So for whatever comfort it may be, they are reasonably 
well-informed, but becoming more so because we are interested 
in this situation and continue to pursue it with the 
administration.
    I suppose what I finally come to is, there is this whole 
problem of nation-building, who reconstructs, or who even 
constructs for the first time an Afghanistan that works. This 
is a situation in which there would be, ideally, some coalition 
of forces, who in the past have not moved along well, and in a 
country that, as you have described in the testimony today, 
with the highest infant mortality rate that I have ever seen--
180 per 1,000, as opposed to 12 in the United States. This is 
an awesome dilemma, long before we got into the war, and 
nutrition problems likewise--5.5 million people I think one of 
you pointed out in your testimony, even pre-war, quite apart 
from this situation.
    So whose responsibility is this? How does the world assist 
in the rebuilding of Afghanistan. There are a good number of 
Americans who feel that that is well beyond our ability, and 
furthermore, many people in the rest of the world would agree 
we ought not to be the major factor, although a contributor to 
this.
    Do you have any suggestion as to who does try to do the 
nation-building, who tries to bring together these coalitions 
of people who might be able to provide governance? How do we 
put this together in a fairly short period of time, so that 
there is some hope?
    Our military objective is still al-Qaeda, and the terrorist 
cells. The Taliban came into this simply because they refused 
to cough them up. They were in the way, so they are paying the 
penalty for shielding the terrorists, but the military effort 
is the terrorists.
    Now, the collateral damage is obviously the rest of the 
country, and the problem is how you continue to prosecute the 
war, and at the same time bring about some reorganization in 
the area that has been affected.
    I am just curious, after this long preamble, whether anyone 
has some thoughts on this subject.
    Senator Wellstone. That was a preamble well worth listening 
to.
    Mr. Devendorf. If nothing else, I think it aptly summarizes 
just how complex this situation is, and Senator, in answer to 
your question, I wish I had a short one. What I can say is that 
I firmly believe that if the U.S. Government tries to take upon 
its shoulders the full weight of rebuilding Afghanistan, it 
will fail. There is no way around that. It will fail in 
humanitarian terms, economic terms, political terms.
    Afghanistan has always been an area of the world adverse to 
centralized rule. It has long been the scene of conflict, both 
internecine and international. I do not think we can hope to 
change those overnight.
    What the international community can do is play a 
supportive role, supportive in terms of our diplomacy and in 
terms of our economic strength, to assist Afghans to try during 
this moment, which is perhaps one of the most optimistic 
moments in Afghanistan's history, at a time when the 
international community is more than ever focused upon trying 
to be constructive and assist people in that region to help 
them move forward the task of identifying what sort of 
governmental structure it is that is going to work for their 
people in their area of the world.
    Not necessarily to come with a preconceived notion of what 
that might look like, but be ready in good faith to meet good-
faith efforts by the Afghan people and their leaders, both the 
current ones and those that we hope will develop in the current 
weeks and months and years, to reward them for honest progress 
made toward that objective.
    Senator Lugar. That is a very good point. This is a 
situation in flux now, because of these crisis situations. A 
year ago, the situation was very bad in terms of infant 
mortality, but it would have been totally inappropriate for us 
suddenly to decide in a hearing like this that Afghanistan has 
enormous problems and we ought to get in there and wrench it 
around.
    But now, with the whole situation in flux, the 
international community in there, there are opportunities, even 
out of the crisis, to improve the situation for the people of 
Afghanistan.
    Mr. Charny. To me, I have done a lot of work in Cambodia, 
where the international community faced not an identical but a 
similar challenge of reconstructing a country while 
reconstructing a viable political framework for the country to 
go forward, and I think, based upon my Cambodian experience, I 
would make a few points.
    One is that it is not necessary for the political process 
and the reconstruction process to be lockstep together. There 
will be opportunities to do reconstruction work even before the 
political dispensation is clear, and I think we should seize 
those opportunities.
    We have to be really patient on the political side. I mean, 
I have never in my career seen a country as riven and as 
politically complex as Afghanistan, and if anyone tries to play 
God and create a new structure that does not have the support 
of the Afghan people through a participatory process that 
includes women, that includes all ethnic groups, that 
government will fall so fast, no matter how much international 
support it has, so again, for what it is worth, and again in 
the spirit of almost having a seminar discussion, I advise 
incredible patience on the political side while seizing 
opportunities to rebuild, even starting at the local level.
    I mean, if you have got an area of Afghanistan that is 
safe, where local people can participate in their own 
development, go for it. Put money into that place while 
patiently working on the political process at the same time.
    Mr. Bartolini. First of all, I agree with George. You 
clearly outlined the complexity of the situation. There are no 
easy answers, and I agree that the U.S. cannot do this on our 
own. However, we are doing quite a bit on the humanitarian 
side. We are providing the bulk of the assistance going into 
Afghanistan, and we have been for the last few years, and I 
think we obviously need to do that.
    But on the political side, I do think that there is a road 
map that we can look at as to what we do not want to follow, 
and your question as to the American people, and their question 
as to why we should do this at all, I think of you look at 
Afghans, they really were our proxies in one of the most 
important battles of the cold war.
    They did have very much a functioning society prior to the 
Soviet invasion in the seventies, and we did try to help them 
after the Soviet withdrawal, but I think the U.S., it was not 
only on the U.S.'s shoulders, but we became frustrated with the 
intervention from the surrounding countries, and we basically 
just gave up on them, and I think that is the point that we 
cannot do again, when we look at the situation that we are in 
today, and it will not be an easy process, and I do not have 
any easy solutions.
    It does seem that the U.N. will have to get involved at 
some point in terms of the nation-building aspect of this, but 
my plea today is that we do not do what we did in the past, and 
that is for whatever trials and tribulations we have to go 
through on the political side, that we stick it out.
    Senator Wellstone. We should finish, and I think Professor 
Lugar has really raised the key question. I have here a 
statement from Senator Boxer, who was at the briefing and then 
could not come over, and I almost--I feel like--I know that if 
Barbara was here she would want to talk a lot about the role of 
Afghan women in economic reconstruction, and I wonder whether 
you all might comment on the ways in which that could become a 
priority.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    Thank you Senator Wellstone, I am grateful that we are teaming up 
to co-chair this, our second hearing on the tragic situation in 
Afghanistan.
    And, thank you so much for your leadership on this crucial issue of 
providing humanitarian aid to Afghanistan. You have been a strong and 
forceful advocate for Afghan people who are suffering not just in 
Afghanistan, but also in neighboring countries as refugees.
    The United States, and indeed the international community, must 
understand that the military operations in Afghanistan are only part of 
the strategy in ensuring that Afghanistan is no longer a safe-haven for 
Osama bin Laden and other terrorists.
    While the Taliban has lost a lot of ground--especially in the 
northern part of the country--it does not mean that the humanitarian 
situation will be easily solved.
    In fact, it was repeatedly pointed out in our last hearing that the 
humanitarian crisis did not start with U.S. and allied airstrikes. It 
is the product of over 20 years of war and a historic and horrific 
drought.
    Of course, this crisis is exacerbated by the harsh policies of the 
Taliban. And, I hope that during today's hearing we will learn how 
recent events on the battlefield will help facilitate aid to regions of 
Afghanistan that were previously controlled by the Taliban.
    I also hope we can examine the longer term humanitarian needs of 
the Afghan people.
    If we are to ensure that Afghanistan ceases to be a haven for 
terrorists, we have to provide for the long term reconstruction needs 
of that country. We need to help Afghans set up a broad-based 
government that represents all groups--including women.
    And, we need to provide for the long-term security of Afghanistan 
that will likely include an international force to keep the peace 
during the post-Taliban transition.
    After the Soviets left Afghanistan in the late 1980s, we did not do 
enough to help bring stability and lasting security to the Afghan 
people. We can not make that mistake again.
    I look forward to hearing from our two panels of witnesses this 
afternoon to hear their ideas on providing for the short-term 
humanitarian crisis in Afghanistan, as well as the long term 
reconstruction effort.
    Thank you.

    Senator Wellstone. I think it is an important question in 
and of itself, and I have got to ask that in behalf of my good 
buddy, Senator Boxer as well. Just real quickly, could you do 
that--not as an aside. I just do not want to keep you a real 
long time. George just got back in last night. Any kind of 
reflections or comments you all might want to make?
    Mr. Bartolini. Well, I laid out in my testimony some of the 
potential problems I see in the coming months in terms of 
providing aid, but I also agree with statements that have been 
made, and you mentioned, Senator Lugar, that there are 
incredible opportunities here for Afghanistan, and clearly this 
is one of them.
    Of all the civilians that have suffered under the Taliban 
rule, I do not think anybody has suffered more than women, and 
as to the mechanism of more directly involving them in the 
political process, I really cannot offer too many specifics. I 
think it is a difficult thing to do in that part of the world, 
but clearly there are a number of organizations at grassroots 
level in Pakistan that have been working on this for sometime.
    The IRC has an adjunct, the Women's Commission for Refugee 
Women and Children, and this has been an issue that they have 
really focused on, and so there are nascent efforts, not so 
nascent, actually, now. They have been working for years to 
incorporate women's views, to build them into the political 
system, and with the events of the last few days I think we 
have a real opportunity there.
    Senator Wellstone. George, did you want to say anything?
    Mr. Devendorf. Maybe very brief ones. I agree completely 
with Mark's statement. This is a society which has been getting 
by, to use that term, with the creativity and productivity of 
half its people for far too long now, and in order to try to 
rectify that belief, agencies such as ours and the U.N. will 
really need to focus on education first and foremost for Afghan 
women, but then also look at ways to improve their productivity 
through credit schemes, through vocational training, health 
training and other things, that really should not come as add-
ons to existing projects, but should, in fact, be thematic and 
cross-cutting for all the activities that we engage in.
    Senator Wellstone. I think Senator Boxer would love that 
word, not add-ons.
    Let me just tell you that I think this was a superb 
hearing, a superb hearing because you are here, and also 
because we had excellent testimony from the administration, and 
I think the next hearing the subcommittee is going to have 
after--we are going to be gone for a week--is going to be on 
economic reconstruction, and what the key components of that 
will be, and get some people, Dick, that can think through--as 
you said, this is part of what we want to use the committee for 
is an educational forum.
    I mean, no one wants to be arrogant, and God knows, it does 
not work anywhere, and it does not work there, in Afghanistan, 
but you just provided us with so much helpful information. I 
thank you so much.
    And Senator Lugar, it is an honor that you have joined us. 
Thank you.
    Senator Lugar. Thank you, Mr. Chairman--great hearing.
    Senator Wellstone. The committee will stand adjourned.
    [Whereupon, at 4:35 p.m., the subcommittees adjourned.]
                              ----------                              


             Additional Statements Submitted for the Record

                 [Oxfam International--10 October 2001]

       Rebuilding Afghanistan: An Agenda for International Action

    The international community has begun to respond to the urgent 
humanitarian needs in Afghanistan. These efforts need to continue and 
intensify. But the needs of the country and its people will go beyond 
this immediate humanitarian crisis. Afghanistan will require a 
sustained international commitment to achieve peace and to rebuild the 
country after more than 20 years of war. This is not a short-term task; 
the international community will need to stay engaged, both politically 
and financially, for many years to come.
    Despite the current climate of fear and uncertainty, many Afghan 
citizens continue to work for peace and reconstruction in their 
country. Oxfam partners are working today to provide education to 
girls, to provide clean water to villages, and to remove landmines left 
behind by war. These groups and many others are continuing this 
important work and are ready to be part of an effort to rebuild their 
country.
    It is not too early to begin making the political and economic 
commitments that will be required to rebuild Afghanistan. To this end, 
Oxfam recommends the following.
  1. an intensified effort to address widespread humanitarian need in 
                afghanistan and in neighboring countries
    All efforts must be made to get food to Afghan people inside the 
country. Food is most likely to reach people in need if the aid effort 
is impartial and separate from military action. Assistance should be 
delivered through the UN and partner agencies, using existing 
distribution mechanisms (truck and donkey convoys) and local 
organizational capacity (local professional and traditional groups) to 
the extent possible. The USA, the European Union, and neighboring 
countries should ensure that borders are opened; respecting people's 
right to seek refuge, and that adequate assistance is provided, meeting 
the standards established under international humanitarian. law and as 
set out within the Sphere framework. Particular attention should be 
given to the protection of women in a context where there is greater 
vulnerability to gender-based violence.
 2. a un-led effort to establish a broad-based political coalition in 
                              afghanistan
    A UN mission in Afghanistan should draw lessons from previous 
experience in East Timor and Mozambique in order to ensure an effective 
transition to national governance. This process should be guided by the 
following principles:

          Responsive and accountable governance, which gives space to 
        civil society to participate in the political process.
          Recognition of all ethnic, religious, and regional groups in 
        any process of transition.
          Representation of women in structures of government and 
        political dialogue.
          Adherence to international human rights and humanitarian law, 
        and to the international conventions on rights to which 
        Afghanistan is a signatory.

    Ensuring support for these principles will only be possible if 
there is a sustained commitment by global powers to put aside historic 
enmities and alliances, to cease supporting single factions, and to 
invest in a broad-based national coalition.
               3. controls on arms supplies to the region
    The continued flow of arms to Afghanistan is a major cause of 
destabilization. As part of a longer-term strategy, the UN and 
neighboring countries should develop a comprehensive disarmament plan 
for Afghanistan and the region.
                4. a reconstruction plan for afghanistan
    An ambitious plan is required to resolve the chronic poverty, 
displacement, and damage caused by over 20 years of war. A 
reconstruction plan for Afghanistan will require strong leadership from 
the UN, in order to ensure real and perceived impartiality in the 
delivery of assistance. This plan should incorporate a regional 
strategy for addressing the grave conditions of poverty, displacement, 
and humanitarian need suffered by Afghanistan's neighbors. Critical 
needs will be in the areas of:
Health and Education
    Long-term development for Afghanistan requires that resources be 
focused particularly on education and health. Educated women who have 
been restricted from working in their profession (especially in the 
health and education sectors) must be re-integrated into society and 
allowed to contribute to the rebuilding of Afghanistan. An equitable 
education system for boys and girls, minority and Pashtun, urban and 
rural populations, must be developed.
Women's rights and representation
    A specific strategy to address women's exclusion will be required 
in any reconstruction plan. Development plans should recognize the many 
existing women's organizations in the country, and those operating from 
neighboring countries. The UN Gender Advisor post for Afghanistan 
should be filled immediately, and should participate in the highest 
levels of decision-making. Afghanistan should be supported in carrying 
through its commitments as a signatory to the Conventions on Civil and 
Political Rights, the Convention on the Rights of the Child, and the 
Cairo Declaration on Human Rights in Islam. Afghanistan should also be 
encouraged to ratify CEDAW.
Support to Afghan civil society
    Afghanistan has been largely portrayed as having no organizational 
structures outside of religious extremism and military factions. But 
there is an important professional, non-sectarian civil society that 
will ultimately determine the success of any efforts to rebuild the 
country. Afghanistan has also been home to some of the most important 
and courageous women's organizations in the region. These groups should 
be acknowledged and supported as part of any reconstruction effort.
                         5. donor coordination
    This will be crucial, given the significant amount of funding 
coming into the country. Donors should support the leadership of 
Lakhdar Brahimi in his new role as UN Special Envoy to Afghanistan in 
charge of the UN's overall humanitarian and political work in the 
country. A starting point for this mission should be the important work 
that was done on the 1999 Strategic Framework for International 
Assistance document, which went through wide consultation with 
international and national organizations. Donors should be committed to 
providing sustained and substantial funding.
                   6. the role of the european union
    This will be increasingly important in ensuring that there is 
adequate monitoring capacity of the political transition and 
reconstruction efforts. The EU should demonstrate its long-term 
interest by setting out a comprehensive strategy in support of the UN 
effort. The EU should extend the Common Foreign and Security Policy 
from its current focus on the Balkans and the Middle East to include 
Afghanistan and its neighbors.
                               conclusion
    In 1995, Boutros Boutros Ghali said that Afghanistan had become one 
of ``the world's orphaned conflicts--the ones the West, selective and 
promiscuous in its attention, happens to ignore.'' The current climate 
of war has again brought attention to Afghanistan's historic suffering. 
It is time now to ensure that it receives the attention it deserves, 
and does not once again slip into the realm of forgotten crises that 
the world has left behind.
    For more information about Oxfam's work in Afghanistan, please go 
to www.oxfamamerica.org; for more information about Oxfam's advocacy 
and policy work in Washington, please contact Bernice Romero or John 
Ruthrauff at 202-496-1180.
                                 ______
                                 

                 [Oxfam Briefing Note--1 November 2001]

              Food Has Now Run Out for Many Afghan People

    For over four weeks Oxfam International has been increasingly 
concerned about the deteriorating humanitarian situation in 
Afghanistan. We have been calling on all parties for a pause in 
military action and for the World Food Programme urgently to step up 
the trucking of food into Afghanistan before winter sets in. We now 
fear that time is running out for some communities. For others, time 
will run out if food deliveries do not dramatically increase in the 
next weeks and months.
    This failure by the international community to deliver enough food, 
combined with growing insecurity, has left hundreds of thousands of 
people suffering acute food shortages. In some areas of acute need, the 
bombing and the increased fighting from the Taliban and Northern 
Alliance has added to a climate of fear that has made many truck 
drivers and aid workers too frightened to work.
    Given the significant differences across Afghanistan, both in terms 
of need and access, any options must be specifically designed to meet 
the conditions on the ground. This may require a range of actors 
negotiating access to different areas of the country, and different 
approaches according to local conditions. They must reach all Afghans 
in need including those who may become trapped in their villages by the 
coming snows and spreading violence. This will require a flexible 
approach that draws from the local knowledge of Afghan organisations 
and international agencies operating on the ground.
    We are therefore calling for:

          1. The trucking of food to be dramatically increased to areas 
        where access is still possible (including most of the central 
        provinces of Bamyan, Uruzgan and Wardak). There are still 
        thousands of people that can and must be reached by a 
        significantly increased delivery of food into Afghanistan by 
        land, and by air drops and lifts into secure zones. Greater 
        diplomatic pressure is required to ensure that neighbouring 
        countries are facilitating trucking into Afghanistan by easing 
        bureaucracy at borders. This is a priority option for zones 
        considered accessible and will require increased efforts by WFP 
        to move higher quantities of food into the country.
          2. The United Nations, the ICRC, and the coalition 
        governments to consider more radical options for some regions 
        (including parts of Faryab, Ghor, Balkh and Badghis) where food 
        is already running out. This could include the negotiation of 
        safe routes and safe zones for food delivery, and air drops. We 
        know that some of these options are not the most effective way 
        to get food to people, and that trucking would have been 
        better. But given the level of the crisis in some areas, all 
        options must now be considered. It should not be forgotten that 
        the Geneva Conventions clearly establish the obligation of all 
        warring parties to ensure that food and medical supplies reach 
        civilians.
          3. A pause in all military action, including air strikes, at 
        least in some zones so that food stores within the country can 
        be replenished. The specific areas and timing should be 
        negotiated and co-ordinated by the United Nations. We believe 
        that this would remove an important fear that is preventing 
        truck drivers from working in some areas of acute need.

    New food aid is moving into some parts of Afghanistan. But seven 
provinces in the north, north-west and centre of Afghanistan include 
areas of acute concern. Reports of deteriorating security, and the 
rapid onset of winter in mountainous areas, come on top of the existing 
need for substantial food aid. Oxfam draws this conclusion from WFP 
estimates in July predicting that food would run out within 3-6 months 
in these selected areas. While there is no reliable information about 
population movements since September, there are also no reports of 
significant numbers of refugees from these provinces. This suggests 
that the majority of people are still in their homes and may have even 
been joined by people fleeing the cities.
    At the start of November, some but limited new food is entering the 
country, and winter is closing in. WFP's earlier projections suggest 
that parts of Afghanistan are on the threshold of a far deeper crisis. 
It is now likely that:

          In the north and north-west, in parts of the four provinces 
        of Badghis, Faryab, Ghor, and Balkh, 400,000 people are already 
        suffering acute food shortages. At least 1,300,000 will 
        probably have little or no food by the end of December. At 
        least 700,000 of these live in Faryab.
          Around 350,000 people in Badghis, Ghor, and Faryab are 
        located in areas soon to be largely cut off by the onset of 
        snows during November. After that, aid will only be able to get 
        through with extraordinary measures to keep overland routes 
        open or supply by air:
          In the north-east, in parts of Badakhshan, around 260,000 
        people will be largely cut off by the onset of winter this 
        month, and will have little or no food by the end of December. 
        They too will need especial efforts to get aid to them.
          In the central provinces of Bamyan, Uruzgan and Wardak, 13 of 
        the 25 districts may be largely cut off during winter because 
        of their high terrain, affecting over 540,000 people.

    Oxfam and its partner organisations continue to deliver assistance 
in some of these areas, where security allows. Our current aid is 
mostly food purchased locally through Oxfam grants, and distributing 
food supplied by WFP in the central highlands and north-east. In Ghor, 
Badghis and the mountainous parts of Herat and Farah, we will be doing 
everything possible to support partners to keep roads open during the 
winter.
    The war further complicates this picture, because even in the zones 
that are not cut off by winter snows, accessibility for aid workers is 
severely limited by insecurity. Taliban soldiers and other militias 
have looted aid offices in Kandahar, Mazar-i-Sharif, Ghana, Kunduz and 
other areas. Insecurity in Kandahar and Herat is due to a break down of 
law and order; in Ghor and Badghis it is due to increased fighting 
between the Taliban and Northern Alliance. Continued bombing in most 
parts of north and central Afghanistan, and the use of cluster bombs, 
have created a climate of fear that severely limits the ability of WFP 
and other agencies to continue food deliveries. Islamic NGOs that are 
currently delivering food into the east believe that they could do much 
more if fear by truckers could be diminished.
                                 ______
                                 

                 [Oxfam Briefing Note--9 November 2001]

  Between a Rock and a Hard Place: The Plight of Those Seeking Refuge 
                            from Afghanistan

    War and drought in Afghanistan have generated the second largest 
exodus of refugees in the world. Before the current military campaign, 
there were 3.6 million refugees in neighbouring countries and abroad; 
now tens of thousands more have fled towards Pakistan and Iran. The 
conditions faced by internally displaced people and refugees are far 
below any acceptable standards. Oxfam is calling on the governments of 
the region and the international community to take urgent action to 
ensure that basic needs are met and that people's rights are respected 
within international humanitarian law.
    Although the numbers of people who have fled across or towards 
borders are uncertain, it is clear that people are on the move, fleeing 
food shortages, bombardments, and violence. The UN estimates that 80 
per cent of the population of the southern city of Kandahar has left. 
Thirty per cent of the population has left Herat in the west, and 
several other towns are also nearly empty. Many have simply fled to the 
countryside, but others have sought to cross into neighbouring 
countries, although relatively few have been allowed to cross the 
borders.
    According to the UN, the Taliban is actively preventing people from 
leaving Afghanistan, even those in need of urgent medical attention. 
Gross human rights abuses by the Taliban against people fleeing east 
from Kabul have been reported. Abuses by uncontrolled forces will 
inevitably increase with a breakdown of law and order in many places.
    The humanitarian situation in camps inside the Afghanistan border 
is appalling. In some places conditions are deteriorating rapidly, with 
cases of malnutrition and disease on the rise because essential, life-
saving conditions such as access to food, clean water and medicines 
cannot be provided. Camps in Pakistan are inadequate; new sites do not 
meet standards of safety nor allow conditions for life with dignity.
    Neighbouring countries, particularly Pakistan and Iran, have been 
generous in hosting millions of Afghan refugees in recent years, but 
these countries have now stated that it is against their national 
interests to open their borders. While their concerns may be valid, it 
is clearly their responsibility, with sufficient financial and 
institutional backing from the international community, to ensure that 
refugees are granted due protection and assistance.
    Oxfam fears that the growing tensions around refugees are leading 
to an environment in which measures may be taken to round up and return 
refugees to Afghanistan. If refugees were to be turned away at the 
borders and pushed back into Afghanistan, where their lives are in 
danger, this would amount to refoulement--forced repatriation--and 
would contravene the 1951 Refugee Convention. Nearly all the countries 
in the region have signed and ratified this document, which has 
acquired the force of a customary international law over all countries.
    The breakdown of the fundamental principles of international 
humanitarian law inside Afghanistan, and the collapse of the 
international refugee asylum system in the region, amount to a profound 
failure by the international community to uphold those measures 
introduced in the aftermath of the Second World War to ensure that 
massive abuses of human rights would never be allowed to happen again. 
The failure of the coalition governments to campaign sufficiently for 
the protection of civilians inside Afghanistan and the opening of 
borders to provide asylum for legitimate refugees in neighbouring 
states is a particularly alarming aspect of the current crisis.
    There are immediate steps that can be taken to diminish the 
obstacles and fears faced by neighbouring states. Arguments to keep the 
borders shut could be more easily countered if a proper system of 
refugee status determination was in place, with refugee camps located 
at a suitable distance from international borders, and with an 
assurance of their civilian nature guaranteed by the host countries and 
the UNHCR. To meet the financial burden of this crisis, donors must 
provide prompt and adequate funding and institutional support for host 
governments. These pledges must be quickly fulfilled, since these 
countries are already among the poorest in the world, and facing the 
same devastating three-year drought as Afghanistan.
Oxfam is therefore calling for:
          1. States neighbouring Afghanistan to open their borders to 
        refugees without further delay. Neighbouring states should 
        remove all obstacles to granting immediate protection and 
        assistance to all those fleeing Afghanistan. This must include 
        the agreement to respect the principle of non-refoulement. 
        Protection would also include the establishment of secure and 
        habitable living areas (camps), with adequate provision of 
        shelter, food, water and sanitation, health care, and other 
        basic necessities according to recognised minimum standards 
        (e.g. Spheres \1\). Given the time it is taking to establish a 
        proper system of refugee status determination, temporary 
        protection should be granted, but only as a very interim 
        measure that does not impede people from seeking full refugee 
        status.
---------------------------------------------------------------------------
    \1\ The Sphere standards establish a set of universal minimum 
standards in core areas of humanitarian assistance. They are ascribed 
to by most major humanitarian agencies, and are endorsed by ICRC, 
InterAction, VOICE and ICVA.
---------------------------------------------------------------------------
          2. The international community, the United Nations and the 
        U.S.- and UK-led coalition must make clear and public 
        statements in favour of open borders. Insufficient pressure and 
        incentives have been applied to countries in the region to 
        address the refugee situation seriously. Coalition governments 
        have a particular role to play in ensuring that humanitarian 
        law is upheld, and that diplomatic efforts in the region 
        include explicit agreements on addressing the needs and rights 
        of refugees.
          3. Neighbouring states should provide secure access for 
        impartial humanitarian agencies to refugee camps and should 
        themselves offer whatever assistance they can. This is likely 
        to be the only way in which the welfare of refugees can be 
        assured. Measures should be taken to preserve the civilian 
        nature of the camps, such as providing policing, ensuring camps 
        are at an adequate distance from any military zone, and 
        preventing camps being used to recruit refugees into militia.
          4. Donor countries must ensure adequate funding. While 
        pledges for the Afghanistan appeal have been high, donors must 
        deliver the cash as soon as possible in order to reassure host 
        countries that the financial burden of humanitarian support is 
        indeed being shared among donor and host countries. Early 
        pledges will also increase flexibility in the delivery of 
        relief into Afghanistan and throughout the region. Funding 
        should be sustained for the medium- to long-term, supporting 
        development projects in the host countries as well.
          5. UNHCR must fulfil its protection mandate. In this charged 
        climate, the UNHCR must strongly denounce any moves to 
        repatriate refugees forcibly. In addition, the UNHCR's own 
        guidelines and standards for the protection of women should be 
        implemented. Humanitarian agencies should deploy women in their 
        planning and front-line staff, so that access to refugee girls 
        and women is increased.
          6. Human rights and protection observers should be deployed. 
        Staff of the UN's Human Rights Commission should be engaged in 
        any assistance situation, whether inside Afghanistan or in 
        neighbouring countries. They would play an important role as 
        witnesses of, and deterrents for, further abuses. They could 
        also address specific concerns relating to gender violence and 
        dislocation. International donors should contribute 
        specifically to this purpose.
            conditions faced by refugees fleeing afghanistan
Afghanistan
    There are rising health concerns at the makeshift camp in Spin 
Boldak (near the Chaman crossing, but inside Afghanistan and under 
Taliban control). For example, there have been increasing cases of 
malnutrition and dysentery among children. According to the UNHCR, the 
camp's population is about 3000 people, or some 700 families. At least 
100 families are reported to be sleeping in the open without any 
shelter or aid.
Pakistan
    Up to 100,000 people are thought to have entered Pakistan through 
Baluchistan and the North West Frontier Province since 11 September, 
even though the border has remained officially closed except for 
``exceptionally vulnerable'' persons. Even so, it is believed that an 
average of 2500 Afghans a day cross the border. According to the UNHCR, 
an estimated 135,000 refugees have fled to Pakistan between 11 
September and 7 November in spite of the dangers, restrictions, and 
costs of this journey. Many of these people are described by the 
Pakistan authorities as ``invisible,'' blending in with established 
refugee communities in the hope of not being deported.
    There are clearly not enough camps in place to receive, process, 
and assist populations in need. Killi Faizo staging camp in Pakistan, 
near the Chaman border, currently holds some 2400 people and, according 
to the UN, is over-capacity. The site was filled and further 
registration closed in just over a week after opening. Longer-term 
refugee camps have still not been properly established. Conditions in 
those areas designated as camp sites will almost certainly be 
extraordinarily harsh and inhospitable.
Iran
    Iran has not opened its borders, even though it is a signatory to 
the 1951 Refugee Convention. Instead, it has offered to assist 
displaced people on the Afghan side of the border through the Iranian 
Red Crescent Society. This decision removes any recourse for refugees 
to international legal protection.
    Tens of thousands of desperate refugees have reportedly crossed 
illegally into Iran, many having paid smugglers for their passage. The 
border with Afghanistan is heavily mined and the risks of death or 
injury from landmine explosions are very real. Records from visiting 
medical teams, cited in the UK's national Guardian newspaper on 6 
November, indicate that 43,000 refugees have arrived in the country 
since 11 September, although authorities suggest that the number could 
be closer to 60,000.
    There are currently two established camps near the Iranian border, 
inside Afghanistan. NGOs have only restricted access to Makaki camp, 
which receives 900-1000 new arrivals each day. It currently hosts some 
7000 refugees. A second camp, ``Mile 46,'' hosts some 144 families, 
despite the fact that there is very little food or water in the area. 
Iran provides electricity and a small clinic to test for communicable 
diseases, such as malaria, cholera, and TB. These camps have filled 
very quickly since opening.
    The Iranian authorities are considering opening a third camp at 
Pashmakeh. However, conditions here might be even worse than at the 
other two camps, with particular concerns about water.
Turkmenistan
    There are mixed groups of combatants and civilians living in 
difficult conditions along Turkmenistan's border with Afghanistan. 
Screening and disarmament would be necessary in order to provide 
protection to civilians. The border is officially closed to people 
wishing to enter the country. Importantly, the government of 
Turkmenistan has agreed to facilitate visas for foreigners working with 
Afghans across the border, but has expressly forbidden emergency work 
with newly arrived refugees.
Uzbekistan
    Uzbekistan hosts approximately 30,000 Tajik refugees, but very few 
Afghan refugees. It is unlikely to see a large number of refugees at 
its small border with Afghanistan. However, the government has agreed 
actively to facilitate cross-border assistance. It has also allowed the 
establishment of a forward UN logistics base on the border at Termez.
Tajikistan
    Tajikistan hosts some 5000 officially registered refugees. The 
borders to Tajikistan are open for humanitarian access but not for 
general population movement. There are an estimated 10-15,000 Afghan 
refugees living on islands in the Pyandzh River which separates the two 
countries. The Taliban front line is about one mile from some of these 
islands, and combatants have not been separated from genuine refugees. 
Conditions on these islands are poor, with limited access to water and 
a great need for clothing and shoes for children. Last winter many 
refugees died of hypothermia, malnutrition, and disease.

                                   - 

</pre></body></html>
